<html>
<title> - EXAMINING THE PRESIDENT'S FISCAL YEAR 2008 SUPPLEMENTAL REQUEST FOR THE WARS IN IRAQ AND AFGHANISTAN</title>
<body><pre>[Senate Hearing 110-321]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-321
 
EXAMINING THE PRESIDENT'S FISCAL YEAR 2008 SUPPLEMENTAL REQUEST FOR THE 
                      WARS IN IRAQ AND AFGHANISTAN 

=======================================================================

                                HEARING

                               before the

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                   SEPTEMBER 26, 2007--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

40-668 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















































                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director















































                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Robert C. Byrd......................     1
Statement of Senator Thad Cochran................................     3
Statement of Hon. Robert Gates, Secretary of Defense, Department 
  of Defense.....................................................     4
General Peter Pace, United States Marine Corps, Chairman, Joint 
  Chiefs of Staff................................................     4
Tina Jonas, Comptroller..........................................     4
Prepared Statement of Robert Gates...............................     6
Statement of Hon. John D. Negroponte, Deputy Secretary of State, 
  Department of State............................................     8
Passage of Fiscal Year 2008 Bill and Formulation of the Fiscal 
  Year 2008 Supplemental.........................................     8
Iraq Progress....................................................     8
State Department Operating Funds.................................     9
Afghanistan......................................................     9
West Bank and Gaza...............................................     9
Intent to Amend the Fiscal Year 2008 Supplemental Request........    10
Prepared Statement of John D. Negroponte.........................    10
Iraq.............................................................    10
Afghanistan......................................................    11
West Bank/Gaza...................................................    11
Private Security Contractors.....................................    12
Foreign Military Sales...........................................    14
Mine Resistant Ambush Protected Vehicles.........................    15
Private Security Contractors.....................................    17
Thank You to Congress............................................    18
Bilateral Talks With Iran and Syria..............................    20
Iran's Nuclear Enrichment Program................................    21
Multinational or U.N. Peacekeeping Forces in Iraq................    21
Oversight of Private Contractors.................................    23
Legal Authority for Extraterritorial Investigations and U.S. 
  Prosecution....................................................    23
Addressing Allegations of Obstructing Inquiry....................    24
Status of Blackwater Investigation...............................    24
United States-Iraqi Joint Commission.............................    24
P-A-C-E- Meant Peace.............................................    25
Pakistan as Key Ally in Fighting the War on Terror...............    25
Pakistan's Political Process.....................................    26
Petraeus Report..................................................    26
Guantanamo.......................................................    27
Don't Ask Don't Tell.............................................    29
Uniform Code.....................................................    30
State Department Request Builds Capacity for Nation Building.....    31
Iraqi Refugees...................................................    32
Healthcare for Wounded Warriors..................................    33
Federalism in Iraq...............................................    37
Iraq Study Group.................................................    39
Withdrawal From Iraq.............................................    40
Iraq Assessments.................................................    41
Staffing Shortages for Army Warrior Transition Units.............    43
al Qaeda.........................................................    46
Long-term Commitment to Iraq.....................................    47
Rules for Private Security Contractors...........................    50
Withdrawal from Iraq.............................................    52
Sections 1206 and 1207 Update....................................    53
Global Responsibilities..........................................    55
Iraqi Benchmarks.................................................    57
Additional Committee Questions...................................    59
Questions Submitted to Hon. Robert Gates.........................    59
Question Submitted by Senator Patrick J. Leahy...................    59
National Guard Equipment.........................................    59
Questions Submitted by Senator Richard J. Durbin.................    60
Questions Submitted by Senator Frank R. Lautenberg...............    62
Questions Submitted by Senator Arlen Specter.....................    63
Questions Submitted by Senator Pete V. Domenici..................    65
Questions Submitted by Senator Larry Craig.......................    66
Questions Submitted by Senator Sam Brownback.....................    67
Questions Submitted by Senator Wayne Allard......................    67
Questions Submitted to General Peter Pace........................    68
Question Submitted by Senator Frank R. Lautenberg................    68
Questions Submitted by Senator Pete V. Domenici..................    68
Questions Submitted by Senator Sam Brownback.....................    69
Questions Submitted to John D. Negroponte........................    70
Questions Submitted by Senator Patrick J. Leahy..................    70
Iraqi Refugees Request...........................................    71
Iraqi Refugee Processing.........................................    72
Pakistan.........................................................    73
Afghan Reconstruction............................................    74
Uighers..........................................................    76
Questions Submitted by Senator Richard J. Durbin.................    76
Questions Submitted by Senator Pete V. Domenici..................    80
Question Submitted by Senator Larry Craig........................    81
Questions Submitted by Senator Sam Brownback.....................    82


EXAMINING THE PRESIDENT'S FISCAL YEAR 2008 SUPPLEMENTAL REQUEST FOR THE 
                      WARS IN IRAQ AND AFGHANISTAN

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2007

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 2:05 p.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Inouye, Leahy, Harkin, Mikulski, 
Kohl, Murray, Dorgan, Feinstein, Durbin, Reed, Nelson, Cochran, 
Stevens, Specter, Domenici, Bond, Shelby, Gregg, Bennett, 
Hutchison, Brownback, Allard, and Alexander.


              opening statement of senator robert c. byrd


    Chairman Byrd. Secretary Gates, General Pace, Deputy 
Secretary Negroponte, thank you for coming here today.
    I would like to issue a special welcome to General Pace, 
who will soon retire as the Chairman of the Joint Chiefs of 
Staff after 40 years of service in the Marine Corps. Today 
marks his last appearance in uniform before the Appropriations 
Committee. General Pace has been a tireless advocate for those 
serving in harm's way. On behalf of all of the members of the 
Appropriations Committee, I thank you, General Pace, for your 
outstanding service in defense of our great Nation, and I wish 
you all the best in your future plans.
    The Appropriations Committee meets this afternoon to hear 
testimony on the President's supplemental appropriations 
request for the wars in Iraq and Afghanistan. The Congress has 
now appropriated over $450 billion for the nefarious, infernal 
war in Iraq. The President has requested another $150 billion 
of emergency funding for the wars. It is my understanding that 
the President intends to seek another $45 to $50 billion, 
bringing the total emergency request for just 1 year--1 year--
to nearly $200 billion.
    I'm disappointed that, 4 days before the new fiscal year, 
we still have not received the President's revised request. I 
considered postponing this hearing until the President submits 
his request, but there are so many fundamental flaws in the 
President's Iraq policy and the execution of that policy, that 
I decided we should proceed with this public airing of the 
issues.
    Today, President Bush has not requested one thin dime to 
fund the cost of his so-called ``surge'' policy next year. I 
believe the surge is a fatally failed policy. While our troops 
continue to operate with professionalism and heroism, the 
mission that the President has given them is flawed--flawed at 
its core. We cannot create a democracy at the point of a gun. 
Sending more guns does not change that reality. And this 
committee will not--N-O-T--not rubberstamp every request that 
is submitted by the President.
    If the Congress were to approve the President's revised 
budget request, total funding for the war in Iraq will exceed 
$600 billion--$600 billion; more than 3,800 American deaths--
3,800--more than 27,000 Americans wounded. Staggering costs. 
But even those costs fail to include the many indirect costs of 
this terrible war that will ultimately be borne--by whom? Whom? 
Whom? The American people. Larger Veterans Administration 
costs, interest payments on the additional debt, higher oil 
prices, the long-term expense of rebuilding our battle-weary 
fighting forces, the losses and stresses on our military 
families, and the incalculable long-term damage inflicted on 
our image and our good reputation in the world, all of this for 
a war--a war--a war that General Petraeus, 2 weeks ago, could 
not say had made Americans safer.
    Now we hear the President talking--yes, talking--about a 
50-year commitment in Iraq. Do you hear that? Similar to our 
military involvement in Korea. Based on an analysis by the 
Congressional Budget Office, the Senate Budget Committee 
estimates that such a long-term presence could cost well in 
excess of $2 trillion--$2 trillion--yes, you heard me, $2 
trillion. That's quite a burden that this President is leaving 
to our grandchildren--yours and mine--our grandchildren, whose 
future will have to be mortgaged to pay for it.
    The question is--what we should have foremost in our minds 
is this question, the one that General Petraeus--yes, the one 
that General Petraeus was unable to answer--Is America more 
secure as a result of this massive, astronomical investment? I 
believe the answer is crystal clear, we are not. We are now 
4\1/2\ years into this war, and 7 months into the President's 
surge strategy that sent an additional 30,000 troops into Iraq. 
Yes, the ``Charge of the Light Brigade.''
    In January, the President said that this military 
escalation was a temporary strategy to give the politicians in 
Baghdad breathing room to forge a political consensus. That 
rationale vanished as it became clear that no progress on the 
political front is on the horizon. The new buzzword is ``bottom 
up,'' and a vague hope that incremental progress in the 
provinces will somehow miraculously lead to national 
reconciliation.
    The President and his supporters claim that we're now 
finally on the cusp of progress, and that we must continue to 
``stay the course.'' Ugh, have you heard that before? Call me a 
skeptic, but we have heard this tune before. Yes, haven't we? 
Yes. The White House's reasons for our military occupation in 
Iraq shift with the winds. But the message is always the same, 
``Stay the course,'' continue the calamity.
    The American public was sold on this war--yes, it was--it 
was sold on this war, with metaphors about mushroom clouds--I 
heard all those--and fanciful visions--yes--of our troops being 
greeted as liberators--I heard that, and I saw that, yes. The 
fear tactics and half-truths continue as the President suggests 
that terrorists will follow us here--did you--have you heard 
that before?--if we withdraw from Iraq. And the administration 
grasps at every straw to demonstrate progress on the ground.
    As Mark Twain--Mark Twain once said, ``There are three 
kinds of lies: lies, damned lies, and statistics.'' Are we 
really seeking progress toward a stable, secure Iraq? Are we? 
Is our continuing occupation encouraging the Iraqi people to 
step up and take responsibility for their own? Is it? Is it? 
Are Iraq's leaders doing the hard work necessary to build a 
political consensus? Ah, how about it? What do we mean when we 
say ``support the troops''--whoa, what do we mean?--what do we 
mean?--our brave fighting men and women have been given a near-
impossible task, which they have performed with dedication, 
with professionalism, with courage, and with honor. The 
Congress has provided everything that the generals have asked 
for, and more; at times, going beyond the President's budget to 
supply body armor and mine-resistant vehicles for our soldiers. 
The President has taken that support for our men and our women 
in uniform to imply support, and even validation of his policy. 
Now he talks about some sort of indefinite American occupation 
of Iraq. How appalling--how appalling--that this President, who 
started his administration by saying that he would never allow 
our troops to be under the control of another government, now 
holds our troops in Iraq hostage to an Iraqi government that 
cannot govern.
    In the fifth year of this terrible, misguided conflict, 
this Senator--yeah, this man from the hill country--believes 
that it is time for a thorough evaluation of the Bush war in 
Iraq. If we're serious about supporting our troops, we owe them 
nothing less.
    I look forward--I look forward to your testimony.
    Senator Cochran.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, I'm pleased to join you in 
welcoming Secretary of Defense Gates, Deputy Secretary of State 
Negroponte, the Chairman of the Joint Chiefs of Staff, General 
Pace, to this hearing. We appreciate your presence, your 
cooperation with our committee, and your leadership of those 
who serve our great Nation.
    We know that this is a controversial subject. We don't 
shrink from the challenge of reviewing it in a careful and 
thoughtful manner, with respect for you and what you are doing 
to protect our Nation. I know that we all look back with horror 
and remember the events of World War I and World War II. We 
thank you for helping defend against terrorism, and keep from 
happening, world war III.
    Chairman Byrd. Yes.
    Senator Cochran. And it is my personal opinion that the 
work that you are doing now, and the leadership our country is 
providing, in many ways, is designed to achieve that goal, of 
preventing a future, wider and more calamitous event. 
Therefore, we want to carefully review the request the 
President is making for supplemental funding for the 
Departments of Defense and State and other activities related 
to the war on terror. We thank you for your hard work, and we 
welcome you to the hearing.
    Chairman Byrd. We welcome today Secretary Robert Gates, who 
is accompanied by General Peter Pace and Comptroller Tina 
Jonas. We also welcome Deputy Secretary of State John 
Negroponte. Following their statements, I will recognize 
members, in order of seniority, for up to 7 minutes each.
    Secretary Gates.
STATEMENT OF HON. ROBERT GATES, SECRETARY OF DEFENSE, 
            DEPARTMENT OF DEFENSE
ACCOMPANIED BY:
        GENERAL PETER PACE, UNITED STATES MARINE CORPS, CHAIRMAN, JOINT 
            CHIEFS OF STAFF
        TINA JONAS, COMPTROLLER
    Secretary Gates. Mr. Chairman, members of the committee, 
first I'd like to thank the committee for all you have done to 
support our military over these many years, and I appreciate 
the opportunity to speak with you today about the fiscal year 
2008 global war on terror request.
    Mr. Chairman, thank you for your kind words about General 
Pace. I've come to trust him completely, and rely on his advice 
these past 10 months. And I thank you for joining me in wishing 
him well and thanking him for his four decades of service to 
our country.
    I urge the Congress to approve the complete global war on 
terror request as quickly as possible and without excessive and 
counterproductive restrictions. That will help the Department 
manage----
    Senator Durbin. Mr. Chairman?
    Secretary Gates [continuing]. Expenses----
    Senator Durbin. Mr. Chairman? Mr. Chairman? Mr. Chairman?
    Chairman Byrd. Senator Durbin.
    Senator Durbin. I believe that our witnesses before this 
committee are entitled to be heard. I think those who have been 
invited to attend this hearing should not express approval or 
disapproval. Whether we agree or disagree with the testimony, 
it is their right to be heard by all members of the committee.
    Senator Leahy. Mr. Chairman, I associate myself with the 
comments of the Senator from Illinois.
    Chairman Byrd. Let there be order.
    Secretary Gates. While this hearing is focused on the war 
funding request, I would like to note, with concern, the 
committee's recent report language of the Defense 
appropriations bill concerning section 1206, global train and 
equip. This authority is a unique tool that provides commanders 
a means to fill the longstanding gaps in our ability to build 
the capacity and capabilities of partner nations. It has become 
a model of interagency cooperation between the State and 
Defense Departments, both in the field and here in Washington. 
Secretary Rice and I both fully support this authority. Its 
benefits will accrue to our successors in future 
administrations, and I urge the committee to reinstate our full 
request for $500 million in the base budget, and continue 
support in future years.
    I would also like to voice my strong support today to the 
State Department's portion of the war on terror request. As you 
know, the challenges we face in Iraq, Afghanistan, and 
elsewhere, are fundamentally political, economic, and cultural 
in nature, and are not going to be overcome by military means 
alone. It will be very difficult for our troops and their 
commanders to succeed without the key nonmilitary programs and 
initiatives included in the request for the State Department.
    The initial fiscal year 2008 war on terror funding request 
for the Department of Defense was submitted in February for 
$141.7 billion. At that time, the Department stated that this 
initial request was an estimate based on a straight-line 
projection of ongoing war costs, and would need to be adjusted, 
given the evolving and dynamic realities on the ground in both 
Iraq and Afghanistan. Major elements of that initial request 
included $70.6 billion for operations, including incremental 
pay, supplies, transportation, maintenance, and logistical 
support to conduct military operations; $37.6 billion to repair 
and replace equipment that has been destroyed, damaged, or 
stressed by the ongoing conflicts; $15.2 billion for force 
protection, including new technologies and equipment to protect 
troops from improvised explosive devices (IEDs) and other 
threats; $4.7 billion to train and equip Afghan and Iraqi 
security forces; $1 billion for the Commanders Emergency 
Response Program, funds that can be dispensed quickly and 
applied directly by U.S. commanders for local needs. The 
Department submitted its first adjustment on July 31, 2007, for 
$5.3 billion to buy 1,520 mine-resistant, ambush-protected 
(MRAP) vehicles, bringing the total war on terror request to 
$147 billion.
    The second adjustment, to be submitted by the President, 
seeks approximately $42 billion, bringing the total fiscal year 
2008 DOD request to nearly $190 billion. The second adjustment 
includes $6 billion to support the Army and Marine Corps combat 
formations currently in Iraq through fiscal year 2008. This 
takes into account the President's announced intention to 
redeploy five Army Brigade Combat Teams by next summer; $14 
billion for force protection, $11 billion of which will go 
toward fielding approximately 7,000 more MRAP vehicles on top 
of the 8,000 already funded or requested--this also includes 
funding to better defeat enemy snipers and to modify Army 
combat vehicles to improve survivability; $9 billion for 
reconstitution, to ensure that we provide our forces the 
critical equipment and technology they need for future combat 
operations; $6 billion for training and equipment that will 
accelerate the deployment readiness of Army units--this 
includes $1 billion to support the National Guard predeployment 
training; $1 billion to improve U.S. facilities in the region 
and consolidate our bases in Iraq; and $1 billion to train and 
equip Iraqi security forces.
    Mr. Chairman, I know that Iraq and other difficult choices 
America faces in this war on terror will continue to be a 
source of friction within the Congress, between the Congress 
and the President, and in the wider public debate. Considering 
this, I would like to close with a word about something I 
believe we can all agree on: the honor, courage, and great 
sense of duty we have witnessed in our troops. Under some of 
the most trying conditions, they have done far more than what 
was asked of them, and far more than what was expected. Like 
all of you, I am both humbled and inspired by my trips to 
Walter Reed, Bethesda, other military hospitals, and to the 
front lines in Iraq and Afghanistan. And, like all of you, I 
always keep our troops, their safety and their mission, 
foremost in my mind every day.
    Once again, I thank each of you and the rest of the 
Congress for the support you have given them and their families 
during this period of great consequence for America.
    Thank you, Mr. Chairman.
    Chairman Byrd. Thank you. Thank you, Secretary Gates.
    [The statement follows:]
                   Prepared Statement of Robert Gates
    Mr. Chairman, members of the Committee: I thank the Committee for 
all you have done to support our military these many years, and I 
appreciate the opportunity to speak today about the fiscal year 2008 
Global War on Terror Request.
    With me today is General Pete Pace, in what will be his last 
appearance before the Congress as Chairman of the Joint Chiefs of 
Staff. I have come to trust him completely and relied on his advice 
these past 10 months. I hope you will join me in wishing him well and 
thanking him for his four decades of extraordinary service to our 
country.
    I urge the Congress to approve the complete Global War on Terror 
Request as quickly as possible and without excessive and 
counterproductive restrictions. That will help the Department manage 
its expenses and people more effectively, and minimize costly 
reprogramming actions.
    While this hearing is focused on the war funding request, I would 
like to note with concern the Committee's recent report language of the 
Defense Appropriations Bill concerning Section 1206 Global Train and 
Equip. This authority is a unique tool that provides commanders a means 
to fill longstanding gaps in our ability to build the capacity and 
capabilities of partner nations. It has become a model of interagency 
cooperation between the Defense and State Departments--both in the 
field and in Washington, D.C. Secretary Rice and I both fully support 
this authority. Its benefits will accrue to our successors in future 
administrations. I urge the Committee to reinstate our full request for 
$500 million in the base budget, and continue support in future years.
    I would also like to voice my strong support today to the State 
Department's portion of the War on Terror request. As you know, the 
challenges we face in Iraq, Afghanistan and elsewhere are fundamentally 
political, economic and cultural in nature, and are not going to be 
overcome by military means alone. It will be very difficult for our 
troops and their commanders to succeed without the key non-military 
programs and initiatives included in the request for the State 
Department. The initial fiscal year 2008 War on Terror funding request 
for the Department of Defense was submitted in February for $141.7 
billion. At the time, the Department stated that this initial request 
was an estimate based on a straight-line projection of ongoing war 
costs, and would need to be adjusted given the evolving and dynamic 
realities on the ground in Iraq and Afghanistan.
    Major elements of the initial GWOT request included:
  --$70.6 billion for operations, which includes incremental pay, 
        supplies, transportation, maintenance, and logistical support 
        to conduct military operations.
  --$37.6 billion to repair and replace equipment that has been 
        destroyed, damaged, or stressed by the ongoing conflicts.
  --$15.2 billion for force protection, including new technologies and 
        equipment to protect troops from Improvised Explosive Devices 
        and other threats.
  --$4.7 billion to train and equip Afghan and Iraqi security forces.
  --$1 billion for the Commander's Emergency Response Program, funds 
        that can be dispensed quickly and applied directly by U.S. 
        commanders for local needs.
    The Department submitted its first adjustment on July 31, 2007, for 
$5.3 billion to buy 1,520 Mine Resistant Ambush Protected (MRAP) 
vehicles--bringing the total War on Terror request to $147 billion.
    The second adjustment, to be submitted by the President, seeks 
approximately $42 billion, bringing the total fiscal year 2008 DOD 
request to nearly $190 billion. The second adjustment includes:
  --$6 billion to support the Army and Marine combat formations 
        currently in Iraq through fiscal year 2008. This takes into 
        account the President's announced intention to redeploy five 
        Army Brigade Combat Teams by next summer.
  --$14 billion for force protection, $11 billion of which will go 
        toward fielding approximately 7,000 more MRAP vehicles on top 
        of the 8,000 MRAPs already funded or requested. This also 
        includes funding to better defeat enemy snipers and to modify 
        Army combat vehicles to improve survivability.
  --$9 billion for reconstitution to ensure that we provide our forces 
        the critical equipment and technology they need for future 
        combat operations.
  --$6 billion for training and equipment that will accelerate the 
        deployment readiness of Army units. This includes $1 billion to 
        support National Guard pre-deployment training.
  --$1 billion to improve U.S. facilities in the region and consolidate 
        our bases in Iraq.
  --$1 billion to train and equip Iraqi Security Forces.
    Mr. Chairman, I know that Iraq and other difficult choices America 
faces in the War on Terror will continue to be a source of friction 
within the Congress, between the Congress and the President, and in the 
wider public debate. Considering this, I would like to close with a 
word about something I know we can all agree on--the honor, courage, 
and great sense of duty we have witnessed in our troops since September 
11th.
    Under some of the most trying conditions, they have done far more 
than what was asked of them, and far more than what was expected. Like 
all of you, I am both humbled and inspired by my trips to Walter Reed 
and to the frontlines in Iraq and Afghanistan. And, like all of you, I 
always keep our troops--their safety and their mission--foremost in my 
mind every day.
    Once again, I thank each of you and the rest of the Congress for 
the support you have given them and their families during this period 
of great consequence for America.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      FISCAL YEAR 2008 GWOT REQUEST
                        [In billions of dollars]
------------------------------------------------------------------------
                      Funding Vehicle                           Amount
------------------------------------------------------------------------
Original request...........................................        141.7
MRAP amendment.............................................          5.3
                                                            ------------
      Fiscal year 2008 subtotal............................        147.0
                                                            ============
Adjustment (pending).......................................         42.3
                                                            ------------
      Fiscal year 2008 total request.......................        189.3
------------------------------------------------------------------------
Source: Fiscal Year 2008 DOD GWOT Budget Request; Army, Navy, USMC, Air
  Force Adjustment Requests to OUSD(C), August 2007.


                                COST ADJUSTMENT TO FISCAL YEAR 2008 GWOT REQUEST
                                            [In billions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                     Original                      Total Fiscal
                                                                    Request and        Cost          Year 2008
                                                                  MRAP Amendment    Adjustment        Request
----------------------------------------------------------------------------------------------------------------
Operations......................................................            70.6             6.3            76.9
Force Protection................................................        \1\ 16.6            13.9            30.5
IED Defeat......................................................             4.0             0.3             4.3
Military Intelligence...........................................             2.7             0.9             3.7
Security Forces.................................................             4.7             1.0             5.7
Coalition Support and CERP......................................             2.7             0.2             2.9
Military Construction...........................................             0.7             1.0             1.7
Factory Restart.................................................  ..............             0.1             0.1
Reconstitution the Force........................................            37.6             8.9            46.5
Enhancing Ground Forces.........................................             1.6             6.4             8.0
Emergency Requests..............................................             5.9             3.3             9.2
                                                                 -----------------------------------------------
      Total.....................................................           147.0            42.3           189.3
----------------------------------------------------------------------------------------------------------------
\1\ Includes $5.3 billion in the MRAP Amendment.Source: Fiscal Year 2008 DOD GWOT Budget Request; Army, Navy, USMC, Air Force Adjustment Requests to OUSD(C),
  August 2007.

    Chairman Byrd. Let us have order.
    Secretary Negroponte.
STATEMENT OF HON. JOHN D. NEGROPONTE, DEPUTY SECRETARY 
            OF STATE, DEPARTMENT OF STATE
    Mr. Negroponte. Thank you, Mr. Chairman, Senator Cochran, 
members of the committee. Thank you for the opportunity to 
appear today in regard to the fiscal year 2008 supplemental 
request for State and foreign operations.
    I am pleased to be here with Secretary Gates and General 
Pace. State and Defense work closely together on an 
extraordinarily wide range of issues affecting the Nation's 
security, and nowhere is this collaboration more intense and 
seamless than in Iraq and Afghanistan.
    Chairman Byrd. Let us have order. Order. One more time, out 
you go. Don't do it.
    Proceed, Mr. Secretary.
    Mr. Negroponte. Thank you.
    We, therefore, are pleased to support the Defense 
Department's supplemental request, and we are grateful for 
Secretary Gates' support of ours.

  PASSAGE OF FISCAL YEAR 2008 BILL AND FORMULATION OF THE FISCAL YEAR 
                           2008 SUPPLEMENTAL

    I would also like to thank the committee for passing our 
regular appropriations bill.
    As you know, in February the President sent up a 
supplemental request of $3.3 billion for Iraq and Afghanistan, 
formulated in the December/January time period. Things can and 
do change in 10 months, and we plan to offer both refinements 
and additions to our original request.

                             IRAQ PROGRESS

    Regarding Iraq, our aim is to solidify the gains realized 
from the surge and other improvements in the security 
situation. On the foreign assistance side, we seek additional 
funding to provide small grants to programs to stabilize areas 
from which insurgents have been driven. Second, we seek funds 
for Iraqi infrastructure to consolidate gains in the delivery 
of basic services and to improve budget execution by the 
government of Iraq.
    We have had successes in training the finance ministry, as 
evidenced by the Iraqi government's improved performance in 
getting money out into the localities where it is sorely 
needed. We need to continue ministerial capacity building, and 
training Iraqis to take over the management and operation of 
their own infrastructure. We also seek to continue much-needed 
programs in the area of the rule of law.

                    STATE DEPARTMENT OPERATING FUNDS

    Mr. Chairman, an enduring solution in Iraq and elsewhere 
around the world requires strong diplomacy. To deliver that, we 
urgently require increased State operations funding to support 
the ongoing activities of our mission in Iraq. This includes 
all personnel, infrastructure, and security programs for U.S. 
Embassy personnel. There are additional requirements for 
armored vehicles and security and communications equipment. 
Funding is also requested for the regional Embassy offices and 
support units in Jordan and Kuwait, which reduce the number of 
personnel required to be stationed within Iraq. Funding is also 
necessary to cover the operation and maintenance of the new 
Embassy compound, as well as the construction of temporary 
housing, including overhead cover for security purposes.
    The supplemental request also covers costs associated with 
the dramatic increase in provincial reconstruction teams, PRTs, 
from 10 in number to 25. The PRTs are at the core of our 
decentralized strategy in Iraq, and have contributed 
significantly to improvements in places such as al Anbar 
province and Baghdad.

                              AFGHANISTAN

    Turning to Afghanistan, where I visited 2 weeks ago, there 
are many positive achievements on both the military and 
reconstruction side. Our counterinsurgency effort is working, 
but the job is far from complete. We now must focus on 
extending the national government's influence. The people of 
Afghanistan need visible evidence that their own government can 
deliver basic services and provide rule of law in all corners 
of the country.
    There is a saying that, where the road ends, the insurgency 
begins. The Taliban has sought to reassert itself. We have 
taken the fight to the Taliban, but rooting out insurgents only 
clears the area temporarily. Without the roads that provide 
economic opportunities, insurgents reappear.

                           WEST BANK AND GAZA

    I'd like to turn, now, briefly, to the issue of the West 
Bank and Gaza. In the months since we sent our February 
supplemental proposal to you, significant events have occurred 
in the West Bank and Gaza. Gaza is now run, de facto, by Hamas, 
and we have suspended all but urgent humanitarian assistance 
delivered through the UNWRA. At the same time, new 
opportunities have arisen to work with President Abbas in the 
West Bank. We believe that funding for the Palestinian 
Authority to improve security performance and meet budget 
deficits will deliver clear benefits to the Palestinian people 
and advance a final two-state settlement of the Arab-Israeli 
conflict. U.S. funds would go into a specially designated 
account to be withdrawn only with United States Government 
approval and appropriate vetting of the recipients.

       INTENT TO AMEND THE FISCAL YEAR 2008 SUPPLEMENTAL REQUEST

    There are several other issues, Mr. Chairman, on which I am 
not prepared to speak today, but which are still under 
discussion within the administration before submitting our 
final numbers.
    In conclusion, Mr. Chairman, our supplemental request and 
any amendments that we might put forth represent a serious 
response to the war on terror and to emergencies and 
opportunities which have arisen. We have consistently found 
that the political, economic, and diplomatic tools which these 
programs support are indispensable to the satisfactory long-
term resolution of conflicts which threaten the security of the 
United States.
    We are fully aware that you will require more discussion 
and justification regarding our additional fiscal year 2008 
funding needs. We are committed to briefing you and your staff 
in detail on these programs as soon as possible.
    Thank you very much, Mr. Chairman.
    Chairman Byrd. Thank you.
    [The statement follows:]
                Prepared Statement of John D. Negroponte
    Mr. Chairman, Senator Cochran, members of the Committee: Thank you 
for the opportunity to appear today in regard to the fiscal year 2008 
supplemental request for State and Foreign Operations. I am pleased to 
be here with Secretary Gates and General Pace. State and Defense work 
closely together on an extraordinarily wide range of issues affecting 
the nation's security. And nowhere is this collaboration more intense 
and seamless than in Iraq and Afghanistan. We therefore are pleased to 
support the Defense Department's supplemental request and we are 
grateful for Secretary Gates' support of ours. I would also like to 
thank the Committee for passing our regular appropriations bill.
    As you know, in February, the President sent up a supplemental 
request of $3.301 billion for Iraq and Afghanistan, formulated in the 
December/January time period. Things can and do change in ten months, 
and we plan to offer both refinements and additions to our original 
request.
                                  iraq
    Regarding Iraq, our aim is to solidify the gains realized from the 
surge and other improvements in the security situation.
    On the foreign assistance side, we seek additional funding to 
provide small grants for programs to stabilize areas from which 
insurgents have been driven.
    Second, we seek funds for Iraqi infrastructure to consolidate gains 
in the delivery of basic services and to improve budget execution. We 
have had successes in training the Finance Ministry, evidenced by the 
Iraqi government's improved performance in getting money out into the 
localities where it is sorely needed. We need to continue ministerial 
capacity building and training Iraqis to take over the management and 
operation of their own infrastructure.
    We also seek funds to continue much-needed programs in the area of 
rule of law.
    Mr. Chairman, an enduring solution in Iraq--and elsewhere around 
the world--requires strong diplomacy. To deliver that, we urgently 
require increased State Operations funding to support the ongoing 
activities of our mission in Iraq. This includes all personnel, 
infrastructure, and security programs for U.S. Embassy personnel. There 
are additional requirements for armored vehicles and security and 
communications equipment. Funding is also requested for the Regional 
Embassy Offices and support units in Jordan and Kuwait, which reduce 
the number of personnel required to be stationed within Iraq. Funding 
is necessary to cover the operation and maintenance of the New Embassy 
Compound as well as the construction of temporary housing, including 
overhead cover.
    The supplemental request also covers costs associated with the 
dramatic increase in Provincial Reconstruction Teams (PRTs) from 10 to 
25. The PRTs are at the core of our decentralized strategy in Iraq and 
have contributed significantly to improvements in Anbar and Baghdad.
                              afghanistan
    Turning to Afghanistan, where I visited two weeks ago, there are 
many positive achievements on both the military and reconstruction 
side. Our counter-insurgency effort is working, but the job is far from 
complete.
    We now must focus on extending the national government's influence. 
The people of Afghanistan need visible evidence that their own 
government can deliver basic services and provide rule of law in all 
corners of the country.
    There is a saying that where the roads end, the insurgency begins. 
The Taliban has sought to re-assert itself. We have taken the fight to 
the Taliban, but rooting out insurgents only clears the area 
temporarily. Without the roads that provide economic opportunities, 
insurgents reappear.
                             west bank/gaza
    In the months since we sent our February supplemental proposal to 
you, significant events have occurred in the West Bank and Gaza. Gaza 
is now run de facto by Hamas and we have suspended all but urgent 
humanitarian assistance delivered through UNWRA. At the same time, new 
opportunities have arisen to work with President Abbas in the West 
Bank. We believe that funding for the Palestinian Authority (PA) to 
improve security performance and meet budget deficits will deliver 
clear benefits to the Palestinian people and advance a final, two-state 
settlement of the Arab-Israeli conflict. U.S. funds would go into a 
specially designated account to be withdrawn only with U.S. government 
approval and appropriate vetting of the recipients.
    Other issues are still under discussion within the Administration.
                               conclusion
    Mr. Chairman, our supplemental request and any amendments represent 
a serious response to the war on terror and to emergencies and 
opportunities which have arisen. We have consistently found that the 
political, economic and diplomatic tools which these programs support 
are indispensable to the satisfactory, long-term resolution of 
conflicts which threaten the security of the United States.
    We are fully aware that you will require more discussion and 
justification regarding our additional fiscal year 2008 funding needs. 
We are committed to briefing you and your staff in detail on these 
programs as soon as possible.
    I would be pleased to respond to your questions.

    Chairman Byrd. Before we proceed to questions, I want to 
stress to our witnesses that, when the President does finally 
submit his revised request for the costs of these wars, it will 
be necessary to provide detailed justification for those 
requests. If necessary, we will need to meet again to review 
those requests. There should be no presumption that we will 
simply approve the requests of the President.
    Senator Inouye.
    Senator Inouye. I thank you very much, Mr. Chairman.
    For the record, on the matter of global train and equip, 
the subcommittee appropriated the full authorized level of $300 
million. If the authorized level had been higher, we would have 
considered that.
    Mr. Secretary, over the past 2 weeks many articles and 
documentaries have been shown to the public concerning an 
organization called Blackwater. How many contracted employees 
does DOD have performing security functions in Iraq and 
Afghanistan?

                      PRIVATE SECURITY CONTRACTORS

    Secretary Gates. Mr. Chairman--Senator Inouye, the number 
that General Petraeus gave me in a conference call yesterday 
was about 7,300. That's of the 137,000 overall contract 
employees we have in Iraq. That 7,300 is not a comprehensive 
number, it does not include those security working for FMS and 
for some other entities. We can get you that full number, but 
7,300 is the number that General Petraeus has awareness of.
    Senator Inouye. Do any of them work for Blackwater?
    Secretary Gates. No, sir, not at this time.
    Senator Inouye. How many contracted employees are 
performing security-related tasks for private companies that 
are working for DOD in Iraq and Afghanistan? And is Blackwater 
a subcontractor to any one of these contracts?
    Secretary Gates. I'm not aware that Blackwater is a 
subcontractor, and I'll have to get you those numbers for the 
record.
    [The information follows:]

    According to the July 2007 USCENTCOM Census data, the 
estimated total number of private security contractors in Iraq 
that are DOD-funded is 6,368. The USCENTCOM Census also reports 
that there are approximately 1,060 DOD-funded private security 
contractors in Afghanistan. The Department of Defense does not 
have any prime contracts with Blackwater with a place of 
performance in either Iraq or Afghanistan and is not aware that 
Blackwater is a subcontractor on any DOD-funded contracts in 
Iraq or Afghanistan.

    Senator Inouye. How much money do we spend for security 
purposes of this nature?
    Secretary Gates. Ms. Jonas.
    Ms. Jonas. Senator, I do have a figure that was given to us 
earlier, but he would have to get back to you on the total. The 
Secretary listed 7,300. The total that I have for companies 
that are working security is 6,368. We can certainly get----
    Chairman Byrd. Would you identify yourself for the record, 
please.
    Ms. Jonas. I'm sorry. Yes, Mr. Chairman. I am the 
Comptroller. My name is Tina Jonas.
    Chairman Byrd. Thank you.
    [The information follows:]

    The Federal Procurement Data System--Next Generation (FPDS-
NG) data base is the primary source for the information 
concerning contracts and contract costs. According to FPDS-NG, 
approximately $192,500,000 has been obligated for purely 
security guard services contracts under the DOD in Kuwait, 
Afghanistan, and Iraq from 2001 to 2007 (to date). This dollar 
figure accounts only for contracts identified in the FPDS-NG 
system as security guard services. It does not account for the 
cost of the performance of security services that are imbedded 
in contracts where the majority of the work is not guard 
services. For example, a contract for other professional 
services, construction, or transportation may have a security 
requirement, but would not be identified as a security 
contract.
    OSD has requested that Joint Contracting Command Iraq 
Afghanistan provide more detailed data on the cost of security 
contracts in Iraq and Afghanistan and will provide it as soon 
as it is available.

    Senator Inouye. Mr. Secretary, who determines the rules of 
engagement for these security firms?
    Secretary Gates. For the security firms that are employed 
by the Department of Defense, they are determined by the 
Department and by the commanders on the ground.
    Senator Inouye. Do they differ from military rules of 
engagement?
    Secretary Gates. Yes, sir, they do. The rules that we have 
for our security contractors are called ``rules for the use of 
force,'' to differentiate them from ``rules of engagement.'' 
Rules for the use of force are focused on defensive operations. 
The principal difference between ``rules of engagement'' for 
our forces and ``rules for the use of force'' by these 
contractors is really focused on the fact that they are not 
allowed to carry out offensive operations.
    Senator Inouye. Is your Department presently investigating 
the events that led up to the barring of Blackwater from Iraq?
    Secretary Gates. Yes, sir. We have a team in Iraq right now 
working on these problems.
    Senator Inouye. Is there any agency within DOD that 
exercises oversight over these activities?
    Secretary Gates. Senator, I think one of the problems that 
I've identified over the past several weeks, I think that we 
have the proper procedures, the proper rules, and the proper 
legal authorities in order to prosecute contractors who violate 
the law. My concern is whether there has been sufficient 
accountability and oversight in the region over the activities 
of these security companies. And that's the main thing that our 
team is looking into out there, what is required to give the 
commanders the means and the resources that they need to be 
able to exercise adequate oversight.
    Senator Inouye. These security forces have been described 
as being mercenaries. Do you agree with that?
    Secretary Gates. Well, they certainly are being paid, but I 
would note that a number of the people working, at least for 
the American security firms, are former members of the United 
States Armed Forces. I don't think that--I don't think they 
would consider themselves mercenaries.
    Senator Inouye. Do you think it would be proper for DOD to 
have a cadre of these security forces to replace that of the 
military?
    Secretary Gates. Well, this is one of the problems that, 
frankly, is the overall contracting challenge in Iraq; and in 
Afghanistan, for that matter, as well. One of the consequences 
of the drawdown in the size of the American ground forces, in 
particular, over the past 15 years is the fact that we don't 
have the number of people that we require to perform logistics 
and transportation and cooking and laundry and the various 
kinds of mundane things that have to be done on a daily basis. 
That's why we have 137,000 contractors in Iraq, to carry out 
all these functions.
    Perhaps some of them can be transferred to the military, if 
we proceed with the expansion of the Marine Corps and the Army. 
But I think our focus should remain on, How do we increase the 
combat capabilities of the American armed forces? And if some 
of these functions can be carried out better by private 
contractors, then that may be the way to go. But we clearly 
have to have proper oversight procedures and oversight 
activities in place to make sure they're doing what they're 
supposed to.
    Chairman Byrd. There will be order in the hearing room.
    Proceed, Mr. Secretary.
    Senator Inouye. Mr. Chairman, my time is up.
    I thank you very much, Mr. Secretary.
    Chairman Byrd. Senator Cochran.
    Thank you, Senator Inouye.
    Senator Cochran. Mr. Chairman, I yield to my friend, who's 
chairman--distinguished ranking on the Subcommittee of Defense, 
Senator Stevens.
    Chairman Byrd. Senator Stevens.
    Senator Stevens. Thank you very much.
    Thank you, Senator Cochran.
    And, Mr. Chairman, I'm certain that I--I echo the words of 
the Senator from Illinois, Senate rules provide adequate 
protection--I'm sure that the chairman is fully familiar with 
the rules about disturbances during these meetings. Those 
disturbances hold us up, so we take longer for these hearings. 
And I would hope that, if necessary, we'll clear the room.
    Chairman Byrd. It will be done.
    Senator Stevens. Thank you.
    Let me say that--Mr. Chairman, that--I want to echo your 
comments concerning General Pace, an outstanding career of a 
marine officer. Having been a person who always dreamed of 
being a marine, I envy him. But, as a practical matter, he is 
the first marine to serve as the Chairman of the Joint Chiefs, 
and he's the first marine to serve as the Vice Chairman. And, 
under those circumstances, he has really distinguished the 
uniform he wears, and we certainly thank him for all his 
distinguished service for the United States.
    So, we wish you well, very much, sir.

                         FOREIGN MILITARY SALES

    Secretary Negroponte, I've been worried about the delays in 
getting foreign military sales--equipment to the government of 
Iraq. We had some meetings here earlier last week, and I was 
surprised to find that we have a task force now, under Deputy 
Secretary Gordon England, to try and work out the problems with 
the foreign military sales. And I was told that, of almost $2 
billion in purchases by the government of Iraq, less than $200 
million has been delivered. That seems to be one of the 
hangups, as far as the Iraqi forces being able to take over 
more of these responsibilities. What is the reason for the 
delay in foreign military sales?
    Mr. Negroponte. Thank you, Mr. Chairman. You mentioned the 
more than $2 billion of sales that are actually pending. In 
addition to that, a total of $6.8 billion in potential FMS--
possible FMS sales--have been notified to the Congress. So, I 
think that we're very much moving in the direction of the 
Iraqis taking on----
    Senator Stevens. That's because they haven't been 
delivered. Only $200 million has been delivered.
    Mr. Negroponte. Yes, sir. And, to my understanding part of 
it has to do with processing, sir. And then, I'm not sure how 
some of these orders stack up against orders that are being 
placed for United States military forces, also.
    Senator Stevens. Well, I don't have much time----
    Mr. Negroponte. So, I don't know if there's a competition 
there, Mr. Chairman----
    Senator Stevens. I am told----
    Mr. Negroponte [continuing]. Senator.
    Senator Stevens [continuing]. There's so many different 
Federal agencies involved in clearing foreign military sales 
that it's almost impossible to get delivery of foreign military 
equipment. I would urge this task force to take into account 
the problems, and see if we can't get one-stop shopping. Why 
should they have to go to several different agencies to clear 
foreign military sales in a time of war?
    Mr. Negroponte. Right. Senator, we're certainly doing 
everything we can on that. I'm working with Secretary England, 
and we'll try to make it better. But we've certainly not 
experienced that difficulty with foreign military sales to a 
number of other countries, and we'll work hard to get to the 
bottom of this.
    Senator Stevens. Thank you. I would hope you really will.
    The other thing is, we're now looking for a delay--we're 
looking at a delay in the timing of the supplemental. And it is 
a difficult thing to view, but, as I understand it, we had a 
bridge account, during previous years, to cover the transition 
between one fiscal year to another. Ms. Jonas, I understand it 
doesn't exist this year, right?
    Ms. Jonas. That's correct, Senator Stevens.
    Senator Stevens. I don't know who to ask this question, you 
or the Secretary, but, what can we do to avoid the delay that 
seems to be inevitable now, in terms of getting the money for 
equipment and reset, and really carrying on the problems of 
this current--our engagements, particularly in Iraq--if there's 
a delay of weeks, in terms of getting the money for that 
purpose? ``Do you have enough money to reprogram?'' is what I'm 
saying to you.
    Mr. Jonas. Mr. Chairman--or Senator Stevens, we've spoken 
with the Office of Management and Budget this morning. We 
believe that the request is imminent. Under the continuing 
resolution that we understand is under consideration, we 
believe that we can continue to operate, at least for the 1\1/
2\ months period.
    Senator Stevens. That includes the additional money that 
would have been in the bridge before?
    Ms. Jonas. Yes, sir.
    Senator Stevens. Okay. I thank you very much for that.
    Let me ask the last question. Mr. Secretary, we have tried 
to come forward and have the money for the new MRAP vehicles. 
Can you tell us, what's the status of getting the MRAPs to the 
troops in the field?

                MINE RESISTANT AMBUSH PROTECTED VEHICLES

    Secretary Gates. Yes, sir. There are about 1,100 MRAPs in 
the field today, of both MRAPs and MRAP-type vehicles. We 
believe that the production rate on these vehicles will be up 
to about 1,200 a month by December. We have about 8,000 of 
these vehicles on order. The remaining 7,000 plus is taken care 
of in the adjustment that we've submitted to you all today. So, 
I think we will--we have a total requirement of about 15,000 of 
these vehicles for all of the services, the bulk of them going 
to the Army and to the Marine Corps. And we have the funding 
for the first 6,500, roughly, that was provided by the Congress 
in the fiscal year 2007 budget and supplemental. And we're 
seeking the rest of it.
    An important part of the continuing resolution will be--in 
order to keep the production lines open and keep the orders 
flowing to these companies--will be to make sure that MRAP is 
dealt with, specifically, in the continuing resolution.
    Senator Stevens. Well, I share your hope.
    General, I think you told us about one of those MRAPs that 
survived--what?--a 200 pound--what was it?--the improvised 
explosive devices?
    General Pace. Sir, we've done it at Aberdeen, 300 pounds 
underneath the body itself, and they have survived.
    Senator Stevens. That--it's an amazing new vehicle. And, 
Mr. Secretary, I hope you'll let us know if there's anything we 
can do to accelerate the delivery of those vehicles to the war 
zone.
    Secretary Gates. The Congress has been very supportive on 
this, Mr. Stevens.
    Senator Stevens. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator.
    Secretary Gates, what did the President mean when he 
referred to a possible 50 year--50 year American presence in 
Iraq? It sounds like ``mission accomplished'' has turned into a 
commitment to have our grandchildren patrolling Baghdad into 
the middle of this century. Has the President discussed this 
with you? Has he?
    Secretary Gates. Yes, sir, he has, and we have talked about 
what the ongoing requirement, or need, might be for U.S. forces 
in the future. I think that what the President is referring to 
is our pursuing a long-term strategic agreement with the 
Iraqis. The number of forces that would be included would be 
considered under that agreement. I would tell you that the 
number of troops would be a small fraction of those that are in 
the country today. And I think no one really knows what the 
duration of their presence there would be. It would depend, I 
suspect, both on the nature of the Iraqi government and on 
conditions in the region, what the Iranians are trying to do, 
and others in the region.
    The purpose of that kind of a longer-term presence, should 
it be agreed, would be, first of all, to continue the fight 
against al Qaeda in Iraq; to help prevent foreign intervention 
in Iraq; and to continue to train and equip the Iraqi forces. 
So, it would be a very different kind of mission than our 
troops have today.
    Chairman Byrd. Are you aware of operational plans for the 
long-term presence of U.S. troops?
    Secretary Gates. I'm not--I may defer to General Pace on 
this--I am not aware of any plans, at this point, for a long-
term presence. This has been largely a subject of discussion, 
but I don't think there's been any detailed planning.
    General.
    General Pace. Sir, there has been no detailed planning for 
that.
    Chairman Byrd. Wouldn't you agree that there are 
significant differences between the situation in South Korea 
and Iraq?
    Secretary Gates. Absolutely, Mr. Chairman. And I think that 
what people have had in mind when they refer to a parallel with 
the Koreans is simply an ongoing partnership between the United 
States and another country in which we have a relatively small 
presence in that country as part of security relationship.
    Chairman Byrd. Don't you think Congress and future 
administrations must be integral to such a far-reaching 
decision?
    Secretary Gates. I think the Congress has to be involved in 
that, yes, sir.
    Chairman Byrd. Secretary Gates, the President has made much 
of the fanciful notion that the U.S. effort in Iraq is 
supported by a ``coalition of the willing.'' In fact, over 93 
percent of the troops in Iraq are U.S. troops. The 165,000 U.S. 
troops in Iraq are supported by only 12,279 troops from the 
``coalition of the willing.'' The untold story is that the 
principal support for U.S. personnel in Iraq is reportedly over 
125,000 employees of private contractors, including over 30,000 
employees of private security companies. Instead of a 
``coalition of the willing,'' what we really have is a 
``coalition of contractors.'' What message does it send to our 
allies and the people of Iraq that, instead of a significant 
presence of our major allies in support of the war effort, the 
United States sends contractors with no accountability, no 
rules for conduct, and total exemption from prosecution?

                      PRIVATE SECURITY CONTRACTORS

    Secretary Gates. Mr. Chairman, with all due respect, the 
contractors are not immune from prosecution, they do have 
rules. The concern that we have is to ensure that we are 
enforcing the rules that we've asked them to abide by, and 
that's what we're looking at right now.
    I would say your numbers are quite accurate, there are 
about 12,000 coalition troops in Iraq, representing 33 
countries. And I would tell you that some of them make, in a 
modest way, a very important contribution. Clearly, the British 
have played a significant role in the southern part of the 
country, and--in the Basrah area and so on. Many of them, it 
represents, as much as anything, a political commitment to 
cooperate and support with the--to support the United States.
    Chairman Byrd. Secretary Gates, the latest national 
intelligence estimate points out that the terrorists who 
attacked us on 9/11 have rebuilt and established a safe haven 
in Afghanistan and Pakistan. The terrorists who attacked us on 
9/11 trained in Afghanistan, not Iraq. How, then, is our 
overwhelming commitment of blood and treasure to Iraq making us 
safer?
    Secretary Gates. Well, sir, I think--whatever the 
circumstances were in 2003, I think there's little question, in 
terms of that national estimate or the generally accepted view, 
that al Qaeda is very active and aggressive in Iraq today. And 
I know very few people who believe that, were we to leave 
precipitously, that al Qaeda would not re-engage, continue, and 
re-escalate their violence in Iraq itself. And I think that 
most of the intelligence experts would believe that the next 
target would be the neighbors, perhaps Jordan and others, and 
eventually the creation of a space in which they could prepare, 
in Iraq, perhaps to attack European or even American targets.
    Chairman Byrd. Secretary Gates and Deputy Secretary 
Negroponte, according to a report by the Congressional Research 
Service, it may cost the U.S. Government more to hire a private 
security contractor than an American G.I. Some of these 
contractors are getting paid hundreds of thousands of dollars a 
year to do jobs that we used to ask our soldiers to do. What 
does that do for the morale of our regular-duty soldiers, who 
get paid a fraction of that? Is this wholesale outsourcing of 
our military serving our interests? Is it?
    Secretary Gates. Mr. Chairman, I believe that the reason we 
have had to rely on these contractors is because, as I 
indicated earlier--the significant reduction in the size of our 
military forces over the past 15 years, and we, frankly, just 
don't--if we're to have the serious combat capability, we don't 
have the manpower to be able to perform a lot of these tasks. 
Again, for us, the security part of the contracting business is 
a very small percentage; perhaps 5 percent of the contractors 
that the Department of Defense has are involved in security.
    I would go beyond that, though, and say that my personal 
concern about some of these security contracts is--that I worry 
that sometimes the salaries that they are able to pay, in fact, 
lure some of our soldiers out of the service to go to work for 
them. And one of the things that I've asked our lawyers to work 
for, one of the things that's pretty common in the corporate 
world and elsewhere, are noncompete clauses in contracts, and 
to see if there's some way we can put some limits on the 
ability of these contractors to lure highly trained soldiers 
out of our forces in to work for them.
    Chairman Byrd. Senator Specter.
    Secretary Gates. Mr. Chairman, with all due respect, 
General Pace had a brief opening comment. If it pleases the 
chairman to let General Pace offer those comments----
    Chairman Byrd. Very well, yes. Go ahead, General Pace.

                         THANK YOU TO CONGRESS

    General Pace. Mr. Chairman, thank you very much--Senator 
Cochran, members of the committee.
    Mr. Secretary, thank you.
    I will keep my remarks brief, sir, but I would be remiss if 
I did not take this one last opportunity to say thank you, in 
many ways; first, to you, sir, for your very kind opening words 
about my service to the country. It has been an incredible 
honor to serve in the military of the United States of America, 
and one which I will take to my grade--grave with great pride.
    Second, to all the members of this committee and to the 
Congress as a whole. Despite the dialogue, Congress has always 
provided for provision of the troops in the field. And we know 
that, and we appreciate that. And your visits to the hospitals, 
and your visits to the troops in the field, send a very strong 
signal of a desire to understand what is really happening in 
support for the troops.
    Chairman Byrd. Thank you.
    General Pace. I am filled with pride in the incredible 
accomplishments of our young men and women. They freely give 
more than anyone could ever demand. And it's humbling to have 
the opportunity to serve beside them and to represent them. 
Many of them, as you know, sir, are members of the Guard and 
Reserve. And we owe their employers a debt of gratitude for 
letting their very prized employees serve their Nation.
    And, most important, we owe our families a debt of 
gratitude. They sit at home and pray for our safe return. They 
don't know when we're in danger. They worry about us all the 
time. When we come home and we get awards and promotions, they 
pretend that they had nothing to do with it. They stand in the 
background. When we get tired, they dust us off and put us back 
in the fight. Our families serve this Nation as well as anybody 
who's ever worn the uniform, and I would like to go on record 
to say thank you to them.
    Last, sir, for a kid from New Jersey whose dad was born in 
Italy to participate in this process has been a privilege. I 
cannot look you in the eye and tell you that I look forward to 
sitting here and answering all of your questions. I can look 
you in the eye, as a citizen of the United States, and tell you 
what a true privilege it is to be part of this democracy, to be 
part of this dialogue, and to try to contribute the truth, as I 
know it, to the ongoing discussion.
    Thank you, sir.
    Chairman Byrd. General Pace, thank you for your dedication 
to duty, your unstinting loyalty and dedication, and your 
commitment to valor and honor.
    General Pace. Thank you, sir.
    Chairman Byrd. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.
    General Pace, I add my voice of commendation for your 
extraordinary service really representing the valiant troops 
which we have fighting in Iraq and Afghanistan and around the 
world.
    Secretary Gates, the war in Iraq to date has cost about 
$450 billion--in Afghanistan, $127 billion--for a total of $577 
billion. And the projection is that it will be about $808 
billion by the end of the next fiscal year.
    We are looking at discretionary spending, nondefense, that 
this committee has for the balance of the Government, of $470 
billion. The subcommittee where I rank has the funding on 
health and education. And we are now looking at a veto by the 
President on children's health. National Institutes of Health 
are flat-funded, no increases. The No Child Left Behind 
legislation, up for renewal, is underfunded. And what this 
committee has to do, and the Congress has to do, is to figure 
out where we put our resources. I would appreciate it if you 
could supply, to the committee, ballpark figures, estimates as 
to what the war in Iraq, Afghanistan, will cost on the most 
favorable assumptions, and what it will cost on the least 
favorable assumptions.
    Obviously, you can't pin down a precise figure. And there's 
no shortcut to adequate defense. That's the fundamental 
responsibility of government. But I think it would be helpful 
if we had some idea as to where we are going on these 
expenditures.
    [The information follows:]

    The Department is not able to determine how much it will 
cost to reach our objectives in Iraq and Afghanistan because of 
the magnitude of the variables. One of the main variables is 
the resilience of the insurgency and, while we are focusing the 
finest military in the world on that issue, the enemy still 
controls their next moves. Without knowing what the future 
brings, we cannot estimate our response or the magnitude of our 
expenditures.
    Our commitment to Iraq is the approach envisioned by 
General Petraeus. The Department must help the Government of 
Iraq (GOI) navigate through the insurgency period and will 
transition responsibility to the GOI as it develops the 
institutions it needs to provide for its own security. The 
Iraqi Government is contributing more to its security and the 
Iraqi Security Forces (ISF) each year, and we expect this trend 
to continue. However, taking into consideration the insurgency 
and the capacity development of the ISF and GOI, a reduction of 
U.S. troops in Iraq will occur as conditions on the ground 
permit. The size and shape of our long-term presence in Iraq is 
unclear but, in combat brigade terms, it will likely be a 
fourth of our current presence.
    The Government of Afghanistan is financially less secure 
than the GOI; it will require a greater proportion of financial 
assistance to meet its security costs. Consequently, we are 
working to ensure that the coalition forces are robust and 
sustain their commitment while we continue to work to secure 
additional regions in Afghanistan and continue to train the 
Afghanistan National Security Forces.

    Senator Specter. I was pleased to note, your speech last 
Monday, that you made a reference to the arrogance of the 
United States in our dealing with others, when you spoke at 
William and Mary College, a week ago Monday. And I note your 
appearance, last Sunday on ``FOX News'', your statement that we 
are ``trying to deal with the Iranian threat and the Iranian 
challenge through diplomatic and economic means,'' which is, by 
far, the preferable approach. And it seems to me that we need 
to intensify our diplomatic efforts.
    Our bilateral talks with North Korea were successful. And I 
direct this question to you, Secretary Negroponte. Why not 
employ those techniques, approaching our adversaries? And a 
repeated criticism I hear around the world when I travel is 
that we--paraphrasing what Secretary Gates said about our 
arrogance--that we aren't sufficiently courteous, don't treat 
our adversaries with sufficient dignity. We don't have to agree 
with them, but we need to deal with them, laying it on the line 
as to what we expect and what we're prepared to do. The war 
talk about Iran is rampant, and I believe there is much to be 
said, that we cannot tolerate an Iran with a nuclear weapon, 
which makes it all the more important that we do our utmost and 
beyond on--as Secretary Gates points out--economic sanctions. 
And I compliment the State Department on what is being done 
there. But on the diplomacy, it seems to me you could do a lot 
more. Why not undertake bilateral talks with Iran and Syria?

                  BILATERAL TALKS WITH IRAN AND SYRIA

    Mr. Negroponte. Thank you, Senator.
    First of all, I think you're right about Iran's behavior. 
It has been problematic--and, I think, increasingly so--in the 
region, with their support for extremist Shi'a in Iraq. We even 
have reports of them supplying weaponry to the Taliban in Iran. 
Of course, they've----
    Senator Specter. We know they're awful. I've got 7 minutes. 
How about some bilateral negotiation?
    Mr. Negroponte. Well----
    Chairman Byrd. Let's have order.
    Mr. Negroponte. With regard to talks with the Iranians, of 
course there have been talks at the level of Ambassadors in 
Baghdad. Mr. Crocker has met with his counterpart. We've chosen 
to limit those discussions with the Iranians, for the moment, 
to the subject of Iraq, because that's a very pressing area 
where we seek their cooperation in helping stabilize that----
    Senator Specter. How about----
    Mr. Negroponte [continuing]. Country.
    Senator Specter. How about diplomacy on their development 
of a nuclear weapon? That's the most----
    Mr. Negroponte. Well----
    Senator Specter. That's the most important----

                   IRAN'S NUCLEAR ENRICHMENT PROGRAM

    Mr. Negroponte. There is no more active area of diplomacy 
than our diplomacy to try and prevent Iran from continuing with 
its enrichment program. We've had dialogue with our European 
partners, the EU-3. We've been involved--in the United Nations, 
we've passed two resolutions condemning Iran's----
    Senator Specter. All of----
    Mr. Negroponte [continuing]. Nuclear enrichment program.
    Senator Specter. All of that is great, but how about a 
dialogue with Iran?
    Mr. Negroponte. Well, if they want to----
    Senator Specter. The most----
    Mr. Negroponte [continuing]. Come and----
    Senator Specter. The most directly affected party.
    Mr. Negroponte. I think nothing would please us more if 
they were to say they want to abandon their nuclear enrichment 
program and are ready to talk to the international community 
about doing that. But we've chosen diplomacy. Diplomacy, 
sometimes, Senator, is a matter of the venue in which you 
conduct it. And, in this particular case, we've chosen to 
pursue it through the United Nations and through the Security 
Council.
    Senator Specter. One other subject I want to broach--I 
still have most of a minute left--and that is, there will come 
a day when the United States will not be in Iraq. I've backed 
the administration, up to date, on its plans and its 
projections, but there will come a day. I had an opportunity to 
talk to the Secretary General of the United Nations earlier 
this week and posed a question--of last week, actually--a 
suggestion that it might be possible to get other countries to 
assist in Iraq under a United Nations banner. French newspaper 
commented, recently, that they think the United States got the 
world into this mess, but now it's a mess for the world, and 
the whole world has to deal with it.
    Secretary Negroponte, do you think there would be any 
chance that we could, under the United Nations banner, where 
other nations are more willing to participate, as they have 
demonstrated on U.N. peacekeeping troops, that we could get 
some significant assistance from other countries in undertaking 
what has to be done, militarily, on a long-term basis, in Iraq?

           MULTINATIONAL OR U.N. PEACEKEEPING FORCES IN IRAQ

    Mr. Negroponte. I don't know about militarily, Senator; 
certainly not at a time when there are still critical security 
problems. Perhaps down the road, when the situation has 
stabilized somewhat more, then perhaps other countries might be 
willing to pitch in.
    But I do think, in the economic area, in the diplomatic 
area, in the political area, one of the objectives we've had is 
to get the neighbors of Iraq more involved in trying to help 
Iraq, whether it's Saudi Arabia or Turkey or Jordan, and 
others. The Saudis, for example, have now agreed to establish 
an Embassy in Baghdad, and we're committed to helping them 
secure that facility. That kind of thing, I think, is a hopeful 
avenue to pursue, and I think we should do more of it. And we 
should do it working with the Secretary General of the United 
Nations.
    Senator Specter. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator.
    Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    General Pace, thank you for your comment, not only about 
the men and women who are fighting, but what you said about 
their families. It was spoken as a marine's marine, as the kind 
of leadership in the marines, I know, that encouraged my 
youngest son to enlist in the Marine Corps. I also might say, 
on a personal matter, when I visit my mother's family in Italy, 
they speak with pride of General ``Pa-chay,'' and I--my Italian 
is at least good enough that I know that they're saying 
everything you would want them to say.
    General Pace. Thank you, sir.
    Senator Leahy. And the--Secretary Negroponte, you know, 
your written testimony has very little detail in it, and I 
realize you have to clear that with the Office of Management 
and Budget (OMB), but the President's budget request in 
February for the fiscal year 2008 supplemental consisted of 
three pages and a table, and asking for $3.3 billion. My 
telephone bill has a lot more detail than that. It's--sometimes 
it's about the same amount. Your testimony adds nothing new. 
I'm wondering if we're going to get further requests or 
supporting information. Certainly, I would hope we'd have more 
than $35 million for Iraqi refugees. That would barely keep it 
going for a few weeks. You said the situation has changed in 
the West Bank and Gaza. I'd like to know what might come out of 
that.
    So, I'm hoping that there will be further information that 
will come, but--basically, I wanted to ask you about the recent 
Blackwater incident and the accountability of private security 
contractors.
    Here's a few quotes that have been in the press since the 
killing of Iraqi citizens by Blackwater on September 16:
    Brigadier General Karl Horst said, ``These guys run loose 
in the country and do stupid things. There's no authority over 
them.''
    One American military officer, referring to Blackwater 
employees riding in helicopters over Baghdad, said, ``If I've 
got one ambition left here, it's to see one of these showboats 
fall out.''
    Another U.S. military official said, ``This is a big mess. 
No one has their hands around it. Iraqis hate them. Troops 
don't particularly care for 'em. And they tend to have a know-
it-all attitude, which means they'll rarely listen to 
anybody.''
    A senior U.S. commander, ``Many of my peers think 
Blackwater is oftentimes out of control, acting like cowboys.''
    Army lieutenant colonel, ``They're immature shooters, quick 
trigger-fingers.''
    Matthew Degn, a former senior American advisor, ``The 
Iraqis despise them because they're untouchable.''
    Iraqi Interior Minister, ``Blackwater has no respect for 
the Iraqi people. They consider Iraqis like animals, although 
actually I think they may have more respect for animals.''
    I'm not sure that this is part of winning the hearts and 
minds of the people there, but--doesn't seem to be working.
    Does U.S. Government have the authority--we've hired 
Blackwater--do we have the authority to hold Blackwater legally 
responsible, including criminal prosecutions, if warranted, for 
conduct in this case?

                    OVERSIGHT OF PRIVATE CONTRACTORS

    Mr. Negroponte. If I could say, in reply, Senator, that we 
have got an investigation going on of the incident that took 
place.
    Senator Leahy. Okay. Well, let's assume that. But let's 
assume that the investigation, when it's completed, shows 
criminal conduct. Do--or does the United States have authority 
to prosecute? I mean, that should be an easy yes or no.
    Mr. Negroponte. My understanding is that that would be yes, 
because they are operating under a coalition provisional 
authority order, and that the jurisdiction would be United 
States jurisdiction.
    Senator Leahy. Okay. Does the Iraqi----
    Mr. Negroponte. I'm----
    Senator Leahy [continuing]. Iraqi government have authority 
to investigate and prosecute? This happened on their----

     LEGAL AUTHORITY FOR EXTRATERRITORIAL INVESTIGATIONS AND U.S. 
                              PROSECUTION

    Mr. Negroponte. Well, they are--they happen to be----
    Senator Leahy. Do they have the authority to prosecute?
    Mr. Negroponte. I'm not certain of the answer to that 
question, Senator. I think it may have to do whether--with 
whether or not we would waive jurisdiction in the case.
    Senator Leahy. Well, this happened----
    Mr. Negroponte. But they are accountable. And I think the 
first step is to----
    Senator Leahy. Okay. Well, let me ask you this. This is not 
the first time they--Iraqis--have been killed by them--I 
assume, in some instances, in self-defense. But there's others 
where the Blackwater employees were quickly put on a plane and 
flown home so that nobody could ask them questions. Does the 
State--I mean, has anybody ever been held accountable? Has 
anybody in Blackwater ever been held accountable for anything?
    Mr. Negroponte. Yes, sir.
    Senator Leahy. Okay. Have any gone to jail for any conduct?
    Mr. Negroponte. I'm not aware that any have gone to jail.
    Senator Leahy. Have any been prosecuted by the United 
States?
    Mr. Negroponte. I am aware that there's at--of at least one 
case, where there's an investigation by the Department of 
Justice.
    Senator Leahy. Anybody been prosecuted?
    Mr. Negroponte. Not yet, to my knowledge.
    Senator Leahy. Okay.
    Secretary Gates. Senator, I think I can give you an answer 
on your question about----
    Senator Leahy. Yes, sir.
    Secretary Gates [continuing]. Whether they can be 
prosecuted by the Iraqis. The contracts operate under the--
coalition provisional order 17, which says that non-Iraqi 
contractors are immune from Iraqi legal processes if their acts 
are pursuant to the terms and conditions of their contract.
    Senator Leahy. And that means what?
    Secretary Gates. I think that means that they probably 
cannot be prosecuted by the Iraqis.
    Senator Leahy. What if they were--what if they've been 
hired by the Department of Defense?
    Secretary Gates. They would be covered--we could prosecute 
them for felonies for--either under the Military 
Extraterritorial Jurisdiction Act that you all passed, or under 
the legislative authority that you've given us to prosecute 
them under the Uniform Code of Military Justice.
    Senator Leahy. Well, what about the--in the New York Times 
today, there's an article--and I'm sure, Secretary Negroponte, 
you've seen it--it says, ``Blackwater Inquiry Blocked by State 
Department.'' Is that article false?

             ADDRESSING ALLEGATIONS OF OBSTRUCTING INQUIRY

    Mr. Negroponte. We are not blocking an inquiry, Senator. In 
fact----
    Senator Leahy. So, the New York Times article is false?
    Mr. Negroponte. We--I don't remember the exact words of the 
article. But what I would like, if I may say, is----
    Senator Leahy. Well, would you look at the article and then 
tell me whether it is false or true?
    Mr. Negroponte. I will--yes, I will do that, sir.
    [The information follows:]

    Follow up occurred by phone between Senator Reed and Deputy 
Secretary Negroponte.

    Senator Leahy. Thank you.

                   STATUS OF BLACKWATER INVESTIGATION

    Do you know when the investigation will be complete and a 
decision will be made whether there will be prosecution or no 
prosecution on the incident that we've been discussing?
    Mr. Negroponte. I know an investigation is ongoing. It's 
being done as expeditiously as possible. But we also want to be 
sure that we've got all the facts right. I do not know when, 
but it's something that's being pursued very actively at this 
very moment.

                  UNITED STATES-IRAQI JOINT COMMISSION

    I might also add that we have created a joint commission 
with the government of Iraq to discuss this general issue. 
We've named a top-level State Department official, Ambassador 
Patrick Kennedy, to go out to Iraq to look at the overall 
issues of accountability, rules of procedure, and rules of 
engagement. This is getting the highest-possible-level 
attention. We're also looking at the possibility of asking some 
former high-ranking retired diplomats and/or military officers 
to assist us as we evaluate this situation.
    Senator Leahy. So, you're saying, if prosecution was 
warranted, than our courts have jurisdiction.
    Mr. Negroponte. That's my understanding, sir, yes.
    Senator Leahy. My time is up, Mr. Chairman. Thank you.
    Chairman Byrd. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    First, let me quickly say to you, General Pace, I'm fully 
aware of your background. And you spoke of your ancestry, and, 
being a young Italian boy. I think we should also state, on the 
record, what a beautiful name P-A-C-E is in Italian, because 
it----
    Chairman Byrd. There will be order.
    Senator Domenici. I didn't intend that, Mr. Chairman. I 
just wanted to say, in Italian, when you grew up, P-A-C-E meant 
``peace,'' right?

                          P-A-C-E- MEANT PEACE

    General Pace. Yes, sir. It means it today, too, sir.
    Senator Domenici. Very good. Well, I want to compliment you 
on your career. And you join many career military officers who 
make us proud all the time, along with the military men and 
women that are out in the field fighting. I've never seen 
anything that should make Americans more proud. It's absolutely 
incredible to me what an outstanding job they do, and how they 
have no doubt about their mission, and they can state their 
mission better than most of us and most Americans. And, when 
they state it, it makes all of us very proud. Part of that's 
because they have leaders like you.
    General Pace. Sir, thank you. I agree with your comments 
about the troops. Thank you, sir.
    Senator Domenici. Mr. Secretary, let me say, nobody sitting 
in on the--on these hearings, or over the past few months--the 
past few hearings we've had, would ever guess that you were 
such a recent appointee as the Secretary of Defense. You have 
done an outstanding job. You, too, make us proud. I have some 
speculation that I won't put forth with reference to what might 
have happened, had you been a 3-year Secretary today instead of 
a few months Secretary. But I have a suspicion things might 
have been different. You've been an outstanding person for all 
of us, or at least for me, to communicate with.
    Having said that, I have a serious question that I don't 
want you to answer here, because it is very specific to the 
energy and water appropriation program that we have, and to the 
national laboratories that are--the laboratories that take 
charge of, and make sure that, our nuclear weapons are declared 
safe and sound every year. I have it stated in writing, and, 
with the Chair's permission, I will give it to you and have you 
answer it for the committee at your earliest convenience so 
that we will not just take this single question and use today's 
session.
    May we do that, Mr. Chairman?
    Chairman Byrd. Please proceed, Senator.
    Senator Domenici. Thank you very much.

           PAKISTAN AS KEY ALLY IN FIGHTING THE WAR ON TERROR

    Now, having done that, I want to move over to you, Mr. 
Secretary of State, and ask you the following question. How 
important is Pakistan in our global war? And to what extent 
does the political instability there with President Musharraf, 
still in charge of the army--how much does that impact our 
efforts, particularly in the tribal regions? Would you do that 
as rapidly as you can, as----
    Mr. Negroponte. Well----
    Senator Domenici [continuing]. Quickly as you can?
    Mr. Negroponte. Yeah. My answer to that, Senator, would be 
that, of course, Pakistan is very important, that al Qaeda 
operatives operate in that area, in the Afghanistan/Pakistan 
border area, and can--and, we believe, continue to plot harm 
and terrorist acts against the homeland and other locations 
around the world. And so, the cooperation of Pakistan is very 
important. It's work in progress, in the sense that they are 
having great difficulty in the tribal areas with a high level 
of extremist militancy. They have a development plan to try and 
develop that area and try to bring it closer and integrate it 
more closely with the rest of Pakistan. But I think more 
work's--remains to be done in that area.

                      PAKISTAN'S POLITICAL PROCESS

    Regarding the political process, I would say that the 
country, at the moment, is in a period of transition. We can 
expect a presidential election in that country a couple of 
weeks from now, and legislative elections to follow, so it's a 
period that we're--which we're going to have to watch very 
carefully.
    Senator Domenici. Thank you. Thank you very much.
    Mr. Secretary of Defense, I was encouraged by General 
Petraeus' recent testimony about our soldiers' terrific efforts 
to bring security to Iraq and stop sectarian violence. I'm also 
encouraged by his recommendation to begin bringing troops home 
this year. You recall that. He so stated. I assume that you 
support that statement and have no reason to have any plans to 
the contrary. Is--would that be a safe statement?
    Secretary Gates. I completely support his recommendations 
for beginning drawing down our forces. And I might add that, 
and I would defer to General Pace, but I believe that all of 
our senior military commanders support his recommendations.

                            PETRAEUS REPORT

    General Pace. Senator, I would say that if you took the 
word ``Petraeus Report'' and took the name ``Petraeus'' off, 
you could put ``Fallon,'' you could put ``Pace,'' 
``Cartwright,'' ``Mullen,'' ``Casey,'' ``Moseley,'' all--and 
``Conway''--all eight of the senior four-stars, the six Joint 
Chiefs, the regional commander, Admiral Fallon, and the 
combatant--and the commander on the ground, General Petraeus--
unanimously made that recommendation to the President.
    Senator Domenici. Oh, you say they did.
    General Pace. Yes, sir.
    Senator Domenici. I see.
    General Pace. Individually and collectively.
    Senator Domenici. Thank you very much. I thought you were 
merely saying ``that could be the case,'' but you're saying 
``it is the case.''
    General Pace. It is the case. Yes, sir.
    Senator Domenici. Thank you very much.
    Chairman Byrd. Thank you, General Pace.
    Senator Domenici. Is my time up, Mr. Chairman?
    Chairman Byrd. Secretary----
    Senator Domenici. Is my time up?
    Chairman Byrd. You have 30 seconds.
    Senator Domenici. I'll yield it back. Thank you, Mr. 
Chairman.
    Chairman Byrd. Thank you.
    Senator Harkin.
    Senator Harkin. Thank you, Mr. Chairman.
    Secretary Gates, in testimony before Congress in March, you 
made it clear that it's your position that the detention center 
at Guantanamo Bay should be closed. You stated, and I quote, 
``I came to this position believing that Guantanamo should be 
closed. I know that people have expressed that as a wish. The 
President has expressed it as a wish.'' That's March 29, 2007.
    In June, you reiterated this position, made clear, in your 
words, ``The President says he wants to close Guantanamo.'' 
That's a quote. You continued, and I quote, ``We want to close 
it as a detainee facility.'' That was on June 29.
    And the President himself said, ``I'd like to close 
Guantanamo.'' That is his press conference of June 19, 2006.
    Well, given that we all agree that the detention facility 
at Guantanamo Bay should be closed, since your testimony to 
Congress in March I've eagerly awaited the administration's 
proposals and thoughts on how to shut down the facility. I 
believe 6 months is certainly a reasonable period of time to 
expect the administration to develop a plan and give something 
to Congress. But the administration has not come forth with a 
plan. In fact, my staff has been briefed that the Department of 
Defense has not undertaken any planning toward closing the 
detention facility at Guantanamo Bay.
    We've also learned, after the fact, that, this spring, the 
Department of Defense--we learned, after the fact--that the 
Department of Defense diverted funds to build what it has 
referred to as, ``an expeditionary legal complex,'' at 
Guantanamo Bay. The complex consists of a second courthouse and 
a mini city to accommodate press, witnesses, and everyone else 
involved in the adjudication of detainees.
    Mr. Secretary, the building that's currently occurring is 
not consistent with the idea of closing the detention center. 
Given that the administration--you and the President--have 
stated you want it closed, why are you continuing to build 
facilities at Guantanamo Bay, when you should be taking steps 
toward closing it?

                               GUANTANAMO

    Secretary Gates. Senator, first of all, I would say that I 
was unable to achieve agreement within the executive branch on 
how to proceed in this respect. We are continuing to try and do 
that. The principal issues include where in the United States 
the prisoners would be sent and what kind of legislation would 
be required in order to provide that some of those who are 
perhaps the most dangerous could be processed, 
administratively, in a way that protected--that gave better 
protection to their rights, but, at the same time, protected 
the rest of us against them. And my hope has been that we could 
achieve agreement on this. And I would tell you that I have 
asked our people, not too long ago--a few weeks ago--to put 
together our own proposal inside the Department of Defense that 
we could then perhaps use as a basis for discussion with, first 
of all, the State Department, and, above all, the Justice 
Department and the NSC, and then, perhaps, if we can reach 
agreement, come here to the Hill and get legislation that would 
allow us to proceed.
    So, my intent remains the same. Quite frankly, I've run 
into some obstacles, from a variety of lawyers, and I'm still 
trying to get past that.
    Senator Harkin. Well, Mr. Secretary, I appreciate that, 
except that, again, this diversion of money to build more 
permanent facilities there is not consistent with closing it. 
Second, we've looked into this, we have maximum-security 
facilities in the military and maximum-security facilities 
outside of the military, where there are beds and places 
available. So, I don't know what to think about all these 
statements about closing it, and then nothing ever happens. I 
think there's a great sentiment that that has given us a very 
black eye around the world. One of the things that just sticks 
out like a sore thumb is, Colin Powell once said it should have 
been closed ``this afternoon.'' The State Department's taken a 
position on it that it should be closed, also. I can read those 
quotes, too, but I won't, from the State Department.
    But we see nothing coming from the administration on this. 
I have to ask, Will we see anything? Will we see something from 
the administration on plans to close Guantanamo?
    Secretary Gates. I hope you will, Senator.
    Senator Harkin. I sure hope so.
    Secretary Gates. I'm doing my best.
    Senator Harkin. Well, I appreciate that. And any help we 
can give you, please let us know.
    Secretary Gates. Thank you, sir.
    Senator Harkin. Last----
    Chairman Byrd. I'm sorry.
    Senator Harkin. Oh, sorry. I just have one----
    Chairman Byrd. Proceed.
    Senator Harkin. I don't want to end this on a discordant 
note. But, General Pace--I don't know you personally, we never 
had a personal relationship; I don't know you professionally, I 
have only followed your career, being a member of the 
Appropriations Committee, I assume you've had a distinguished 
career, or you wouldn't be where you are. But the statements 
you made in March regarding gays and lesbians in our society, 
those serving in the military, were very hurtful and, I think, 
very demoralizing to the thousands of gay men and lesbian women 
who now serve in our military and to those gays and lesbians 
who may want to serve their country. I've been watching Ken 
Burns' epic on ``The War,'' on the Second World War, and it 
occurred to me again, How many gay men and--lost their lives in 
defending their country? And your statement that homosexual 
acts are immoral and that we shouldn't condone that in the 
military--it's very hurtful. Millions of Americans are gay men 
and lesbian women. And they are some of our most upstanding, 
law-abiding, moral citizens that we have. And so, like I said, 
I don't want to be discordant, but I'd hate to see a career 
like yours end on a note like that. I hope you've had time to 
reflect on that. Your personal views are your personal views. 
But, once you put those stars on your shoulder, just like when 
you take an oath of office to be a Secretary or as a Senator, 
our personal lives cross over, and we have to be cognizant of 
our responsibility to society at large when we either become a 
Chairman of the Joint Chiefs of Staff or a United States 
Senator or a Secretary. Your comments were very hurtful and 
demoralizing comments. And if you have anything to add--to say 
to that, I would be open to listen.

                          DON'T ASK DON'T TELL

    General Pace. Well, thank you very much, sir. I really 
appreciate the opportunity to clarify what I did say, to be 
very precise about what I said and what I believe, because what 
I said and what I believe was not what was reported very 
accurately. And, Mr. Chairman, if I could indulge you, sir, I 
need about 4 to 5 minutes--4 to 5 minutes--to answer this 
properly.
    Chairman Byrd. That's fine. Please----
    General Pace. Thank you, sir.
    Chairman Byrd [continuing]. Proceed.
    General Pace. First, Senator, I would tell you, 
categorically, that any nation that does not take advantage of 
the quality, skills, and contributions of any part of its 
population is doing a disservice to themselves, whether it be 
cutting out women, cutting out men, cutting out certain kinds 
of religion, cutting out heterosexuals, cutting out 
homosexuals, anything that prevents those who want to 
contribute to this society from contributing, is a mistake on 
the part of their nation.
    What I said was that I support the ``Don't ask, don't 
tell,'' because it allows those who are homosexual to serve 
this Nation if they so choose. It makes no judgment about their 
morality. It gives them the opportunity to serve.
    I said that, as a nation, we should not enact laws that 
make it the law of the land that certain types of activity are 
acceptable. And I started out very purposefully in saying that 
heterosexuals who are having sex amongst married couples not of 
the same marriage, was immoral. So, I would repeat--because my 
upbringing is one that says that sex between other than man and 
woman inside the bonds of marriage is a sin--that does not--is 
there adultery? Is there adultery? Of course there is. Are 
there homosexual people out there having homosexual acts? Yes. 
Are there wonderful Americans, who happen to be homosexuals, 
serving in the military? Yes. And we need to be very precise, 
then, about what I said, wearing my stars and being very 
conscious of it, and that is, very simply, that we should 
respect those who want to serve their Nation, but not, through 
the law of the land, condone activity that, in my upbringing, 
is counter to God's law.
    Chairman Byrd. Now, one more outbreak, and that'll be too 
many.
    General Pace. There are those, obviously, who do not agree 
with that. All I'm saying is that, in my responsibility, with 
the authority I've been given and responsibilities I've been 
given, are to obey the law of the land and to object if 
something is either illegal or immoral. My upbringing tells me 
that sexual activity outside the bonds of marriage between a 
man and a woman is immoral. That's what I was taught. That is 
what I--that's what I believe. It is----
    Chairman Byrd. This hearing is recessed.
    General Pace, do you wish to proceed?
    General Pace. Mr. Chairman, if I might just make one last 
sentence, and I----
    Chairman Byrd. Please do that.
    General Pace [continuing]. And I will be done.
    Chairman Byrd. Please do that. We've not treated you right.
    General Pace. Sir, thank you. And, Senator Harkin, thank 
you, sir, for the opportunity, again.
    I would be very willing and able and supportive of any 
description, whatever change to ``Don't ask, don't tell'' would 
continue to allow the homosexual community to contribute to 
their Nation without condoning what I believe to be activity, 
whether it be heterosexual or homosexual, that, in my 
upbringing, is not right.
    Chairman Byrd. Mr. Secretary, you've done well.
    Senator Harkin. Well, I thank the General for his response, 
and I'm sorry about the uproar.
    But one of your comments caught me. I'll read your words 
again in the record in this meeting. But I want to make it 
clear that we don't have laws in this country any longer 
against homosexuality and against gay relationships. We don't. 
We've gone beyond that. And so that when you are taking the 
oath of office to uphold the laws of the land, there is no such 
law like that. And it is a matter of leadership, and, I think, 
one in which we have to be careful, sometimes, what we say. We 
all say things, sometimes, we regret. We--maybe we've said it, 
we shouldn't have said it that way, that kind of thing. We're 
all human beings in that regard. But this is something I've 
heard a lot about.
    Chairman Byrd. Let's close the doors. Close the doors.
    Senator Harkin. Thank you, Mr. Chairman.
    This is something I've heard a lot about. And I'm not the 
only one. And especially with so many gays, who do serve 
honorably in our military, this can have a very demoralizing 
effect, when their boss says that what they're doing is 
immoral. You can have your personal opinions, General, but, as 
I said, once you put those stars on, and you start saying those 
things, they don't become your personal opinions any longer, 
they become policy. And that's why I say that.
    Chairman Byrd. Close those doors.
    Senator Harkin. Can't they get them out of the building?
    And I wanted to approach it from that standpoint. I will 
ask your successor his or her views on this issue as well.

                              UNIFORM CODE

    General Pace. Sir, the--sir, the Uniform Code of Military 
Justice makes it illegal for members of the same sex or members 
of the opposite sex who are not married to have sex with each 
other. It is the law. And I am upholding it.
    Senator Harkin. Well, then maybe we should change that.
    Thank you, General.
    General Pace. Yes, sir.
    Chairman Byrd. Thank you, General Pace.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

      STATE DEPARTMENT REQUEST BUILDS CAPACITY FOR NATION BUILDING

    Secretary Negroponte, it occurs to me that one of the 
provisions in this request relates to funding for the 
Department of State. And I'm curious to know whether there is 
in place a plan that has the promise of working that will bring 
the Iraqi government to the point where they'll be able to 
assume more and more of the responsibility for nation building, 
to deal with disagreements within Iraq and Afghanistan that 
will enable those countries to, one of these days, protect 
their own security interests against neighbors who may be 
hostile without the United States having to be so heavily 
involved.
    Mr. Negroponte. I welcome that point, Senator. There 
certainly is, I think, in a number of different ways. First of 
all, efforts to increase the capacity of both the security 
forces, the armed forces, and the police forces of these--of 
both of these countries, both Iraq and Afghanistan--I think 
that's a very, very important part of being eventually able to 
reduce the role of our own forces. Another effort has to do 
with encouraging them to--and having programs to help them 
improve governance and their governmental institutions, not 
only at the center, but in the provincial areas, whether it has 
to do with helping them with budget execution so that they can 
spend their money more effectively in the countryside, or 
building roads so that the government can have a greater reach 
into the countryside, which is absolutely vital. So, those are 
a couple of the ways that I can think of where we're trying to 
encourage these countries to be able to take on a greater and 
greater responsibility for their security and the management of 
their own affairs. And I'm optimistic that--I'm hopeful, if not 
optimistic--this can be achieved.
    Senator Cochran. Secretary Gates, I wonder, also, along the 
same line, are we getting more cooperation, or less, from 
neighboring nation-states who have an important stake in the 
outcome of this? I know Jordan was involved in helping to train 
police and other peacekeeping groups who would be redeployed 
into Iraq. Are there ongoing efforts that offer encouragement 
and that will continue to produce good results and contribute 
to an opportunity to have a more stable Iraq?
    Secretary Gates. I would welcome comments by either 
Ambassador Negroponte or General Pace, but my impression is 
that the principal contribution that Jordan is making now is 
taking care of a large number of Iraqi refugees. As the 
Ambassador indicated, the Saudis are going to open an Embassy 
in Iraq. The neighboring countries have made some serious 
contributions, in terms of debt relief and in terms of economic 
support. I would say that their contribution in the security 
arena has been fairly minimal, but what is beginning to take 
place is some growth in both economic and financial assistance. 
But----
    Mr. Negroponte. I would echo what the Secretary said with 
regard to security-type assistance. I think it's been less than 
it could be, and I think we want to try and encourage more. 
But, I'd say, in the area of economic and reconstruction 
assistance, certainly the pledges from the rest of the 
international community have been substantial. They've been 
about equal, in total, to our pledges. Countries such as Japan, 
for example, the United Kingdom, and others, have given 
substantially to Iraq. So, that's been a promising area. And we 
would hope to continue and encourage more of that.

                             IRAQI REFUGEES

    General Pace. I would add, also, Senator, one more thing 
for Jordan, and that is that they have a police academy there 
that has thousands of Iraqis in residence, at any given time, 
going through their police training, and then going back into 
Iraq to perform their duties.
    Senator Cochran. Is there any indication of widening the 
contributions, or enlarging the contributions, from other 
nation-states as we end up seeming to be asked to do more? Are 
other members of the international community responding in the 
way that we are?
    Mr. Negroponte. Well, as I said, I think that they've about 
matched us, in the terms of pledges. And we're constantly 
looking at ways to encourage other countries to continue to 
give, and to give more. And the other point I'd like to make, 
Senator, is, we're very focused on, now, not so much large 
infrastructure projects, but trying to help enable the Iraqis 
to make the best use of the resources and infrastructure they 
have. And if security can be gradually restored, this is a 
country that, of course, will have a large economic potential 
of its own. Just their oil production, in and of itself, is 
substantial. And, of course, if the right kind of security 
conditions prevail, it could be substantially increased.
    Senator Cochran. Thank you for your continued efforts.
    Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator.
    Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    What a sad day at this committee. I really must go on the 
record with how disturbed I am about the conduct that occurred 
here.
    We have men and women in harm's way. I have 88 Marylanders 
that have died. Hundreds have been wounded. And I had hoped 
that this hearing would have been conducted in the spirit of 
the dignity--the dignity and the intellectual rigor and the 
patriotic commitment that it requires. And so, what's happened 
here, I think--I'm a strong free-speech advocate, but to have 
such tension, such chaos, such disrespect, I think this has not 
been the best day that has occurred here.
    General Pace, I want to say to you, because I did want to 
comment on your retirement, I do need to express my 
appreciation for your service. You've given 40 years to this 
country. And, as I look at it, you have been at the Academy 
about--the Naval Academy--I would venture to say you were a 
plebe at the same time that President Kennedy was assassinated.
    General Pace. That's correct.
    Senator Mikulski. Am I correct?
    General Pace. Exactly.
    Senator Mikulski. So, on that very dark day in November, 
you were in your first semester of your first year, becoming a 
military officer. And so, during those 40 years--you've seen us 
at our darkest days, and you've seen us at our best days, and 
you've participated in the history of that. So, I just want to 
say, for those 40 years, thank you for what you've done.
    General Pace. Thank you.
    Senator Mikulski. I also want to thank your wife, Lynne, 
your son, Peter, and your daughter, Tiffany Marie, because you 
could not have made those sacrifices without the support of 
your family, and, as we know, every wife--or every spouse makes 
that sacrifice, and as do your children. I'm sure there were 
Christmases and Thanksgivings and soccer games when they would 
have liked to have seen you, and yet you had another call of 
duty. So, I wanted to just go on record as someone who really 
appreciates our military, understands the life of a plebe and 
the Naval Academy, to thank you for that.
    General Pace. Thank you, Senator.
    Senator Mikulski. So, I just wanted to say that.
    Secretary Gates, I want to raise an issue that--in which I 
feel we've operated in the most collegial way, which is trying 
to get to the bottom of some of the problems we're facing in 
military medicine. Your response to the newspaper accounts at 
Walter Reed were, indeed, vigorous. You've given us robust new 
leadership, with General Pollock, who I will be meeting with. 
And I'd like to, for purposes of my questions, to follow up on, 
now, Where are we? Because, as--on the implementation of the 
recommendations of the two commissions that have reported on 
how to improve our military medicine situation--we had the 
independent review group and we have the Shalala-Dole 
Commission. So, my question to you is, Where are we, in terms 
of the money that is needed, in terms of meeting our duties to 
those who have been wounded? And what policy changes have been 
made, particularly in the disability areas and the case 
management? And, again, I want to thank you for giving us 
General Pollock, but I also want to thank you for giving us 
such a strong and human response to that.

                    HEALTHCARE FOR WOUNDED WARRIORS

    Secretary Gates. Thank you, Senator.
    Secretary England and I have resolved that the military 
medicine problem is one that we can get fixed while we remain 
in office. Secretary Gordon--Secretary England meets weekly 
with a senior team from both Department of Veterans Affairs and 
from the Department of Defense. The two Deputy Secretaries meet 
every week to review where we are on the implementation of the 
recommendations.
    All of the implementation of all of the recommendations 
made by Dole-Shalala that do not require legislation are 
underway. And we are pursuing those. Similarly, with the 
recommendations of the West-Marsh Commission. All together, 
there are about 300 recommendations that have been made for 
improvements in the system.
    One of the most controversial and the most--well, one of 
the most complicated--is the whole arena of determining 
disability. And, as I understand, from the latest information--
and we'd be happy to provide you all with an update on the 
specifics of some of these, in terms of where we are, because 
we've been working with staffs here on the Hill, in terms of 
the legislation that's pending and some of the things we think 
we need--but, as I understand it, one of the changes that is 
being made is that the only evaluation that will be made, in 
the future, by the Department of Defense is whether or not a 
wounded soldier is fit to continue serving. All decisions 
relating to postmilitary--if they are not able to continue 
serving, then decisions with respect to disability will be made 
by the Department of Veterans Affairs. So, they only have to go 
through one evaluation, they don't have to go through one in 
DOD and another one in the Department of Veterans Affairs.
    In terms of--and there are a number of other----
    Senator Mikulski. Would you hold, on that?
    Secretary Gates. Sure.
    Senator Mikulski. Because I've gotten confused. If the DOD 
part is to determine your fitness to return to duty, or what 
level of duty that they could return to--of course, that's 
appreciated--but when we get to the VA, then, that would be 
their level of disability, in terms of functioning in civilian 
society?
    Secretary Gates. Yes, ma'am. And the----
    Senator Mikulski. And you're saying that's going to be a 
one-stop shop?
    Secretary Gates. Yes, ma'am. And the--obviously, the level 
of disability would determine the level of the pay. And I--and 
Ms. Jonas may be more up on the specifics of this.
    But let me just make--just touch on the money, for a 
second. The Congress allocated $900 million to us in the fiscal 
year 2007 supplemental, about one-half for traumatic brain 
injury and about one-half for post-traumatic stress. We have 
that money. There is another half a billion dollars, $500 
million, in this adjustment request for improved medical care. 
So, I think we have addressed the financial needs. The Congress 
has already taken care of some of them. And there probably will 
be others coming out of the solutions to the various 
recommendations that we have. But, in terms of what we've been 
able to identify now, and begin to implement, I think we have 
the resources that we require, if you include the request for 
fiscal year 2007.
    But, let me ask Ms. Jonas to address some of----
    Senator Mikulski. Well, Ms. Jonas, though, before you do--
and perhaps, then, you could submit it in writing--my time is 
almost up. But, you know, in World War II--and, of course, 
we're all watching the Ken Burns series. Last night, we watched 
Anzio and the Battle for Monte Cassino, which some people are 
very familiar with here. But there's this whole issue of 
support to those that have such terrible injuries, particularly 
like brain injuries. And you see that the support is provided 
by either a spouse or a mother, particularly with--or a 
husband--they've had to give up jobs. There is no income for 
that. So, even though there might be a disability type of 
benefit for those who bear such ghoulish wounds of war, there's 
nothing there. And, remember, in World War II, they'd say, ``If 
the Army wanted you to have a wife, it would have issued you 
one.'' But now, we've actually issued a caregiver, an unpaid 
caregiver, for those that are bearing these permanent wounds, 
because when they come home, as you--well, you've observed 
those, firsthand, and we appreciate that--is that something 
that's being looked at? I will be raising that issue with 
General Pollock.
    Secretary Gates. Yes, ma'am.
    Senator Mikulski. Because I think there's--you know, we 
might be in a long war, but we're going to be in a very long 
recovery and rehab, where sustainability for these very sick 
men and women.
    Secretary Gates. Taking better care of the families and 
providing some kind of assistance to them, for the very reasons 
you describe, is one of the recommendations that has been made, 
and is one of the recommendations that we're pursuing. It's one 
that several of the families have raised directly with me at 
Walter Reed and at Bethesda. I completely agree with your view 
of the importance of the role they're playing, and there's 
something we ought to be able to do for them. And we will 
respond--we will give you a status report on the implementation 
of these recommendations, for the record.
    Senator Mikulski. Thank you.
    Ms. Jonas, if I could have that other information--my time 
is up.
    Thank you.
    [The information follows:]

    The Department has made great strides towards implementing the 
recommendations from the Dole/Shalala and West Commissions. Below are a 
few of the accomplishments towards improving both medical and mental 
health care of our wounded warriors:
  --Programming over $900 million to support psychological health (PH) 
        and traumatic brain injury (TBI) prevention, treatment, and 
        research to ensure that Services achieve and maintain 
        excellence across the continuum of care;
  --Integrated behavioral health professionals into primary care 
        settings on a small scale using best practice guidance, for 
        early identification of TBI and PH issues;
  --Building PH governance structures and trusted advisors to our 
        commanders and senior leaders at all levels including embedding 
        PH professionals into line units;
  --Partnered with the Department of Veterans Affairs (VA) to develop 
        clinical practice guidelines for Post Traumatic Stress Disorder 
        (PTSD), Major Depressive Disorder, Acute Psychosis and 
        Substance Use Disorders;
  --Using best practice guidelines to provide mental health care;
  --Collaborating with VA to provide training in evidence-based 
        treatment for PTSD;
  --Trained more than 800 clinicians in identification and treatment of 
        TBI under the VA/DOD partnership;
  --Added TBI questions to the Post Deployment Health Assessment (PDHA) 
        and Post Deployment Health Reassessment (PDHR) to ensure the 
        Service members are appropriately screened for TBI;
  --Sharing PDHA and PDHR information between DOD and VA clinicians to 
        facilitate the continuity of care for the veteran or Service 
        member;
  --Developed a comprehensive staffing plan for psychological health 
        services based on a risk-adjusted, population-based model using 
        existing scientific information;
  --Partnered with the Department of Health and Human Services to 
        provide uniformed Public Health Service officers in military 
        treatment facilities to rapidly increase available mental 
        health providers for DOD;
  --Expanded our Mental Health Self Assessment Program to include 
        mental health education and suicide prevention training for 
        children, parents and teachers in the DOD schools;
  --Expanding the Emmy-nominated Sesame Street Workshop to help young 
        children understand and manage stress associated with having a 
        deployed parent;
  --The Joint DOD/VA Senior Oversight Committee approved the Concept of 
        Operations for the National Intrepid Center of Excellence 
        (NICoE) for PH and TBI mandated to be established no later than 
        November 2007;
  --Completed the Report to Congress on the DOD Task Force on Mental 
        Health in September 2007;
  --Held the Operational Health Joint Planning Group Conference in 
        September, 2007;
  --Completed the initial validity study data collection phase for PDHA 
        and PDHR evaluations, and initiated the second phase evaluation 
        study;
  --VA established policy for mental health access standards to allow 
        24-hour triage and 14-day appointment access for Operation 
        Iraqi Freedom/Operation Enduring Freedom (OIF/OEF) veterans to 
        address mental health concerns;
  --Refined and simplified the TRICARE Reserve Select premium system to 
        include a single rather than a multi-tiered system that 
        involves a low-cost premium across all Reserve component groups 
        in accordance with the fiscal year 2007 National Defense 
        Authorization Act;
  --Issued a TRICARE Communication Release to recruiters to ensure that 
        all staff have knowledge of key resources for current or former 
        Service members who need assistance, and to ensure that 
        materials are available for distribution as needed;
  --VA approved the concept to make mental health records available for 
        members of the National Guard and Reserve;
  --PTSD has been included in the Millennium Cohort Study;
  --Pre-deployment contact information forms have been revised to allow 
        an increased number of people permission to access different 
        levels of information;
  --Funded Army Family Readiness Group Coordinators; and
  --Scheduled an October 2007 DOD and VA stakeholders conference to 
        review women's mental health issues and resources.
    With respect to the disability and case management areas, the 
Department has made the following policy changes:
  --DOD/VA jointly created a federal interagency working group to 
        address the need for reform of continuum of care management 
        from recovery to rehabilitation and to community reintegration;
  --DOD/VA jointly mapped process of care currently provided across the 
        continuum including with state and local and veteran service 
        organizations and non-governmental and private sector partners 
        (e.g., Governor's, The Adjutant Generals, Christopher Reeve 
        Foundation, Disabled Veterans of America, Yellow Ribbon 
        Foundation);
  --DOD/VA is jointly writing standards for generic clinical and non-
        clinical practice in working with wounded, ill and injured and 
        their families;
  --DOD/VA jointly developing common training program for DOD Personnel 
        Evaluation Board Liaison Officers (PEBLOS) and VA Military 
        Service Consultants (MSC) to create standardization of 
        practices across Disability Evaluation System and creating 
        common information tools for wounded, ill and injured, their 
        families and non-PEBLO and MSC personnel;
  --DOD collaborated with the Department of Education's National 
        Institute for Disability Rehabilitation Research to address 
        future research needs to inform care providers on services for 
        wounded, ill and injured and their families;
  --VA initiated the OIF/OEF Case Management Program under the Veterans 
        Health Administration/Veterans Benefit Administration;
  --VA created the Transition Patient Advocate Program;
  --DOD/VA jointly reporting to the Joint Executive Committee (JEC) on 
        activities undertaken and planned for ongoing coordination of 
        policies and services for wounded, ill, and injured case 
        management; and
  --DOD/VA jointly reviewing oversight options for continuing reform of 
        case/care management through compatible and shared 
        accountability tools, evaluations, training, communications, 
        conferences, reports, etc.
    Finally, the Department's amended fiscal year 2008 Global War on 
Terror request includes $891 million to improve our support of the 
wounded, ill and injured. This includes--
  --$504 million to support the Army Medical Action Plan (AMAP), which 
        will provide additional military and civilian medical support 
        personnel and begin the renovation of existing facilities and 
        construction of new facilities to house and care for Wounded, 
        Ill and Injured Soldiers, and
  --$387 million to accelerate the closing of Walter Reed Army Medical 
        Center, and the opening of the Walter Reed National Military 
        Medical Center (WRNMMC) and the new Fort Belvoir Army Community 
        Hospital.

    Chairman Byrd. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.
    I want to thank all of you for being here today.
    And, General Pace, thank you for your service to the 
country. Appreciate that. Years that you served and great work 
that you've done. And I know you'll be on to many other things 
that you're going to be involved with, but thank you for--thank 
you for your service and job well done. I appreciate it.
    General Pace. Thank you, sir.
    Senator Brownback. Secretary Negroponte, I want to ask you 
about a bill we just passed, a resolution on federalism in Iraq 
that just passed the United States Senate, 75, I think, to 23, 
that the vote went through. And with our experience in Iraq, 
your position now at the State Department, I just--I'd like to 
talk through some of this with you. I know State Department has 
had some--had concerns about the Sense of the Senate resolution 
that we just passed. But it seems to me that this just makes a 
lot of sense, to push this forward. And, as I understand the 
Bush administration's objection to it, it's really centered 
around, ``We don't want to push the Iraqis to do something that 
they're not sure they want to do''--is basically what I get the 
major thrust out of this to be. And yet, it's my contention, in 
looking at this, is--I don't think they are politically capable 
of doing this, given the base of their support in either the 
Shi'a area or the Sunni area, leaving the Kurdish area aside, 
because they've been running their own region--I think the 
three Kurdish provinces, they've been--I was up there in 
January. I know you know a number of the Kurdish leaders. 
Investment's taking place, growth is taking place, stability--
it's really moving like we'd hope the rest of the country would 
move.
    It seems to me that now is the moment for the political 
surge. Military surge has been moving forward. I think it's had 
some significant accomplishments. It doesn't seem to me we've 
had much in the way of political accomplishments taking place. 
And I think we need to step in--you, Secretary Rice, bring in 
former Secretary Baker--to really push a Sunni-Shi'a 
accommodation taking place. And we could start on this in 
Anbar, in harvesting the moment that the military is giving, 
and allowing the same sort of regional authority, or pushing 
that, for the Sunnis, that the Kurds have in the north, so you 
don't have to do--federalize the whole country, but you do--you 
do that in the Sunni area, to capture the moment that we have 
there.
    And it seems to me--and I want to finish with this, and I 
want to give you plenty of time to answer--that we've got, in 
Baghdad, this segregation taking place. This is a military map. 
I'm sure you're familiar with it. And you are, from on the 
ground. But the Tigris River--this is the Shi'a purifying area, 
if I could use that in a terrible way. This is the Sunni 
segregating area. It is not a perfect map, and it's not 
happening that way everywhere. But you are seeing these 
communities go Sunni, go Shi'a. We saw that in the former 
Yugoslavia. We saw that--we've seen that taking place in other 
places around the world.
    Why not a political surge right now, and particularly 
capturing the moment of Anbar and the Sunni area, so that they 
could--we could try to grab the moment and decentralize a great 
deal of that authority in the country?

                           FEDERALISM IN IRAQ

    Mr. Negroponte. Thank you, Senator, for your question.
    First of all, on the resolution that you passed, I think 
our concern--you rightly characterized it--was that we felt 
that we ought to be clear that ultimately it's the Iraqis 
themselves who decide; they have to decide this. We don't deny 
that there's provision in their constitution for forming 
regional areas, and that, if that's the route that they choose, 
they should do it. And I believe you made a slight modification 
in your--in the text of your resolution, to take into account 
the fact that ultimately they have to decide.
    Senator Brownback. We did.
    Mr. Negroponte. Second, as far as regional and empowering 
the provincial activities and people in the various localities 
are concerned, certainly part of our assistance strategy and 
part of our presence strategy in Iraq goes in that direction. 
The very fact that we now have 25 PRTs spread out throughout 
the country is one way of demonstrating that. I agree with you 
that the situation in al Anbar presents opportunities. I think 
that the Iraqis themselves, though, ultimately are going to 
have to work their way through this. Clearly----
    Senator Brownback. Aren't you going to have to push 'em 
to----
    Mr. Negroponte. I think----
    Senator Brownback [continuing]. Do that?
    Mr. Negroponte. I--certainly, our--I thank our 
encouragement can be a positive factor. And certainly one of 
the main things that our Ambassador does out there is to do 
what he can, within his power and within the powers of his 
persuasion, to foment a spirit of reconciliation and to foment 
these different groups working more closely together in a 
political way. But I see, Senator--this is a very fundamental 
issue for the Iraqis, what the balance and distribution of 
power and authorities is going to be between the center and the 
provinces. I believe it's a longer-term issue, in a certain 
sense. It's one that the Iraqis are going to have to work out 
amongst themselves. And it's going to take a certain amount of 
time, just like it takes other countries time to sort out their 
constitutional systems. But there are things that can be 
encouraged along the way. For example, the possibility of local 
elections, provincial elections. And there is pending, before 
their legislature now, I believe, the question of arranging for 
local elections, which would give an opportunity to some of 
these groups, like the Sunni groups that boycotted the 2005 
elections, to participate more actively in the political 
process this time.
    So, yes, there are things to do. The Iraqis, I think, are 
the ones who basically have to do it, but we can play an 
encouraging role, I think, with not too high a profile, if I 
might add.
    Senator Brownback. Put that other map up.
    Before my time expires, I think we've got to play a more 
aggressive role on it, because it seems to me that their own 
political base, the Shi'a, aren't going to allow them to move 
too far toward some of the Sunni leadership in some cases, and 
the Sunni the same way. It's going to take us really hammering 
it.
    And I just wanted to show you a map of--this is a 1914 map 
in the region. You're probably very familiar with this, being a 
good student of history. Former Mesopotamia. It's a southern 
Shi'a region. It's the center that's a Sunni region. Northern 
Kurdish region that's in this area, with Baghdad as a Federal 
city. I think there's some natural tendency, and some history 
with this. And seems like instead of fighting the situation, we 
ought to, kind of, flow and push it more this way into this--a 
politically stabilized environment, because the current setup, 
I just don't think, long term, can work. And the Maliki 
government's having difficulty holding things together, it's 
having difficulty with its ministers. And I think this 
decentralized approach has some reflections in history to it, 
and has some reflections of the situation on the ground. And 
I'd hope we could then pull our troops back more from the front 
of the line, and policing, if you had more regions like what 
the Kurdish region is right now.
    Chairman Byrd. Senator Kohl.
    Senator Brownback. Mr. Chairman, thank you.
    Senator Kohl. Mr. Chairman.
    Secretary Gates, you were part of the Iraq Study Group 
which unanimously recommended reducing our troops in Iraq to 
force the Iraqis themselves to take a larger role, and also 
engaging in a diplomatic offensive with Iraq's neighbors. That 
study group supported moving the situation in Iraq from one 
that was dependent on the United States military to a Middle 
East-wide diplomatic effort. Now, that Iraq Study Group, as I 
said, was unanimously signed. And I know you moved out to your 
present job just before that report became official, but I 
assume--and correct me--you would have signed that report. What 
has happened, in your mind, to the Iraq Study Group's 
conclusions?''

                            IRAQ STUDY GROUP

    Secretary Gates. Well, it's kind of interesting, the Iraq 
Study Group's conclusions might have been different if I had 
stayed, or at least somewhat.
    I would say that, first of all, most of the recommendations 
of the study group either have been implemented or are being 
implemented, in one way or another. The interesting feature--or 
one of the interesting recommendations of the study group was 
that it spoke of the potential desirability of a relatively 
short-term surge to try and bring the security situation in 
Baghdad under control. And the report acknowledges that that 
surge might require 100,000 to 200,000 additional troops. And 
they then rejected that idea, not because they thought that 
kind of a surge was a bad idea, but they didn't know where the 
troops would come from. And I would say that two of the members 
of the study group were those who recommended, when we were in 
Baghdad 1 year ago about this time, that, in fact, we recommend 
a surge.
    So, I think that the part that--the part of the 
recommendations that I think has not fully been implemented, at 
this point, is their view of what the mission of the U.S. 
forces should be. I think what the President has announced, 
though, is the beginning of a transition to a mission, I think, 
similar to what they had in mind, that is focused on going 
after al Qaeda, protecting the borders against foreign 
intervention, and supporting and training the Iraqi forces.
    The other piece of it that I think, probably, people would 
argue has not been implemented to the extent that Baker-
Hamilton recommended was the outreach to the Syrians and the 
Iraqis that was described in an earlier exchange between 
Ambassador Negroponte and one of the members of the committee. 
I would say, here, that we continue to have diplomatic 
relations with the Syrians. We have begun having conversations 
in Iraq with the Iranians. There clearly is a lot of effort.
    Another piece of Baker-Hamilton was aggressive pursuit of 
Middle East peace process. I think that's what Secretary Rice 
has been involved in, just in her trip to the region a few days 
ago.
    So, I think that a large--large elements of the report are 
being implemented, or have been implemented, with the 
exceptions that I mentioned.
    Senator Kohl. I think that what many people came away from, 
with respect to the study group's report, was that there should 
be a major diplomatic effort to include all the nations 
surrounding Iraq in a common mission to stabilize and to see 
that the country begins to pull out of its chaos. And I don't 
think that's happened, to any extent worth noting thus far, 
isn't that true?
    Secretary Gates. Well, I think--I would defer to Ambassador 
Negroponte on this, but my impression is that the neighbors 
conferences, that have included, as I recall, both the Syrians 
and the Iranians, have been directed toward that end. And my 
impression is that those conferences have produced some 
positive results.
    Mr. Negroponte. And that is an area of diplomatic effort 
that we want to continue, Senator.
    Senator Kohl. Secretary Gates, again, there's a perception 
that we're involved in an open-ended commitment--military 
commitment in Iraq. General Petraeus said that we would 
continue what we are doing now into next spring, and, if things 
don't improve, then we may have to continue to do what we're 
doing, militarily.
    Now, to many people, that represents a sort of a blank 
check. Aren't we saying, or couldn't we be interpreted as 
saying, that we will be there indefinitely, putting our troops 
in the crossfire of a sectarian civil war until, at some point, 
the Iraqis decide to put their guns down? And, if it's--if that 
is something like the road that we're walking down, it appears 
that we've lost control of the situation and we're just being 
pulled along by what is going on with respect to the sectarian 
differences in Iraq, with no end in sight.

                          WITHDRAWAL FROM IRAQ

    Secretary Gates. Well, Senator, I think that first of all, 
we've already not replaced the marine expeditionary unit that 
was in Anbar. We will begin pulling down a brigade about every 
45 days, or thereabouts, as General Petraeus's planned, through 
July. He stated, when he testified up here, that it was his 
expectation that the drawdowns would continue after July, 
although the pace might be determined by what was going on--
would be determined, to a considerable extent, by what was 
going on, on the ground. I think he would not have made these 
recommendations, and recommendations would not have been 
supported by the senior military leadership, if it were not 
their expectation that events would continue to move in the 
direction that they've been moving in the last 3 months or so, 
in a positive direction.
    The truth of the matter is, some of the positive things 
that are happening in Iraq are things we didn't anticipate. The 
turn in Anbar by the sheiks, who saw where al Qaeda basically 
overplayed their hand and killed too many Sunnis, and the 
sheiks also saw them competing for power and economic control, 
and came together against al Qaeda--that has created some of 
the opportunities there. The same thing may be happening in the 
Shi'a area, because the Jaish al-Mahdi has overplayed their 
hand by killing two governors, and so on.
    So, I think that--I mean, the path that we're on is a path 
toward drawing down the number of U.S. forces and the beginning 
of a transition in mission to a very different kind of role for 
the United States. I think the real issue that most of us have, 
the debate, is about the pace of those drawdowns.
    Senator Kohl. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    And thank you to all of you for coming here today.
    And I especially want to take a moment, General Pace, to 
thank you for your service to our country. I have always 
appreciated your frankness when you testified before Congress, 
and I just wanted to tell you again how impressed I was when 
you came out to my State and talked to students at Vancouver, 
Washington, a much tougher audience than even here today. And I 
appreciated how well you handled those questions. And I wanted 
to tell you that. And I also wanted to thank you for all your 
work with me and others to make sure that those men and women 
who do serve our country are taken care of when they come home. 
And I wanted to take this opportunity today, as you retire, to 
thank you for that.
    General Pace. Thank you, Senator.
    Senator Murray. And, Secretary Gates, you, as well, for 
your honesty and frankness in working with us. I appreciate it.
    Secretary Gates, let me begin with you. When--in--when you 
appeared before us in May, you told me that you had made it 
clear to members of the Iraqi Parliament that, ``We are buying 
them time for political reconciliation,'' and that, ``Every day 
we buy them, we buy with American blood.'' I want to thank you 
for raising awareness of the urgency for national political 
reconciliation.
    Now, as you know, a number of reports over the past month 
have actually shed light on the best estimates for Iraq's 
future. The NIE estimate of August said that the Iraqi 
government will become more precarious over the next 6 to 12 
months. The report on the Iraqi security forces that was 
compiled by the independent team of retired military officials, 
led by General James Jones, said, ``Iraqi security forces will 
be unable to fulfill their essential security responses 
independently over the next 12 to 18 months.'' And, of course, 
the GAO reported that the Iraqi government has met only 3 of 
their 18 political benchmarks.
    So, knowing all that, and with these nonpolitical 
assessments, I wanted to ask you, How much time are you truly 
willing to give the Iraqi government itself, as we are paying 
for it with our own soldiers and our own dollars here at home?

                            IRAQ ASSESSMENTS

    Secretary Gates. Senator, I think the message has been sent 
to the Iraqi government that our military presence is going to, 
has begun to, shrink in Iraq. And the expectation of the 
commander in the field is that it will continue to shrink.
    I would say--I was briefed twice by General Jones on his 
report before he came up here. I think that the panel did a 
great job. I think it's important to note that they were 
actually quite positive about the development of the Iraqi 
army, and particularly the training and recruiting, and the 
capability, the combat capabilities of them, and their 
willingness to fight once they're in the field. His biggest 
concerns about their being able to operate independently were 
focused more on their logistics shortcomings and communications 
and things like that, which are areas where we would presumably 
continue to help them, even if we had a----
    Senator Murray. As far as the----
    Secretary Gates [continuing]. Smaller footprint.
    Senator Murray [continuing]. Military. But what all the 
reports had in common was a concern about when and how and if 
Iraq was going to be able to stand up on its own, politically. 
And the question is, How long should our country be willing to 
stay there--indefinitely, years, decades--until they can have 
the political will to stand up on their own?
    Secretary Gates. Well, there clearly is, I think, no will 
in this country to stay there for--certainly--for decades--
while they're still trying to get their act together.
    My view is that the situation in Iraq is--I think we make a 
mistake in looking at Iraq as a single entity, in terms of how 
we think we're doing, because the reality is that there are 
some provinces where there are no coalition forces right now, 
and we have already gone to an over-the-horizon role with the 
Iraqis, and have, really, virtually no troops in those areas. 
There are some areas where the Iraqis are fighting hard, and we 
are beside them, and that's that middle area of partnering, 
that General Petraeus talked about, where we are beginning to 
draw back, and the Iraqis are beginning to take more of a lead. 
And then there are the areas around Baghdad, where we're 
carrying most of the load and most of the fighting. So, the 
events are developing in different parts of Iraq at a different 
stage, and it is, I think, General Petraeus' belief--and 
Ambassador Crocker's--that, as they see these different areas 
turn over--the provinces turned over to Iraqi control, which is 
likely to happen in Basrah in the south later this fall, that 
those are the areas where they will first begin withdrawing 
U.S. troops. So, the idea is that things are getting better, or 
changing, province by province, and that's what will allow the 
continued drawdown.
    Senator Murray. And I'm sure you understand our dilemma, 
that we are being asked to come up with an additional some $200 
billion for next year's budget, off budget, and the expected 
$42.3 billion amendment is twice what we are being asked to cut 
our domestic spending and--as we try to make sure that we have 
roads and bridges and highways and education and research and 
economic development here in this country. It's disconcerting 
to many of us. I know you understand that.
    But, in my remaining 1 minute, I did want to ask you about 
a subject I know you care about as much as I do. After the 
Walter Reed scandal, we saw the need to better--have better 
care management for our troops to get them through their 
initial injury, through their recovery. And I understand that 
the Army has developed a new organizational structure, called 
the Warrior Transition Unit, to look at these case management 
problems. And I really want to commend the Army for taking on 
that initiative. But, as you also may know, the Government 
Accountability Office (GAO) released a report today on overall 
efforts to improve healthcare and disability evaluations for 
service members, and they found that over one-half of the 
Army's Warrior Transition Units have severe staffing shortages. 
Can you share with us why, so long after case management has 
been identified as a problem--we all saw what happened at 
Walter Reed--why are we still facing staffing in those critical 
positions?
    Secretary Gates. I don't know the answer. I have not seen 
the GAO report. But I will certainly look into it and get you 
an answer.
    [The information follows:]

    In our opinion, the GAO testimony does not convey the 
breadth and depth of the superb efforts accomplished on behalf 
of Warriors in Transition and their Families. The Warrior 
Transition Unit (or WTU) is a fundamental transformation of how 
the Army cares for its wounded, injured, and ill Soldiers. The 
WTU is a patient centered organization. Though WTUs were not 
100 percent manned at the time of the GAO review, the Army is 
conducting a systematic approach to building this 
transformational capability in a way that does not overwhelm 
Army capabilities before it gets a chance to succeed.
    To underscore this point, at the time of the GAO's 
investigation, the majority of the Army's 35 Warrior Transition 
Units' critical ``triad'' positions of Primary Care Manager, 
Nurse Case Manager, and Squad Leader were manned (assigned plus 
attached personnel) above the Army Medical Action Plan's (AMAP) 
September 4, 2007 Initial Operational Capability goal of 50 
percent fill. Currently, Primary Care Managers are staffed at 
or above this level at 33 of the 35 locations, Nurse Case 
Managers meet or exceed this level at 32 of the 35 locations, 
and Squad Leaders are staffed at or above this level at 26 of 
the 35 WTUs. Additionally, WTU Platoon Sergeants are staffed at 
or above the 50 percent threshold at 31 of 35 WTUs, and Medical 
Evaluation Board physicians were on target at all 35 locations. 
Based on these fill rates, I am confident that the Army will 
attain Full Operational Capability not later than January 1, 
2008.

          STAFFING SHORTAGES FOR ARMY WARRIOR TRANSITION UNITS

    Senator Murray. Do you have the funding you need for that?
    Secretary Gates. As far as I know, ma'am.
    Senator Murray. Well, I would like an answer back for 
this----
    Secretary Gates. Sure.
    Senator Murray [continuing]. This committee, because it is 
disheartening to hear, 8 months into this, that staffing 
shortages are critically hurting our ability to make sure that 
our soldiers do get the care and support as they try to get 
through these complex----
    Secretary Gates. Let me just ask Ms. Jonas if she has 
anything on that.
    Ms. Jonas. Senator, one thing that we do have in the 
request that is forthcoming to you in this amendment would be 
the--as the Secretary mentioned, the $500 million to improve 
care. In addition, the Army has asked for about $800 million 
for families--in support of families. So, that would be an 
important effort for us, sir.
    Secretary Gates. So, we'll get back to you on the wounded 
warrior units.
    [The information follows:]

    I believe the Army has done a remarkable job of filling 
positions where they did not exist before. Warrior Transition 
Units did not exist prior to June 15, 2007 (with the exception 
of Walter Reed, whose Warrior Transition Brigade was 
established on April 26, 2007). The Army Medical Action Plan's 
implementing tool, Department of the Army Execution Order 118-
07 (Healing Warriors), set out the following milestones: 
Establish Warrior Transition Units not later than June 15 (this 
was accomplished); reach Initial Operational Capability by 
September 4, 2007 (also accomplished); with the goal of 
achieving 100 percent manning (Full Operational Capability) by 
January 1, 2008. The Medical Senior Review Council receives 
monthly updates on the status of execution of the AMAP and this 
oversight will continue to see that Full Operational Capability 
is realized.
    Warrior Transition Units, Soldier Family Assistance Centers 
and the many initiatives that are part of the Army Medical 
Action Plan represent new requirements that need to be 
resourced to ensure that our brave men and women receive the 
care and support they so richly deserve.
    As Ms. Jonas mentioned, the Army submitted fiscal year 2008 
Supplemental requirements for the Army Medical Action Plan to 
the OSD Comptroller which were validated and submitted to OMB 
as part of the Department's fiscal year 2008 Supplemental 
request. The funding would provide the necessary resources to 
support the hiring of Nurse Case Managers and other staff 
required to support the Warrior Transition Units and Soldier 
Family Assistance Centers at all thirty-five locations across 
the Army.
    We look forward to the support of Congress to enable the 
Army to stay on track with this effort. We will continue to 
work with Congress and Army leadership to ensure this plan is 
fully resourced now and in the future to support this most 
important mission on behalf of our Warriors in Transition and 
their Families.

    Senator Murray. Thank you very much, Mr. Secretary.
    Chairman Byrd. Thank you, Senator.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you.
    General Pace, thank you, and best wishes to you as you 
return to civilian life.
    General Pace. Thank you, sir.
    Senator Dorgan. I am not going to inquire about a range of 
issues that have been asked, about the progress in Iraq and 
military issues and so on, but I want to just mention two 
things.
    One, I held a hearing, last Friday. Young man named Donald 
Vance testified. And you will not know of the case, but I'm 
going to send you a letter and ask that you look into it. Navy 
veteran. Went back to Iraq to work for a civilian contracting 
company in Iraq. Reported to the Federal Bureau of 
Investigation (FBI) and to military authorities of evidence he 
had accumulated of illegal gun sales, an accumulation of large 
stocks of weapons. And for that he was incarcerated for 97 
days, part of that time without an ability to see an attorney, 
no notice to his family. He's an American citizen, Navy 
veteran. Allowed--during the 97 days, harshly interrogated, 
sensory deprivation, loud music all the time, lights always on, 
in the cell by himself. He was released after 97 days, with no 
charges. They admitted he had done nothing wrong. And he was 
taken to the Baghdad airport and given a $20 bill and dropped 
off. And that is a frightening story, very frightening story. 
An American citizen can be treated like that by Americans? It 
needs a full investigation. I've asked the Inspector General to 
investigate, and I hope, upon receipt of my letter, Secretary 
Gates you, too, will investigate it.
    Secretary Gates. Absolutely.
    Senator Dorgan. Let me ask a--you know, you are coming 
today to ask for two sums of money, I believe--$145 billion 
that was requested in the President's budget, designated an 
emergency, and then a sum above that--how much above that?
    Secretary Gates. $42 billion, sir.
    Senator Dorgan. So, about $189 billion, roughly--$187 
billion. And this is--you know, indeed, is becoming habit-
forming. We meet once, twice a year, we are seeing a request 
for emergency funding. And I was--it's habit-forming, because 
we send soldiers to war, and we tell the American people to go 
shopping, and we just--this is going to be three-quarters of $1 
trillion we put right on top of the indebtedness. And there's 
no discussion anymore about, should somebody pay for any of 
this, even a penny of it?
    So, I looked, this morning, at, What is the definition of 
``emergency funding?'' We designate--the request here is to 
designate this as an emergency. There are four requirements; 
two of them it clearly meets, two it does not meet at all. 
``Sudden, quickly coming into being, and not building up over 
time.'' That clearly can't be the case here, because the $145 
billion was requested 10 months, so there's nothing sudden 
about that. ``Subject of''--paragraph 2--``unforeseen, 
unpredictable, unanticipated.'' Clearly that can't be the case. 
So, you know--and, in fact, the very law that exists with 
respect to this sets a point of order against anything that 
doesn't meet these four criteria. And clearly this doesn't meet 
two of them.
    Shouldn't there be some requirement, in your judgment, as 
you come and ask for large sums of money on behalf of the 
President, that the President requests, and we agree, to find a 
way to pay for part of this? Should the American people be 
asked to pay for a portion of this, even as our soldiers fight 
in a war that we require them to fight?
    Secretary Gates. I think that that's a judgment for the 
Congress to make, Senator.
    Senator Dorgan. What about a judgment for the President?
    Secretary Gates. And for the President.
    Senator Dorgan. The President has recommended that this be 
an emergency, as he has every single year, and it doesn't meet 
the requirements of an emergency. It is not sudden, not quickly 
coming into being, not building up over time, not unforeseen, 
not unpredictable, and not unanticipated. And I--the reason I 
make this point is, we're going to be here next year with 
exactly the same thing. And a portion of this $145 billion was 
requested in the President's budget request 10 or 11 months ago 
to this Congress. I will, this year, as we begin considering 
this, offer at least a few proposals to begin closing some tax 
loopholes to perhaps pay for a little of this. I suspect that 
it'll--they'll talk about blue slips and they'll be all kinds 
of reasons why not to do this. But it seems to me that if we 
are engaged in a war, our Nation should go to war. And the 
Nation really has not gone to war with the soldiers, not even 
to the point of wanting to pay for a penny of this--three-
quarters of $1 trillion added to the debt.
    Now, I understand that is a policy coming from the 
President's budget. It may not be a question that you can 
directly answer. But I want to raise it, because this is habit-
forming, and, frankly, it's a bad habit, for us to talk about 
nearly $200 billion, and, ``By the way, let's just declare it 
an emergency. That's not a problem, we'll just add it on top of 
the debt.'' I don't think that's good for this country. And I 
don't think the soldiers will appreciate fighting a war and 
coming back and being asked to pay for that which should have 
been paid for all along.
    Secretary Gates, you--you know, this is, in fact, an 
entirely new panel, because we've had the predecessors of the 
Joint Chiefs before, and Secretary and folks from the State 
Department. This just goes on year after year, and we have new 
faces. And I, frankly, appreciate your willingness to serve, 
all of you. These are tough times, difficult times. And the one 
thing I think all of us would want you to know, the American 
people to know, is, we want this country to succeed. No one 
wants us to fail, anywhere. We want us to succeed. And yet, the 
national intelligence estimate tells us this, the most 
significant threat to this country, and to our homeland, is al 
Qaeda; and it says al Qaeda and its leadership are 
reconstituting training bases, it says, in Pakistan, and, it 
says, they are in, ``secure,'' or ``safe haven,'' areas of 
northern Pakistan. I don't understand why, then, the major 
fight this country has against its most significant threat--
that is, the leadership of al Qaeda--is going door to door in 
Baghdad in the middle of sectarian violence or a civil war. Do 
you not think that the most significant threat, as the national 
intelligence estimate suggests, is the leadership of al Qaeda?

                                AL QAEDA

    Secretary Gates. Yes, sir, I do. And what is interesting 
is, again, as I indicated earlier, regardless of what the 
situation might have been in 2003, the fact is that Iraq has 
become a central front for al Qaeda, as has been acknowledged 
by both bin Laden and Zawahiri. So, I mean, we face them there 
in a fairly significant way, in addition to them being in those 
frontier areas of Pakistan.
    Senator Dorgan. So, the--your position is that the central 
front of the fight against terrorism is, in fact, in Iraq, at 
this point?
    Secretary Gates. No, I was saying that what the al Qaeda 
leadership has said is that Iraq is the central front in taking 
on the United States, at this point.
    Senator Dorgan. Well, we don't believe much in what al 
Qaeda says. I mean, the fact is, the leadership of al Qaeda is 
talking to us all the time, sending out videotapes and 
radiotapes--audiotapes. We believe very little of that. And it 
seems to me that our most significant mission, at some point, 
is to segue to the central fight against terrorism, and it 
doesn't seem to me that's in Baghdad; it seems to me that that 
is where our national intelligence estimate says it is. That 
is, the leadership of al Qaeda in a safe haven--and there ought 
not be one acre on this Earth that should be safe for the 
leadership of al Qaeda--reconstituting training camps and 
reconstituting the leadership of al Qaeda. They say that is the 
greatest threat to our homeland.
    So, again, let me say--look, I want our country to succeed, 
but I feel very strongly that we've got to eliminate the 
leadership of the greatest threat to our country, and that is 
not what we're now doing, in my judgment.
    I--let me thank all of you for being here today. I know 
it's a long day for you. But these are, as you know, important 
issues for our country.
    Thank you very much.
    Chairman Byrd. Thank you, Senator.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Gentlemen, and particularly General Pace, I want to add my 
thanks for your service to the country. You know, we've watched 
you, as Vice Chairman, as Chairman, certainly during the more 
difficult days of this country, and it's been hard times for 
you, and hard times for a lot of people. But I want you to know 
that I wish you very well, and I hope the retirement will be, 
really, a good one. So, thank you for your service.
    General Pace. Thank you, Senator.
    Senator Feinstein. Thank you.
    Secretary Gates, Senator Murray said that you've been a 
real straight-shooter with us, and that's true. I just want you 
to know that I have a lot of concern about this supplemental. 
If you go back and look at annual war funding, it's been a 
constant progression upward--2002, $34--$81 million, $91 
million, $107 million, $121 million, $173 million, and $189.3--
excuse me--billion now--at a time when most of us, I think, 
believe we should be ratcheting down our involvement in the 
country.
    Now, there are two theories out there. I've heard people 
say, throughout the Nation, ``Well, they're going to get us so 
deep in that, if there's a new administration, we can't get 
out.'' That's one theory. Another theory is that the war clouds 
are building with respect to Iran. And, of course, the 
supplemental would offer an opportunity to put equipment and 
troops and bases and that kind of thing in there for that. In 
addition, you've got a Congress that's split right down the 
middle. And it's a terrible split, because it's a visceral 
split.
    And this kind of funding appears to me, really, to mean 
that things aren't soon going to be over, that increasingly 
there is a commitment for a much more permanent stance, 
regardless of what is being said. And you, yourself, have said, 
``There will be a long-term presence in Iraq.''
    I am really very concerned, and I voted for every 
supplemental because I, like everyone else here, we want to 
fund our men and women, we want to see that they have the MRAPs 
and the vests and whatever is necessary. But I think a long-
term commitment is really something that is very questionable 
for many of us.
    Today, right now--and you've been, always, up front with 
us--how do you see this long-term presence? How does this 
supplemental fit in? What does it have to do with the rest of 
the Middle East?

                      LONG-TERM COMMITMENT TO IRAQ

    Secretary Gates. Well, I think that the--I mean, my view is 
that we have laid out an approach--General Petraeus has laid 
out an approach that will--assuming conditions continue to 
permit, as he seems to believe they will--that would permit a 
significant reduction--not just in the surge of--not in--not 
just bringing home the number of troops that were involved in 
the surge, but, beyond July, would continue us on a path toward 
a smaller presence.
    My own view is, when I speak of a long-term presence, I 
think of a very modest U.S. presence, with no permanent bases, 
where we can continue to go after al Qaeda, where we can 
continue to go after Iranians who are interfering inside Iraq, 
and where we can continue to help the Iraqi forces, in terms of 
training and equipping.
    I think that that force--my own view, we haven't--as 
General Pace indicated earlier, we really haven't done any 
detailed planning about what this would look like, but, in my 
head, we're looking at a force that is, in terms of combat 
brigades, a fourth or so of what we have now. So----
    Senator Feinstein. By when, Mr. Secretary?
    Secretary Gates. Well, this is--I mean, this is basically 
the conversation that I had with Senator Kohl, and that is, you 
know, we're at a point where the pacing of all of this is 
really what is at issue. And, quite frankly, my biggest worry 
is that, if we handle the end--regardless of how you think we 
got into this thing, if we handle this aspect of it, if we 
handle this next phase badly, then all bets are off, in terms 
of what our commitments or what our requirements may be in the 
long term in the region, and in terms of our--the view of other 
countries of our willingness to take on these kinds of issues, 
these kinds of problems. And so, I think it's very important 
that we handle this drawdown in a way that allows us to end up 
in a stronger position in Iraq, in terms of a more stable 
country, one that is an ally in the war on terror, and one that 
is a blockade to Iranian influence in the region, not a bridge.
    And so, I don't know what that timeline looks like. I just 
know what I think it ought to look like for a longer period of 
time. And I don't know whether we're talking 1\1/2\ or 2 years. 
I mean, one of the things about talking about the conditions on 
the ground is that there is the opportunity to accelerate, as 
well as to slow, the pace of the withdrawals, all dependent on 
what's going on, on the ground.
    Senator Feinstein. Let me ask you this question. Will any 
of this money, in any way, shape, or form, be used with respect 
to Iran?
    Secretary Gates. I would have to get back to you on that. I 
think--the quick answer that I would give you is no. But, in 
terms of whether we are going to use some this money to carry 
out operations against the Quds force in Iraq, or Iranian 
interference inside Iraq, I don't know a specific answer to 
that. But I will tell you that I--and I will give you an answer 
for the record--that I don't see any of this money being used--
--
    [The information follows:]

    The Department of Defense has no funds in the Global War on 
Terror request to be used with respect to Iran.

    Senator Feinstein. What does----
    Secretary Gates [continuing]. In terms of preparing a 
military action in Iran.
    Senator Feinstein. What does ``outside Iraq'' mean, 
specifically? You said ``outside of Iraq''--whether any of this 
money is going to be used outside of Iraq. What exactly do you 
mean?
    Secretary Gates. I think I meant--well, what I meant to 
say--I may have misstated--is, I don't think any of this money 
is going to be used outside of Iraq.
    Chairman Byrd. Senator Durbin.
    Senator Feinstein. Thank you.
    Thank you.
    Secretary Gates. I'm sorry, I--General Pace just corrected 
me--except for Afghanistan. There is money in here for 
Afghanistan.
    Senator Durbin. Thank you very much, Mr. Chairman.
    General Pace, let me join in thanking you for your great 
service to our country. When you were a plebe at Annapolis, I 
was across the river here at Georgetown, getting started in 
college. And you've certainly served our country well. So, 
thank you----
    General Pace. Thank you very much.
    Senator Durbin [continuing]. For everything.
    Secretary Gates and Secretary Negroponte, it's very clear, 
from the questions here, Blackwater is no longer an enigmatic 
operation. It is front and center. The Iraqis have expelled 
them, officially, and now we're starting to ask questions that 
probably should have been asked years ago. Who are they? What 
authority do they have? How many of them are they? How much do 
we pay' em? How many incidents have we been through? Has anyone 
prosecuted them for their wrongdoing? Who's in charge? Who 
monitors incidents involving the use of firearms? Who monitors 
whether or not they are shooting civilians? Who investigates 
those shootings? Who monitors their movements within the 
country of Iraq? Do you know the answers to those questions?
    Secretary Gates. Senator, I'll--I'll turn it over to 
Ambassador Negroponte, but let me just tell you that that 
sounds very much like the list of questions that I've been 
asking over the past few weeks.
    Senator Durbin. May I suggest that--we're in the fifth year 
of this war, and I think they have been there from the earliest 
part of it. And I respect you very much, and voted for your 
confirmation, and I respect your service. It would seem that 
that would have been a question asked long before this 
incident.
    Mr. Ambassador.
    Mr. Negroponte. Yeah. I think I have some of the answers to 
those questions. But let me say two things.
    First of all, Senator, I have a statement on Blackwater 
that I had prepared in conjunction with this--in preparation 
for this hearing.
    I'd like to introduce that for the record, if I may, Mr. 
Chairman.
    Chairman Byrd. Without objection, it is so ordered.
    [The information follows:]

    Thank you, Chairman, for that question. Something went 
tragically wrong on September 16 and we are taking steps to 
address the matter.
    First, Ambassador Crocker's team is taking a hard look at 
what transpired and is conducting a thorough internal 
investigation to get at the facts to the greatest extent 
possible.
    Second, following direct contacts between Secretary Rice 
and Prime Minister Maliki, our Embassy in Baghdad and the Prime 
Minister's office have established a joint Government of Iraq 
and United States Government Commission of Inquiry to examine 
issues of security and safety related to USG-affiliated 
Personal Security Detail operations, including the effect of 
CPA Order 17 (revised) on such operations, and to make policy 
recommendations.
    And third, the Secretary has directed Patrick Kennedy, an 
extremely capable and senior Department management officer, to 
carry out a full and complete review of security practices for 
our diplomats in Iraq. His review will address the question of 
how we are providing this security to our employees, taking 
into account rules of engagement and standards of conduct for 
the persons providing the security. Our diplomatic security 
bureau is dispatching additional personnel to Baghdad to 
increase the number of Regional Security Officers moving with 
Blackwater teams.
    The security firms we use to support our Iraq Mission 
operations must meet strict Diplomatic Security-mandated 
standards that address required experience, strict vetting of 
personnel, and specified pre-deployment training. We also 
provide close in-country supervision and require that personnel 
follow the mission's policies on use of force. In many cases 
the individuals hired by these security firms are veterans who 
served honorably in America's armed forces.
    Security personnel must follow stringent procedures aimed 
at avoiding the use of force, for which they are extensively 
trained and on which they are briefed before each mission. From 
January 1 to September 18, 2007, Blackwater conducted 1,873 
missions in which protective security details or PSDs escorted 
American diplomats or visitors to locations outside the 
International, or Green, Zone in Baghdad. In only 56 of those 
missions have PSD members had cause to use their weapons, and 
each such incident is reviewed by management officials to 
ensure that procedures were followed.
    I personally was grateful for the presence of my Blackwater 
security detail, largely comprised of ex-Special Forces and 
other military, when I served as Ambassador to Iraq. Their 
alert and controlled posture kept me safe--to get my job done.
    I have a great deal of respect for their work. Without the 
dedicated service of our PSDs and their willingness to expose 
themselves to the risks that they do, the civilians of the 
Department of State would not be able to carry out our critical 
responsibilities in places like Iraq and Afghanistan. Yet I 
think there is broad agreement that we need to be there to help 
win the peace.
    With the multiple inquiries that are underway, we expect to 
be in a better position to judge the adequacy of our efforts 
and what changes may be needed in the very near future.

    Mr. Negroponte. Just to answer a few of your questions. You 
asked me--speaking now with respect to the members of 
Blackwater who provide security for the American mission--
American Embassy personnel, people who are under the authority 
of Ambassador Crocker----
    Senator Durbin. Which I understand to be under different 
rules than those working for the Department of Defense. Is that 
correct?

                 RULES FOR PRIVATE SECURITY CONTRACTORS

    Mr. Negroponte. I don't know about the Department of 
Defense rules, but that could well be correct. I doubt they 
would be very divergent.
    But, in any case, there's 1,270 of them, overall--
contractors--who provide security for our people in Iraq; and, 
of those 1,270, 842 are from Blackwater.
    I might just mention a few things. We were talking, 
earlier, about their qualifications. Every one of these 
people--it requires at least 1-year experience in protective 
security assignments--that's to say, the kind of assignments 
you would get in the Diplomatic Security Service, the Secret 
Service, the special forces, or the FBI--or 1-year experience 
in law enforcement. So, these are not people who are not 
properly prepared for their assignments. They have 164 hours of 
instruction.
    Senator Durbin. Mr. Ambassador, I'm sorry to interrupt you, 
but I only have a few minutes.
    Mr. Negroponte. No, I understand, but I just wanted to----
    Senator Durbin. I'd like to read your statement for the 
record.
    Mr. Negroponte. Okay.
    Senator Durbin. And--so I understand it--and I will 
concede, having met many of them, having been protected by many 
of them when I visited Iraq, they are, in fact, experienced in 
security. There's no question in my mind. I want to know the 
rules they play by, and who they answer to, and whether they 
are above the law--certainly they are in Iraq, at this point--
and whether they're above our law, at some point.
    In December 2007, if I'm not--2006--an intoxicated member 
of Blackwater shot and killed a body guard of the Vice 
President of Iraq. He was removed from service, sent back to 
the United States. No action has been taken against him, as I 
understand it. Maybe you could correct me on that if I'm wrong.
    Mr. Negroponte. But it is the case to which I was referring 
earlier which is under investigation----
    Senator Durbin. Well, I----
    Mr. Negroponte [continuing]. By the Justice Department.
    Senator Durbin. I would hope so.
    I mean, I've asked Senator Inouye for a separate hearing on 
Blackwater and the security contractors. It is time for us to 
lift the lid and look inside. I think there are some terrible 
things that have occurred, next to so many--very many honorable 
and courageous things that have occurred in the conduct of 
these security contractors.
    Mr. Secretary, it is my opinion--and I just--don't suggest 
it's anyone else's in the world--that it is the intention of 
this administration to leave office with this war in Iraq just 
about the way we see it today. It is the President's intention, 
on January 20, 2009, to leave and to hand this over to whomever 
his successor should be. I take a look at what he will leave 
behind: what I consider to be the worst foreign policy mistake 
in our history, a nation which we have aspirations for, that 
are far beyond reality, in terms of self-governance and self-
defense, but also a military that has been severely weakened by 
this war and our decisions to go to war.
    As Secretary of Defense, this has to be personal to you, 
because that is what will be the case when you leave office. 
People will judge, Where is the--what is the status of 
America's military today? Are they still well skilled, well 
trained, and courageous? Of course. But do they have the 
highest divorce rates that they've had in years among enlisted 
men, twice what they were in 2001? The highest divorce rates 
among the officers, three times what they were in 2001? Do we 
have the highest suicide rates among our military that we've 
had since records have been kept, since 1981? Do we have a 
situation where these military are returning, many of them 
after multiple deployments, facing post-traumatic stress 
disorder and the need for counseling? Are we offering cash 
incentives unheard of in the history of the United States to 
recruit young men and women into service--$10,000 cash for 
those who will show up in a matter of months, and twice that 
amount if they'll show up in a matter of weeks? Are we in the 
situation where--we have to be very honest--we've used security 
contractors because we can't recruit them fast enough for this 
war? We know what the status is of equipment for the National 
Guard and regular Army, it's been severely depleted by this 
war, despite the billions of dollars that we have given this 
President. As you will project, a year from now, can you say 
that our military will be as strong or stronger than it is, 
when this President leaves office?
    Secretary Gates. I think that the measures that have been 
put in place to reconstitute and reset the force, to expand the 
size of the Army and the Marine Corps--the Army is planning to 
try to accelerate its growth beyond the 5-year program, and--
shorter than the 5-year program--to try and alleviate some of 
these concerns. Clearly, bringing the combat brigades out of 
Iraq is going to begin to provide some relief to these troops. 
So, all I can tell you, Senator Durbin, is that we are in the 
middle of a terrible war, and it is my hope that we have plans 
in motion, both in terms of the force and in terms of where 
we're headed in Iraq, that we will be in a better place a year 
from now than we are now, in terms of our force.
    Senator Durbin. I would hope that it would go beyond hope. 
I sincerely believe it should be part of our plan. And I will 
tell you, as I mentioned to you once before, as I visited a 
patrol base south of Baghdad in the first week of August, and 
had an officer come to me and say what Jim Webb has been saying 
on the floor over and over again, ``15-month deployments are 
too long.'' These are young men and women with families. 
Separating them for this period of time, and giving them but 12 
months between deployments is--it cannot be good for morale, 
and it certainly isn't good for the psychological health of the 
men and women who serve. And I know the President has no 
recourse, as long as he wants to maintain this level of combat 
commitment. And I think it is a mistake. I think we are 
weakening the greatest warriors in the world, and I think that 
has to be part of our calculation about our future.
    Thank you very much.
    Chairman Byrd. Thank you. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Secretary Gates, in your written statement, with respect to 
the second adjustment, you indicate that $6 billion is 
requested to support Army and Marine Corps formations currently 
in Iraq through fiscal year 2008, taking into account the 
President's announced intention to redeploy five Army brigade 
combat teams by next summer. My quick calculation suggests 
that's roughly 15,000 troops, about 3,000 persons per brigade. 
That leaves an additional 15,000 troops that were sent during 
the surge. And my understanding is--and unless you want to 
extend deployment to beyond 15 months, those 15,000 additional 
troops are going to have to come out sometime in 2008. So, just 
for the record, are you assuming that that additional 15,000 
troops are in or out?

                          WITHDRAWAL FROM IRAQ

    Secretary Gates. Senator, we are calculating that the five 
combat--brigade combat teams that would be coming out would 
total about 21,500 troops. You then have about 4,000--about 
8,000 enablers who were sent in with the surge brigades. 
Because those surge brigades and where they are having the 
combat is not where we're going to be drawing down. I think 
General Petraeus testified up here that some number of those 
8,000 enablers--the rotary wing support and so on--would be 
remaining in the fight. So, I think he was purposely vague, in 
terms of how many of the combat support troops would come out, 
but the--we are anticipating 21,500 of the--these--of the 
combat brigades would come out.
    Senator Reed. So--two points--roughly speaking, if you 
count combat support and service support, you're close to 
30,000 troops, which was the surge element.
    Secretary Gates. Yes, sir.
    Senator Reed. And, second, you continue to respect the 
limit of 15-months maximum tour.
    Secretary Gates. Yes, sir.
    Senator Reed. And that's not going to change.
    Secretary Gates. No, sir.
    Senator Reed. And none of your budget calculations suggest 
that will change at all.
    Secretary Gates. No, sir.
    Senator Reed. Okay.
    Moving to another part of your testimony, where you--you 
talked about section 1206 and 1207 funding--and I think Senator 
Inouye covered this also--you're authorized $300 million in 
1206, and you've received, I believe, $300 million. 1207, is 
the $200 million authorization, and that also is appropriated 
$200 million. And you're asking now for an additional $200 
million in 1206. As I understand these funds, they're not 
entirely fungible, but they represent similar efforts. 1206 is 
DOD stability train and equip. 1207 is money that you give to 
the State Department to do very similar things. Can't you use 
both these accounts, rather than getting an additional $200 
million?
    Secretary Gates. I don't know the answer to that.
    Ms. Jonas, can you----
    Ms. Jonas. Sir, we can certainly take a look at that 
option. We can talk with the policy folks to do that. But the 
request of the combatant commanders, particularly for the 1206, 
was a little bit broader, so it really is coming from them.
    Senator Reed. Secretary Negroponte, is this the case, that 
there is money that DOD has that's not getting to State, that 
you spend? I mean, are we talking about some money that is held 
up someplace that's--that they--you don't get the money, so you 
don't spend it, so the Army--the military commanders coming 
back and give us that $200 million in another account?
    Mr. Negroponte. I'm afraid I don't know the answer to--I'll 
have to supply that----
    Senator Reed. I would appreciate----
    Mr. Negroponte [continuing]. Senator. Yes.
    Senator Reed [continuing]. A follow-up on this. We----
    Mr. Negroponte. Yes.
    [The information follows:]

    PM Acting A/S Mull also briefed on 1206 and Senator Reed received 
Amb Herbst's briefing with DOD before SASC. The below paper was 
prepared. I don't know if any of this was delivered in the call or 
addressed in briefings.
                     sections 1206 and 1207 update

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal Year--
                                                                 -----------------------------------------------
                             Account                                   2006                            2007
                                                                    Authorized      2006 Actual     Authorized
----------------------------------------------------------------------------------------------------------------
Section 1206 \1\................................................         200,000         120,000         300,000
Section 1207 \1\................................................         100,000          10,000         100,000
----------------------------------------------------------------------------------------------------------------
\1\ Sections 1206 and 1207 are authorized in the National Defense Authorization Act and are not State funds.

Facts and Highlights
    Authorized in the National Defense Authorization Act, Sections 1206 
and 1207 are proving to be solid examples of strong State-Defense 
cooperation in meeting emerging needs and addressing urgent threats 
worldwide.
    Section 1206.--In fiscal year 2006, Section 1206 programs supported 
the critical development of partners' military capabilities to address 
counterterrorism threats, from Lebanon to Africa and from the Western 
Hemisphere to Southeast Asia. In fiscal year 2007, we are working with 
Defense to evaluate Embassy and Combatant Command proposals, and aim to 
consult with Congress shortly.
    Section 1207.--In fiscal year 2006, the State Department used $10 
million in Section 1207 funds to support emerging requirements in 
Lebanon. In fiscal year 2007, $20 million has been approved by Defense 
to address stabilization issues in Haiti. We are working with the 
interagency to develop and evaluate other proposals for the remaining 
fiscal year 2007 funds.
    (IF ASKED) Strongly agree that Ambassadors should be fully involved 
in program development and implementation. We have addressed concerns 
raised about a lack of embassy participation in Section 1206 programs 
through a series of cables and regular video-conferences with 
embassies.
Background
    Sections 1206 and 1207 of the fiscal year 2006 and 2007 National 
Defense Authorization authorize the use of Defense funding to conduct 
traditional State Department activities. Section 1206 authorizes train 
and equip programs, with the joint concurrence of the Secretaries of 
State and Defense, to build the capacity of foreign military forces in 
order for that country to conduct counterterrorist operations or 
participate in or support military and stability operations in which 
the U.S. Armed Forces are a participant. Of the $200 million authorized 
in fiscal year 2006, $120 million was approved (Thailand's program is 
on hold due to coup restrictions); in fiscal year 2007, $300 million is 
authorized, 75 proposals totaling $780 million have been received, and 
evaluation is pending. At the request of Senator Lugar in Fall 2006, 
GAO completed an informal review of the Section 1206 program, 
concluding that while coordination between COCOMs and Embassies appears 
to have improved in fiscal year 2007, significant gaps still exist.
    Section 1207 authorized the transfer of up to $100 million in both 
fiscal year 2006 and 2007 from the Defense Department to State, to 
facilitate stabilization and reconstruction activities. In fiscal year 
2006, $10 million of the authority was used in Lebanon in the aftermath 
of the conflict between Hezbollah and Israel. On January 9, Secretary 
Gates approved a proposal to fund an integrated program in Haiti to 
counter the instability, unrest and violence stemming from gang control 
concentrated in the capital's biggest hot spot (Cite Soleil). The Hill 
has expressed some frustration that only $10 million of the possible 
$100 million authority was used in fiscal year 2006. We have assured 
them that planning for fiscal year 2007 initiatives is well-underway, 
and the Department has put in place a process and guidelines for 
reviewing and submitting future 1207 proposals for fiscal year 2007.

    Senator Reed. Mr. Secretary--or Secretary Gates, I was 
listening to your testimony, and, frankly, you inspire, I 
think, great confidence in your judgment and your dedication, 
amongst all of us--but as I listened to you, you're talking 
about an emerging policy which begins a drawdown--the five 
brigades we've just talked about--that transition missions to 
counterterrorism, border protection, and training, that will 
result--one hopes, at least your hopes expressed today--in a 
further reduction of forces, a continuous reduction. It sounds 
very much like the policy that Senator Levin and I and others 
have been trying to advance in the Congress. Why won't the 
President accept that policy, if it seems to be--to conform to 
what you believe?
    Secretary Gates. I think part of the issue has been, 
principally, the binding nature of the timeline, as I 
understand it.
    Senator Reed. Well, then if we were to propose an approach 
that had no--not a binding endpoint--as I understand, the--I 
think I understand our proposal--but the first proposal was to 
begin a reduction this year, which is now a fait accompli, 
based on General Petraeus's report. And a second element is to 
begin a transition, which you've talked about. It's probably in 
the works already. The third point is completing that 
transition, which--is that the point of dispute that you sense 
between the President----
    Secretary Gates. I think so. I have not had a specific 
conversation with the President about this, but I think that 
the principal concern has been the binding nature of the end 
date and the timetable.
    Senator Reed. Well, I would--I think it would behoove all 
of us to have that conversation, that--that is a policy that, 
in my view, has a much, I think, larger probability of, not 
only success, but being supported by the American public. As 
you all--as you've pointed out, and it resonates in all the 
comments, the long-term sustainability of this--whatever 
proposal--unless we change it--by the American public, is 
doubtful. I mean, the numbers are there. They haven't changed. 
General Petraeus' report hasn't changed any minds of the 
public. And I think it's about time we start talking about a 
policy that will--that we're talking about, but the President 
should talk about, rather than this ``return on success'' 
sloganeering. But I'll stop right there.
    I just--General Pace, there was an article in Newsweek on 
September 10 that says that a report prepared by a Pentagon 
working group that differs substantially from General Petraeus' 
recommendations. The article also states, ``An early version of 
the report, which is currently being drafted and is expected to 
be completed by the beginning of next year, will recommend a 
very rapid reduction of American forces, as much as two-thirds 
of the existing force very quickly, while keeping the remainder 
there.''
    Is this report accurate? Is there another report that's 
been prepared and circulating and could be publicized and 
adopted in the near term?

                        GLOBAL RESPONSIBILITIES

    General Pace. I'm not aware of it, sir. I can tell you what 
I do know, and that is that we started, about, oh, 2 months 
ago, purposefully, independently, with General Petraeus doing 
his work, Admiral Fallon doing his, and the Chiefs doing ours--
then, about 3 weeks before the President spoke publicly, we 
eight senior officers shared our thoughts with each other about 
where we were, where we were going, how we were going to get 
there. We were very much in the same grid square, so to speak, 
with regard to what we thought was appropriate to make 
recommendations to the President. Not surprisingly, General 
Petraeus being responsible for Iraq, Admiral Fallon being 
responsible for the region, and the Chiefs being responsible 
for global responsibilities, had a little bit different flavor 
as we looked at the raw data.
    At the end of the day, we were unanimous, individually and 
collectively, to go forward to the President with what has been 
dubbed ``The Petraeus Report,'' but could just as easily be 
said ``The Pace Report,'' or ``The Cartwright Report,'' or 
whatever the other Chief's name you want to put on it. So, we 
have gone through--and, in the process of getting there, we did 
look at about--we looked at nine separate courses of action: 
going to the borders, et cetera, et cetera. So, it's possible 
that one of those nine courses of action that we tossed out is 
the basis for this rumor, but there is no report inside the 
Pentagon that has any gravity at all to it, that was not 
presented to the President when we--he asked for it.
    Senator Reed. Is it fair to say this option was seriously 
considered?
    General Pace. Could you repeat the option again, sir?
    Senator Reed. The option of a rapid drawdown of the forces 
in the near term----
    General Pace. It was. Yes, sir, the--both plussing up, on 
one end----
    Senator Reed. Right.
    General Pace [continuing]. And rapid drawdown, on the 
other; and six or seven in between.
    Senator Reed. Let me conclude by saying--I understand, 
General Pace, that, on your last trip to Iraq you had the 
opportunity to visit Gulf Company 2nd Battalion 5th Marines.
    General Pace. I did, sir.
    Senator Reed. And I also understand that, as a lieutenant, 
you commanded a platoon in Vietnam with that unit.
    General Pace. I did, sir.
    Senator Reed. I think that is a full circle on an honorable 
career with great fidelity to the Nation and to the Marine 
Corps, and I thank you, sir.
    General Pace. Thank you very much, Senator.
    Chairman Byrd. Thank you, Senator.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    And let me begin by saying, to General Pace, thank you for 
your service, or your many courtesies. I remember our first 
trip to Colombia, South America, and the many times that we've 
enjoyed the same opportunities to be together. And I hope that, 
as you retire, you still send your--will continue to send the 
little handwritten notes to me. I appreciate it very much. I 
would miss them if I didn't get them. So, thank you----
    General Pace. Thank you, sir.
    Senator Nelson [continuing]. For the courtesies.
    General Pace. Yes, sir. Thank you.
    Senator Nelson. Mr. Secretary Negroponte, as you know, 
Congress enacted language requiring the reporting on benchmarks 
that originated with the President and Prime Minister Maliki, 
to some degree or other, and some of which really were part of 
the Iraq Study Group Report. All the reports to date indicate, 
on the most important benchmarks relating to reconciliation, 
little to no progress.
    I've been visiting with--I've visited with Prime Minister 
Maliki twice this year in Baghdad. I've related to him my 
concerns about the failure to meet the benchmarks, and the 
importance of the benchmarks, indicating that the will of the 
American people is very strong, but, when it comes to a lack of 
progress on the part of the Maliki government, the patience is 
growing thin.
    I didn't detect a lack of interest in the benchmarks, but I 
didn't detect a strong interest in seeing them fulfilled, or 
any awareness of the impatience--growing impatience in the 
United States. I'm certain there's some difference between his 
thoughts about that which is essentially timely and ours. But, 
in light of the failure, now, of the Iraqi government to meet 
those benchmarks to any significant extent, do we need to 
change the benchmarks? What can we do to expect to get a 
greater effort?
    I outlined to the Prime Minister that we were interested in 
three things. One is to know if there's a commitment; two, to 
determine what level of effort is underway; and, three any 
progress. Now, we understand you can be committed and you can 
put an effort in, and not get results, because of how difficult 
it may be. But are these benchmarks too much? Or is the bar set 
too high? Do we need to lower the bar? Do we need to lower 
expectations? Maybe you can enlighten me.

                            IRAQI BENCHMARKS

    Mr. Negroponte. You know--thank you, Senator--I think, 
speaking in general terms, that--I think that certainly the 
government of Iraq gets the message about the importance we 
attach to progress on this score. More importantly, I think 
they, themselves, know that, if there isn't effective progress 
toward national reconciliation, the level of violence is simply 
not going to subside. So, I think they're very much aware that 
it's in their interest.
    As you suggest, some of these things aren't always that 
easy. I'm not sure that I--just at first blush, I'm not sure I 
would think about changing the benchmarks, so much as just 
recognize that these things are difficult to achieve.
    I don't doubt their commitment to working toward them. Just 
to cite----
    Senator Nelson. What about their level----
    Mr. Negroponte [continuing]. One example----
    Senator Nelson [continuing]. Of effort? If you decide they 
have a commitment, what kind of a level of effort----
    Mr. Negroponte. Well, here are some examples of effort. I 
don't know how I would measure the intensity of that effort, 
but certainly there's constant dialogue between the various 
groups that are involved in this, whether it's Sunni, Shi'a, 
Kurd, or the various groups--the factions involved. So, I think 
that's an important factor.
    I can report to you that a de-Ba'athification law, which is 
something that had been listed as one of the benchmarks--
progress on de-Ba'athification issue--has apparently been 
submitted to their Council of Representatives. So, I think----
    Senator Nelson. And the reaction----
    Mr. Negroponte [continuing]. That's important.
    Senator Nelson [continuing]. The reaction to that, that 
we've picked up from conversations there from people who are on 
the ground who have some knowledge of this, is that they're 
still playing king of the hill, the Shi'as are in a situation--
winner takes all, and compromise is not ultimately one of the 
words.
    Mr. Negroponte. Let me mention another couple of examples.
    Senator Nelson. Okay.
    Mr. Negroponte. The fact that the Prime Minister went out 
to visit the Sunni areas----
    Senator Nelson. And I----
    Mr. Negroponte [continuing]. And he went out to----
    Senator Nelson [continuing]. Complimented him for that.
    Mr. Negroponte. I think that's very important. And I think 
it shows a certain attitude about wanting to move these issues 
forward. The fact that they've improved their budgetary 
execution and are spending more money in some of these Sunni 
provinces that--this is a basically Shi'a-controlled ministry 
of finance and government that is making sure that some of this 
money is getting out where it's needed in places like Fallujah, 
Mosul, and so forth. I was personally witness to that on one of 
my recent trips.
    So, yes, it's hard, but I don't think it's hopeless. I 
think that they're committed to accomplishing this, and I think 
it's indispensable to leading--to achieving a reduction in the 
levels of violence.
    Senator Nelson. Thank you.
    Secretary Gates, in terms of what my colleague Senator Reed 
was talking about in transitioning a mission to take into 
account reductions in force in Iraq, I've submitted a proposal 
with Senator Collins that I hope you would take a look at, and 
I hope my colleagues will look at, as well, and that is to 
recognize that reducing the troop strength in Baghdad, turning 
over more of that to the Iraqi government--I think about 8.2 
percent of the troop structure in Iraq, in Baghdad, is under 
the control of the Iraqi forces--that we could then concentrate 
on taking out the bad guys in the north with the Sunnis, and 
that is the al Qaeda, as we have in al Anbar--Anbaris have 
worked with us very closely, and progress has been made; also, 
transitioning the mission to the south, to quiet down the Shi'a 
militias. In the process of doing that, we should also 
establish--don't you believe?--the residual force, the force 
that we--in terms of the mission, that we believe will be 
there, perhaps not in the numbers, but as to what that mission 
is going to be: protecting the borders, also asset protection, 
as well as helping the government develop, and security 
training, move to establishing what the nature of the mission 
will be for residual force for some period of time. Maybe it's 
not 30 years. We certainly hope it's not. But for some period 
of time. If we get that in place, and we recondition--or 
reposition the combat forces, we have an opportunity, perhaps, 
to take out the bad guys in a more concentrated way, as--in 
both the north and the south. I wish you would give me your 
thoughts about that.
    Secretary Gates. I'd be happy to take a look at the 
legislation, Senator. I think that, in terms of the mission of 
the residual force, we clearly are going to have to negotiate 
aspects of that with the Iraqi government itself in any time--
any kind of long-term strategic agreement, but I think that 
it--that the mission of those forces is very close to what you 
just described.
    Well, and in that regard, there is no--there is no required 
drawdown of troops in this legislation, nor a hard date to 
achieve the mission by, the transition of the mission. It's--
the date that is used is March 31, 2008, and that comes from 
the Iraq Study Group. There's some suggestion that it may take 
9 months, as opposed to the equivalent of 6 months, and that is 
less significant than the fact that we begin immediately to 
begin to change and transition the mission.
    Secretary Gates. Yes, sir.
    Senator Nelson. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you.
    Senator Nelson. Thank you, gentlemen.
    Chairman Byrd. Secretary Gates, if circumstances were to 
warrant it, do you have contingency planning in place to 
redeploy the troops out of Iraq and back to the United States 
within 90 days? 120 days? 180 days? If not, why not?
    Secretary Gates. Mr. Chairman, since that planning is done 
by the Joint Staff, may I ask General Pace to address that 
question?
    Chairman Byrd. Okay.
    General Pace. Sir, right now the generic ability of the 
Nation is about one brigade per month, coming and going. So, 
without any other planning, if you were to say you want all 20 
brigades out, starting tomorrow, it would take 20 months to get 
them out. You could certainly move that faster by contracting 
more civilian ships and more civilian planes and the like. 
There are--U.S. Transportation Command, under General Schwartz, 
has been doing the planning to both increase and decrease 
forces, but we have not set particular dates on it, but, 
rather, capacity of the Nation to move things, either 
direction.
    Chairman Byrd. I thank the witnesses for your testimony.
    Again, I thank General Pace for your service----
    General Pace. Thank you, sir.
    Chairman Byrd [continuing]. To the Nation.
    I appreciate the patience of our witnesses when it became 
necessary to clear the room. We all believe in free speech, but 
it was necessary to restore order so that the committee could 
proceed in a disciplined manner.
    Again, I thank you for your candor and your frankness in 
responding to our questions.
    Senator Cochran, do you have any closing remarks?
    Senator Cochran. Mr. Chairman, I join you in thanking our 
witnesses. We appreciate your being here and the information 
you've shared with us, and, most of all, your contribution to 
protecting the security interests of the United States.

                     ADDITIONAL COMMITTEE QUESTIONS

    Secretary Gates. Mr. Chairman, Senator Cochran, as always, 
thank you for your courtesy today.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Robert Gates
             Question Submitted by Senator Patrick J. Leahy
                        national guard equipment
    Question. The funding unfortunately has barely made a dent in a 
Guard equipment deficit that we all agree reaches something well over 
$20 billion. It will take much more than $20 billion in new investment 
in National Guard equipment to bring Guard brigades and support 
battalions up to 100 percent of required levels. General Blum, Chief of 
the National Guard Bureau, noted last week that it will take $13 
billion above the current spending plan just to get to 90 percent of 
the necessary equipment levels in the Guard's units. He noted that many 
Guard units back home have only one-third of the trucks, radios, and 
other gear they need for emergencies.
    Question. Has the Department changed its budget plans at all since 
we added that additional funding? Doesn't the Department need Congress 
assistance in finding the additional funding above the equipment?
    Answer. No, the Army has not changed the amount of funded allocated 
to equip the Army National Guard. The NGREA funding provided by 
Congress was a welcome addition in the Army's effort to fund the Army 
National Guard equipment and reduces the overall ARNG shortfall to 
$23.5 billion. Reallocating additional funds from inside Army 
procurement lines to fully fund Army National Guard shortfalls would 
place at risk many of the Army's ongoing initiatives that benefit the 
total force. The Army's balanced approach to funding equipment across 
all three components increases the amount of time it takes to 
modernize, but reduces the risk to the operating force.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. How many companies has DOD contracted with to provide 
security in Iraq? In Afghanistan? How many people does each of these 
companies have employed in each country? How much is each contract 
worth and what is the duration of each?
    Answer.
Iraq
    The U.S. Central Command (USCENTCOM) provides information on a 
quarterly basis on the number of DOD-funded contractors and contractor 
personnel in the theater of operations in support of U.S. military 
forces in Iraq. The present manual report is of limited scope but is 
currently our most reliable source of information on the number of DOD 
contractor personnel working in Iraq and Afghanistan.
    According to the USCENTCOM July 2007 census data, the DOD in Iraq 
was supported by 16 different private security contractors (PSCs). A 
detailed list of DOD-funded companies providing security in Iraq is 
below. There are several contracts associated with each of the PSCs, 
each with different periods of performance. The table provides an 
estimate of the number of employees providing security on those 
contracts and an estimated cost of the contracts, where available. The 
dollar value provided is for the entire contract and does not delineate 
the cost for personnel providing security versus other support.

----------------------------------------------------------------------------------------------------------------
                                                                                    Est. Total    Approx. Dollar
                 Company Name                       Country of Registration          Employed         Amount
----------------------------------------------------------------------------------------------------------------
AEGIS Defense Services LTD...................  United Kingdom...................           1,035    $382,160,000
Ellis........................................  United States....................             361     157,271,000
EOD Technology Inc...........................  United States....................           1,825      20,937,000
ERSM (GUERNSEY) LIMITED......................  British Virgin Islands...........               4         598,800
FALCON COMPANY...............................  Iraq.............................             135         ( \1\ )
Global Sales, ADAR Logistics.................  United States....................              52         ( \1\ )
Global Strategies............................  United States....................              27         ( \1\ )
Innovative Technical Solutions...............  United States....................           1,198     291,114,000
Lakeshore Engineering Services...............  United States....................             106      21,453,000
Olive Group FZ LLC...........................  United Arab Emirates.............             229         ( \1\ )
Raymond Associates...........................  United States....................              31         824,000
SOC-SMG, Inc.................................  United States....................             335         ( \1\ )
Tetra Tech EC, Inc...........................  United States....................             394         ( \1\ )
TMG Iraq.....................................  United Kingdom...................              82         ( \1\ )
Triple Canopy................................  United States....................             106         797,134
URS..........................................  United States....................             448         ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Not available.

    Private security contractors perform personal, convoy, and static 
security missions. The DOD does not have a contract with Blackwater to 
provide support in Iraq, although the Department does have other 
contracts with Blackwater, primarily to provide training that takes 
place within the United States.
    The U.S. Army Corps of Engineers Gulf Region Division has contracts 
with Armor Group Services Ltd (registered in the United Kingdom) to 
provide security primarily for reconstruction projects. The USCENTCOM 
July 2007 quarterly census data does not reflect this information.
Afghanistan
    The USCENTCOM July 2007 quarterly census reports that there are 
approximately 1,060 private security contractors in Afghanistan. 
Specific contractors and numbers of employees associated with each 
contract were not provided in the census.
    Question. Is there an office within DOD that is responsible for the 
oversight of private security contractors? What is the procedure when a 
contractor fires a weapon? What is the procedure when a contractor 
shoots someone?
    Answer. Oversight is the responsibility of the DOD Contracting 
Officer and the Contracting Officer Representative for the specific 
contract.
    The Deputy Under Secretary of Defense (Logistics and Materiel 
Readiness) (DUSD (L&MR)) in the Office of the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD (AT&L)) 
established the Office of the Assistant Deputy Under Secretary of 
Defense for Program Support (ADUSD (PS)) and appointed the ADUSD (PS) 
to establish and oversee the program for managing contractor personnel 
in forward areas and to provide leadership in other areas to support 
more effective and efficient Geographic Combatant Commander (GCC) 
logistics and materiel readiness needs.
    DOD contractors armed by DOD authority must report any use of 
force, including the firing of a weapon. The requirement to report and 
the required information to be submitted are identified within the 
terms of the contract and in Multi-National Force--Iraq (MNF-I) 
Fragmentary Order (FRAGO) 06-310 (Civilian Arming). MNF-I FRAGO 05-231, 
Reporting and Investigating Incidents Involving Contractors Firing 
Weapons, requires that Multi-National Forces must report any use of 
force by a civilian armed under the requirements of this FRAGO to their 
chain of command.
    Question. Are private security contractors working for DOD liable 
under U.S. law for their actions in Iraq and Afghanistan? Are they 
liable under the UCMJ?
    Answer. Yes. Private security contractors working for the 
Department of Defense (DOD) are criminally liable under 18 U.S.C. 3261, 
the Military Extraterritorial Jurisdiction Act (MEJA), for their 
criminal actions in Iraq and Afghanistan. Additionally, under the 
Uniform Code of Military Justice (UCMJ), DOD contractors ``serving with 
or accompanying an armed force in the field'' during a declared war or 
a contingency operation, such as Operation Iraqi Freedom and Operation 
Enduring Freedom, are criminally liable under 10 U.S.C. 802(a)(10), 
also known as Article 2(a)(10), UCMJ, for acts occurring after October 
17, 2006.
    Question. What is the procedure if a private security contractor is 
suspected of having committed an unjustified or criminal shooting in 
Iraq or Afghanistan? Have any been investigated for this? Have any been 
prosecuted?
    Answer. If Multi-National Force--Iraq (MNF-I) observes a violation 
of Rules for Use of Force, exhibitions of criminal behavior, or conduct 
that threatens security, the forces are authorized to stop, search, 
seize weapons, and detain civilians armed under MNF-I FO 06-310 
(Civilian Arming).
    There are currently no known PSC personnel who have been convicted 
at this time.
    Question. What Rules of Engagement do private security contractors 
working for DOD operate under?
    Answer. The Combatant Commander has provided specific guidance on 
arming contractor personnel and private security contractors in the 
USCENTCOM Area of Responsibility (AOR) through a series of FRAGOs and 
other authoritative guidance, including the following:
  --Private security contractor personnel are not authorized to 
        participate in offensive operations and must comply with 
        specific USCENTCOM Rules for the Use of Force (RUF). Under RUF, 
        private security contractors are authorized to use deadly force 
        only when necessary in: self-defense, defense of facilities/
        persons as specified in their contract; prevention of life-
        threatening acts directed against civilians; or defense of 
        Coalition-approved property specified within their contract. 
        USCENTCOM issues to approved private security contractors a 
        weapons card authorizing them to carry a weapon. This weapons 
        card also contains the guidance for the RUF and the 
        contractor's signature acknowledging the difference between the 
        Rules for the Use of Force and the Rules of Engagement.
  --Private security contractors in Iraq must be properly licensed to 
        carry arms in accordance with host nation law and must receive 
        USCENTCOM/Coalition Forces' approval of their operations. 
        Coalition Provisional Authority (CPA) Order 17, Status of the 
        Coalition, Foreign Liaison Missions, Their Personnel and 
        Contractors (June 23, 2003) is still in effect. It addresses 
        private security contractors operating in Iraq and requires the 
        contractor's understanding of and compliance with all 
        applicable: United States, host nation, and third country 
        national laws; Treaties and international agreements; United 
        States regulations, directives, instructions, policies; and 
        Orders, Standing Operating Procedures, and policies issued by 
        the Combatant and/or Operational Commanders.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. The Associated Press reported that ``the Army's 38 
available combat units are deployed, just returning home or already 
tapped to go to Iraq, Afghanistan or elsewhere, leaving no fresh troops 
to replace five extra brigades that President Bush sent to Baghdad this 
year.''
    Should we be alarmed about the current level of preparedness of our 
armed forces in the event of a military crisis somewhere else in the 
world?
    Answer. The United States is a nation at war. The demands and 
challenges of continuing operations in Operation Iraqi Freedom, 
Operation Enduring Freedom, and other fronts in the Global War on 
Terror have increased the risks associated with executing the National 
Defense Strategy and the National Military Strategy. Our forces have 
adapted quickly.
    We have taken steps to ensure our forces remain ready to fight and 
win the Nation's wars. First, we are increasing our warfighting 
capabilities and effectiveness by increasing the size of our Army and 
Marine Corps. Second, we are optimizing how we use and resource our 
Reserve component forces to ensure these forces are ready when needed. 
Today, we are resetting our units to repair or replace worn out 
equipment, and keep our forces ready to deploy if, and when needed. 
These changes will improve our ability to respond and support 
operations worldwide.
    We are also addressing longer-term needs of the Department. We are 
adding capacity and modernizing our forces to keep our technological 
advantage. We are also transforming our processes, doctrine, and 
organizations to ensure we maintain a long-term focus and our forces 
are flexible, mobile, and able to deploy, fight, and win in all 
endeavors around the globe.
    We are a joint Force ready to succeed in every challenge, fully 
capable of meeting all objectives of the National Military Strategy.
    Question. By 2008, it is estimated that half of the New Jersey 
National Guard will be deployed to Iraq.
    Are you concerned about the effect that these National Guard 
deployments will have on New Jersey, and when can we expect the 
military to stop relying on the National Guard to sustain our presence 
in Iraq?
    Answer. There are 5,981 soldiers in the New Jersey Army National 
Guard. Under current plans, we estimate that on January 1, 2008, 21 
members of the New Jersey Army National Guard will be deployed in Iraq. 
This constitutes 0.3 percent of the New Jersey National Guard.
    The Air National Guard is an operational force and an integral part 
of the Air Force's combat capability. To fulfill its Air Expeditionary 
Force requirements it relies heavily on volunteerism. We do not believe 
the Air National Guard requirements through January 2008 will impose a 
significant burden on the New Jersey Air National Guard and we expect 
those requirements to remain consistent throughout 2008. The 177th 
Fighter Wing and the 108th Air Refueling Wing are not scheduled to 
deploy their aviation package in 2008. Through January 2008, the 177th 
Fighter Wing will have 22 personnel deployed and the 108th Air 
Refueling Wing will have 63 personnel deployed, or, approximately 3 
percent of their 2,300 Air National Guard members.
    I am always concerned about the effects that National Guard 
deployments have on the states. The Chief of the National Guard Bureau 
has committed to this Nation's governors that he will manage the 
selection of National Guard units to fulfill deployment requirements in 
such a way as to achieve the goal of having at least half of a state's 
National Guard forces at home and available to Governors for state 
emergencies. This has largely been achieved. Only in rare cases have 
deployments required more than half of a state's National Guard forces 
to be deployed overseas at one time. In those rare cases, we have 
worked with those states to help insure that National Guard forces and 
capability from other neighboring states are readily available under 
the Emergency Management Assistance Compact.
    The Department of Defense has no plans to ever stop relying upon 
the Reserve Components as an integral partner in the Nation's overall 
capability to defend its interests. America has a long tradition in 
which civilians may choose to participate in the defense of the Nation 
through membership in the National Guard and Reserves. The 
philosophical basis for the wisdom of this tradition was articulated by 
General Creighton Abram who, following the Vietnam War stated that 
America should never go to war without the inclusion and participation 
of its reserve components as such participation constitutes an 
expression and incorporation of the will of the American public to bear 
the burden of conflict. This tradition has been incorporated into the 
formal structure of the American military through the Total Force 
policy. To abandon this policy would be detrimental to the country in 
two ways. First, it would cut off hundreds of thousands of American 
civilians from their choice to participate in the Nation's defense 
through membership in the Reserve Components. Second, it would result 
in a tremendous loss of available manpower for Nation's military which 
could only be made up by dramatically increasing the size of the full-
time active duty forces. Such a change could be so prohibitively 
expensive that it might result in the reinstitution of the draft under 
which citizens are forced to serve. Faced with such a choice, it is 
clear that continued reliance on the participation by Nation Guard and 
Reserve members is and will continue to be the best course for the 
future defense of the Nation.
    Question. Do you agree with the Congressional Budget Office's $2 
trillion cost estimate for maintaining a Korea-like presence in Iraq 
over the next 50 years? Is the Defense Department planning to have such 
a long-term presence in Iraq?
    Answer. The Department of Defense does not have a detailed plan for 
a long-term presence in Iraq, so we do not have cost estimates to 
compare to the CBO's. As I stated previously, the United States is 
``pursuing a long-term strategic agreement with the Iraqis. The number 
of forces that would be included would be considered under that 
agreement. I can tell you that the number of troops would be a small 
fraction of those that are in the country today. And I think no one 
really knows what the duration of their presence there would be. It 
will depend both on the nature of the Iraqi government and on 
conditions in the region, what the Iranians are trying to do and others 
in the region. The purpose of that kind of a longer term presence, 
should it be agreed, would be, first of all, to continue the fight 
against Al Qaida in Iraq, to help prevent foreign intervention in Iraq, 
and to continue to train and equip the Iraqi forces.''
    Question. The Department of Defense fiscal year 2008 appropriations 
bill that was recently passed includes full funding for TRICARE, the 
military's health care program.
    Can you assure us that you will not increase enrollment and 
pharmacy co-payment fees on our military men and women, and military 
retirees, in 2008?
    Answer. Section 701 of the Fiscal Year 2008 National Defense 
Authorization Act (NDAA) extends a prohibition on Increases in Certain 
Health Care Costs for Members of the Uniformed Services through fiscal 
year 2008 and Section 702 establishes a Temporary Prohibition on 
Increase in Copayments under the Retail Pharmacy System of the Pharmacy 
Benefits Program through fiscal year 2008. The Senate version of the 
fiscal year 2008 NDAA, Sections 713 and 714, contains similar 
provisions. The Department will comply with any requirements for 
TRICARE fee increases that may become law under the fiscal year 2008 
NDAA.
    Although Congress and the Department of Defense (DOD) leadership 
have supported the growing costs of managing this benefit over the 
years, there has been no increase in TRICARE fees since 1995 even as 
health care costs have increased. As a result, there is a gaping 
disparity between TRICARE and other health plan out-of-pocket costs 
that we believe is driving increased reliance on TRICARE as the primary 
source of health coverage. In addition, the incentives must be adjusted 
to encourage beneficiaries to use more cost-effective alternatives, 
such as formulary prescription drugs.
    The Defense Health Program (DHP) budget currently represents 7.5 
percent of total DOD spending. If our DOD related health care costs 
grow as expected, then the DHP budget will end up at more than 11 
percent of total DOD spending. Thus, existing weapons, training and 
personnel programs will have to be cut to accommodate this growth. For 
this reason, there continues to be a pressing need to take action to 
make the health care benefit fiscally sustainable for the future.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter
    Question. I believe the resulting benefits to this country from the 
JRC will be measured by the lives saved, property protected, and 
communities returned to normal. The steps that have been taken should 
allow the Department to begin making progress towards the establishment 
of the JRC this year. It is vital to our country and its citizens that 
the momentum achieved on this initiative not be lost.
    I would appreciate your perspective on the Pentagon's next steps in 
the development and funding of the JRC. Have personnel been dedicated 
from your staff, to the implementation of the JRC? Who is leading the 
coordination efforts with other federal agencies and partners, as 
needed by the JRC? What are the expected personnel requirements for the 
JRC? What level of funding has been proposed by the Department for the 
JRC? What is the timeline for initiating this project?
    Answer. The 2005 Defense Base Closure and Realignment Commission 
Report recommended: ``Realign Pittsburgh International Airport (IAP) 
Air Reserve Station (ARS), Pennsylvania. Establish a contiguous enclave 
at the Pittsburgh ARS, Pennsylvania sufficient to support continued 
operations of the reserve station units, including flight operations, 
and compatible with combined use of the civilian airport by the Air 
Reserve, Air National Guard and civilian users. Within that enclave, 
establish a Regional Joint Readiness Center (RJRC) at the Pittsburgh 
International Air Station with the mission of providing civil-military 
operations, homeland security and community-based medical support to 
the Department of Defense and the Department of [H]omeland [S]ecurity 
National Incident Management Plan and the National Response Plan. The 
enclave and RJRC will be staffed at the current manning level of the 
ARS. The PAA and personnel allocations of Air National Guard units at 
Pittsburgh are unaffected by this recommendation.'' (BRAC Commission 
Final Report to the President, Pages 150-151)
    The Department has worked with Allegheny County civic leaders, 
Pennsylvania Congressional Delegation staff members, and Federal 
partners to develop an implementation concept for the Joint Readiness 
Center. The Department, in cooperation with the Regional Joint 
Readiness Center Task Force, has coordinated site visits to Pittsburgh 
Air Reserve Station by DOD components such as U.S. Northern Command, 
the Uniformed Services University of the Health Sciences, and the 
United States Army Medical Command and with Federal partners such as 
the Department of Homeland Security (DHS), including the Federal 
Emergency Management Agency (FEMA), the Department of Health and Human 
Services (DHHS), the Department of Veterans Affairs (VA), and the 
Federal Bureau of Investigation.
    FEMA is considering locating a National Incident Management Team 
(NIMT) at the Joint Readiness Center. The 26-person, multi-agency NIMT 
would form the advance cadre of the Joint Field Office, a deployable 
contingency Federal multi-agency coordination center that would be 
established during an incident to facilitate field-level domestic 
incident management activities by providing a central location for 
coordination of Federal, State, local, tribal, nongovernmental, and 
private sector response organizations. The NIMT would establish a 
Federal presence within 12 hours of notification and be self-sufficient 
for 48 hours. Proximity to military and commercial air transportation 
make Pittsburgh Air Reserve Station a very viable location for the 
NIMT. FEMA is seeking funding to support this initiative.
    Given the vast medical resources in the greater Allegheny region, 
DHS, DHHS, VA, and the U.S. Public Health Service are considering 
Pittsburgh Air Reserve Station as a potential site for a Joint 
Interagency Medical Training Center. This center would establish a 
common awareness of and exchange best practices for emergency off-site 
triage, patient transport and tracking, advanced disaster life support, 
medical urban search and rescue, risk communication, and other topics 
of interest to the greater emergency medical community.
    In February 2008, the Department, in partnership with DHS, DHHS, 
and the VA, will conduct a major National Disaster Medical System 
exercise using the Pittsburgh Air Reserve Station.
    Question. Our military is under tremendous stress from multiple 
combat deployments and the wars in Iraq and Afghanistan. I understand 
there are efforts underway to help soldiers and their families better 
manage this stress and trauma. I have recently heard about a program in 
development by the Benson-Henry Institute and the Samueli Institute 
which would train our troops and families in stress management skills. 
I understand that the Army is supportive of this program and has 
expressed interest in funding. I would appreciate your views on this 
idea and how it would augment current efforts to treat PTSD and combat 
stress. If there is support for this program within the Army and it 
will help our returning troops I would urge you to direct funding to 
support these efforts.
    Answer. The Army is supporting development of ``reset'' programs 
that help redeploying Soldiers and their Families recover from the 
changes and stresses of combat deployment. The U.S. Army Medical 
Research and Materiel Command (USAMRMC) manages and executes the 
Research, Development, Test, and Evaluation (RDTE) medical research 
programs for the Army and also manages and executes the majority of the 
Defense Health Program (DHP) RDTE congressional special interest (CSI) 
programs. These Army and DHP CSI programs include research on stress 
and trauma and are leveraged to maximize their relevancy with core RDTE 
military research efforts where possible. The Army RDTE CSIs have 
included funds for the Samueli Institute in recent years. Also, the 
fiscal year 2007 War Supplemental appropriation included DHP RDTE funds 
to conduct research for Post-Traumatic Stress Disorder (PTSD) and for 
Traumatic Brain Injury (TBI) broadly announced and competitively 
awarded.
    The CSI programs include currently funded efforts involving the 
Samueli Institute as well as plans to incorporate the unique expertise 
offered by the Benson-Henry Institute. A pilot program at the William 
Beaumont Army Medical Center in El Paso, Texas, is in the proposal 
design phase. This will allow veterans to re-adjust to a productive and 
healthy life following war trauma exposure using relaxation techniques 
pioneered by Dr. Benson, and expands on current uses of complementary 
and alternative medicine techniques to control PTSD and related 
conditions such as stress, anxiety, and substance abuse in military 
personnel and veterans.
    Other planned efforts have been discussed with senior 
noncommissioned officers and will be incorporated into the current 
Army-wide Battlemind Training as research validation is completed. 
Current efforts by the Army-funded Samueli Institute projects have 
paved new ground for many aspects of reset program efforts. As 
examples, these include the effects of complementary and alternative 
medicine techniques to improve healing and pain control (Salt Lake City 
Veterans Affairs Medical Center); evaluation of optimal healing 
environments in military health care facilities (at multiple Army 
sites); and programs to moderate stress in Families of wounded veterans 
(Walter Reed Army Medical Center).
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Question. Mr. Secretary, what is your opinion of these cuts and 
could you elaborate on the impacts to our national security?
    Answer. A specific cut to the Department of Energy's (DOE's) 
Chemistry and Metallurgy Research Replacement (CMRR) facility will have 
a detrimental impact on the nuclear weapons program. This facility is 
required for pit production, which is a critical component in 
supporting the future stockpile and current joint DOD-DOE complex 
planning.
    Question. Mr. Secretary, I wanted to make sure you are aware of a 
very serious problem facing the Energy and Water Development 
Appropriations Act for Fiscal Year 2008. The House bill proposes to cut 
over $632 million from the President's request for the National Nuclear 
Security Administration (NNSA) budget in fiscal year 2008. These cuts, 
if implemented, would have a devastating impact on the NNSA's ability 
to certify and maintain our nation's nuclear deterrent. According to 
the NNSA, this budget level would force the layoff of over 8,300 
laboratory employees nationwide, including 3,600 at the two New Mexico 
labs; delay the Life Extension effort of the W-76; cut funding for 
surveillance activities required to certify the W-80 warhead; cripple 
the Science Campaign that supports the Stockpile Stewardship program, 
enabling the country to avoid underground testing; cut a $50 million 
investment in laboratory computing; and stop construction on the CMR-
Replacement facility, leaving the nation without pit manufacturing 
capability. What is your opinion of these cuts and could you elaborate 
on their impacts to our national security?
    Answer. The National Nuclear Security Administration (NNSA) is an 
agency of the Department of Energy. If NNSA elected to apply the $632 
million budget cut to their weapons programs as stated above, there 
would in fact be a detrimental impact on the DOD nuclear weapons 
program. However, we have no insight into the NNSA budget process that 
would indicate whether the proposed cuts would necessarily be applied 
to these programs.
    Question. Will you speak to your recruiting and retention efforts 
and needs as you work to grow the Army and the Marine Corps?
    Answer. The phasing of the growth allows us to spread the impact on 
recruiting such that the increase in a given year, relative to the 
total recruiting mission, would generally remain below five percent. 
This will be especially true if the prevailing--and historically high--
retention patterns of the past couple years continue.
    Of course, the key component of sustained success will be solid 
resourcing, smart and agile recruiting practices, and our agility in 
adjusting incentives and programs as the situations change. The 
Services and the Department eagerly accept those responsibilities, and 
we will continue to monitor progress to ensure that our current pattern 
of success is aggressively maintained.
    Question. I understand part of the February funding request would 
purchase language translation systems. Can you talk to the language 
issues we have in the war and will you provide more information to my 
office regarding the specifics of this request?
    Answer. The language issue is not only the need of military service 
members to know the local language, but also culture and use of 
gestures. This training development will provide this skill through 
computer based interactive training using animated characters 
representing local people in a simulated mission scenario.
    The request in question actually refers to a $2.0 million 
development project for an Automated Language Training System, 
contained in the fiscal year 2007 Global War on Terrorism (GWOT) 
funding. It was inadvertently mentioned in the fiscal year 2008 GWOT 
justification, but not requested in that submission. The development 
project is a personal computer based simulated interactive language and 
culture training system designed to provide warfighters survival 
language and culture skills as well as tactical decision making skills 
for their area of responsibility. It is designed to provide Marines 
with necessary skills that are unavailable or impractical through other 
language training means.
                                 ______
                                 
               Questions Submitted by Senator Larry Craig
    Question. Since the war began, our efforts to bring stability to 
Iraq have shown great success in the Kurdish region in the north of the 
country. The peace and economic well-being of that region is threatened 
by cross-border attacks by separatist Kurds against Turkey, and the 
potential of a Turkish response across the Iraqi border. Additionally, 
we have heard this week that Iran has closed off major border crossings 
between Iran and Iraq's Kurdish region, a move that could have very 
negative impacts on the economy of that region.
    What is being done to provide security for our Turkish allies, and 
to ensure that the Kurdish region remains a success story in Iraq?
    Answer. Our goal in Iraq remains a unified, federal, democratic 
state at peace with itself and its neighbors. We are encouraged by the 
economic growth in Northern Iraq and we are confident this prosperity 
will spread through other regions. Likewise, we are pleased with the 
success of the recent Turkey-Iraq meetings and the resulting agreements 
on economics and counter-terrorism. The threat of terrorist attacks by 
the PKK is being addressed bi-laterally between Iraq and Turkey, as 
well as through a formal tri-lateral initiative to counter the PKK. The 
recent attacks resulting in the regrettable loss of 16 Turkish security 
personnel further highlight the importance of counter-terrorism efforts 
in the region.
    Our efforts to provide security for our Turkish allies are mainly 
channeled through NATO. Turkey is entitled to defense by Alliance 
members under Article V of the NATO Charter. Our bilateral security 
relations are based upon mutual respect and inter-operability. They 
include billions of dollars in commercial and military weapons sales 
and combined training exercises. In fiscal year 2007, the United States 
provided over $3.5 million worth of training to Turkey to enhance its 
self-defense capabilities and for fiscal year 2008 we proposed an 
increase to $3.7 million. In addition, Turkey's Foreign Military 
Financing topped $14 million in fiscal year 2007, and $11.825 million 
has proposed for fiscal year 2008 (a small reduction has been suggested 
as Turkey has largely graduated from the need for financing). Finally, 
the United States and Turkey exchange intelligence on common threats 
and conduct annual staff talks at the service and joint levels to share 
best practices and plan future military-to-military and security 
cooperation activities.
    Question. General Petraeus has signaled his intention to begin to 
draw down some of the surge forces, some to be leaving Iraq soon. The 
American people are rightly concerned about the escalating costs of 
this war, especially when the results on the ground from the beginning 
have not been what was expected.
    After the surge forces are reduced next spring, do you anticipate 
the costs of this war to continue to rise or will we see a decline in 
funding requests?
    Answer. The surge forces will start reducing in December and the 
combat brigades will return to their home stations by mid-summer. 
However, it would be premature to speculate about the future funding 
requests for the costs of the war. The conditions on the ground will 
continue to change and the Commanders on the ground will identify 
requirements for military personnel and military capability. We will 
continue to evaluate those requirements and work with Congress to 
respond to changing conditions.
    Question. Congress and the Department of Defense seem to see the M-
RAP (M-Wrap) vehicle as the way forward in defending against IED 
attacks in Iraq. This bill would add funding, I believe, to bring the 
total procurement level of MRAP vehicles to 8,000 MRAPs to be on the 
ground in Iraq some time next year.
    If we can push this bill through Congress in a very timely fashion, 
how long will it take to get these vehicles on the ground? Also, what 
else is being done to prevent against IED attacks?
    Answer. The funds requested will go toward fielding approximately 
7,000 more Mine Resistant Ambush Protected (MRAP) Armored Vehicles in 
addition to the 8,000 MRAPs already procured. The original 8,000 
vehicles should all be fielded by April 2008. We anticipate that 
vendors will begin delivery of the additional 7,000 vehicles in March 
2008. Integration and installation of government-furnished equipment on 
the vehicles and subsequent transportation will add another 30 to 40 
days to the schedule, resulting in the in-theater delivery of vehicles 
produced with these funds beginning in April 2008.
    Protecting our personnel from Improvised Explosive Device (IED) 
attacks through additional fielding of MRAP vehicles is only one 
measure of protection. The Department follows a philosophy of Prevent 
and Protect. We continually monitor enemy activity and behavior with 
the intention of preventing attacks from happening. This monitoring is 
done through intelligence data gathering and reporting.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback
    Question. Soldiers returning home from active duty are finding 
almost no support for the Iraqi translators who served with them in 
combat and have now had to flee their homes and their country due to 
their security situations. These Iraqi translators saved American lives 
and supported the U.S. war effort with courage and heroism. What impact 
do you think the government's lack of support for these Iraqi's has on 
the ability of the army to recruit more translators and drivers? What 
is the impact on the morale of the troops when their Iraqi combat 
veterans are not supported after their service?
    Answer. The documented contract linguist records for Iraq since 
September 2006 reflect no negative impact attributable to lack of 
support. From September 2006 to October 2007, the Army reported a net 
gain of 817 Category I (uncleared) locally hired linguists. This period 
precedes and includes the February 2007 increase in linguist 
requirements associated with an increase in military forces. Contract 
linguist reports from April 2007, when the Army began to report local 
linguist recruiting, to the present, reflect a steady gain in the 
average weekly rate of hire.
    This recruiting trend may be too brief to provide an accurate 
indication of the long-term impact. Additional impacts to linguist 
recruitment could be expected from local conditions and U.S. 
immigration policy. Recruitment could be affected by a recovery in the 
Iraqi local economy that provides employment at competitive rates or 
from increased violence that renders some locations too hostile for 
linguists to work there.
    In July 2007, the U.S. Department of State announced an expanded 
special immigrant status for Afghan and Iraqi translators and 
interpreters. The policy temporarily increased the number of 
translators and interpreters allowed to immigrate annually from 50 to 
500 for fiscal year 2007 and fiscal year 2008. The full effect of this 
policy over the past four months is unknown. While the Army does not 
track the number of persons who take advantage of this policy, the 
Army's incumbent linguist contractor has received 70 requests for 
verification of previous employment associated with immigration 
requests.
    Additionally, the Army has not received indications of low morale 
in the current force as related to the situation in Iraq concerning 
condition of the translators. Upon separation from the U.S. military, 
the Iraqi translators recruited in country are no longer in support of 
the U.S. Army and have no formal relationship or feedback mechanism to 
the Army.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
    Question. Can you describe for us in what ways the funds provided 
in this supplemental will assist in the drawdown of U.S. Forces from 
Iraq proposed for next year? Will the delay or reduction of this 
funding affect proposed troop withdrawals?
    Answer. This adjustment to our fiscal year 2008 GWOT request takes 
into account the President's announced intention to drawdown Army and 
Marine forces in Iraq. A delay or reduction in our proposed funding 
would seriously strain the Department's ability to support our forces 
fighting this war and to maintain the readiness of the rest of the 
military forces. I do not believe that a delay or reduction would 
affect the President's planned drawdown.
    Question. Are the funds in this supplemental necessary for the 
construction of the new ``Shocker'' military base near the Iranian 
border? Will their delay or reduction affect the construction of that 
base? Can you elaborate on why you feel this base will be necessary and 
useful?
    Answer. No military construction funds are requested for a new base 
near the Iranian border.
                                 ______
                                 
               Questions Submitted to General Peter Pace
           Question Submitted by Senator Frank R. Lautenberg
    Question. The Pentagon and the Administration received a lot of 
criticism for the failure to adequately prepare for the situation in 
Iraq after major combat operations ended.
    Is the Pentagon now preparing contingency plans for the eventual 
and complete redeployment of our combat forces out of Iraq?
    Answer. In accordance with the Commander in Chiefs guidance on the 
way ahead in Iraq, forces are being re-postured based on 
recommendations from the commander in the field. Any decisions 
regarding redeployment of those forces will be conditions-based, and 
will be continually reevaluated based upon the assessment of the 
situation on the ground. Commander MNF-I and other military leaders are 
always conducting appropriate contingency planning to ensure we are 
prepared to quickly react to further guidance from the President or any 
emerging threat anywhere in the world.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Question. General Pace, one of the areas I am especially interested 
in is the use of unmanned aerial vehicle (UVA's) as part of our 
country's defense and security efforts. Please tell us how UAV's are 
being used generally in Afghanistan and Iraq.
    Answer. Unmanned aerial vehicles (UAVs) have proved indispensable 
from tactical to theater level operations. While Soldiers and Marines 
toss hand-held Ravens into the air to get a bird's eye view of their 
tactical situation, Global Hawk UAVs fly overhead at 60,000 feet 
supporting the theater commander's information requirements. UAVs 
provide an unblinking eye and in some cases a kinetic option to our 
combat forces. I believe our UAV assets will continue to increase in 
both quantity and quality, as they continue to be a significant and 
effective capability to our warfighters.
    Question. Are you under the authority of one component commander in 
those theatres, or are they operated independently by the various units 
that have them, and what benefits or complications does this 
arrangement present?
    Answer. Because UAVs operate across the full spectrum of 
operations, it is appropriate that tactical maneuver units control our 
smaller UAVs (Raven, Scan Eagle, and Shadow). Large UAVs like the 
Predator and Global Hawk support theater level operations and are 
controlled by the theater commander. Others, like the Army's Warrior 
UAV, operate in the seams between the tactical and theater level of 
operations while under the control of tactical commanders. Additional 
experience and analysis will determine what level of control best 
serves the needs of our warfighters.
    Question. Can you tell us a little more about the military's 
efforts in Afghanistan and the funding request for that work?
    Answer. The U.S. military operates under two different mandates in 
Afghanistan. They make up 14,000 of 38,000 troops in the International 
Security and Assistance Forces (ISAF) and 10,000 of 11,500 Operation 
Enduring Freedom (OEF) forces.
    The ISAF troops conduct security assistance missions in the form of 
counter-insurgency operations through the employment of Infantry 
Brigade Combat Teams (IBCTs) and Provincial Reconstruction Teams 
(PRTs), where they work in partnership with Afghan National Security 
Forces and the Afghan government to bring stability, reconstruction and 
development to the Afghan people. This force is under the command of 
U.S. Army General Dan K. McNeil who operates under NATO.
    Approximately two-thirds of the OEF forces focus on training and 
equipping both the Afghan National Army and the Afghan National Police 
under the command and control of the Combined Security Transition 
Command--Afghanistan (CSTC-A). The remainder of OEF forces include 
those who are working on development projects under the direction of 
the Corps of Engineers' Afghan Engineering District and Special 
Operations Forces who execute counter-terrorism missions.
    The ANSF development is currently funded at $7.4 billion for fiscal 
year 2007 and the fiscal year 2007 supplemental; $2.7 billion is 
requested for the fiscal year 2008 GWOT.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback
    Question. I understand that something like 60,000 people are being 
displaced inside Iraq every month. How does this displacement affect 
U.S. operations? What kind of humanitarian relief can the military 
provide to the displaced?
    Answer. Perhaps the State Department could verify the specific 
numbers of Iraqis being displaced each month, but with regard to 
mission impact, there is negligible impact to U.S. Operations as a 
result of displaced Iraqi citizens. MNF-I and Iraqi Security Forces 
work closely with the Government of Iraq (GOI) to minimize the 
operational effects caused by the displacement of Iraqi citizens.
    Humanitarian relief in Iraq is generally managed by GOI ministries 
with assistance and support from NGOs, IGOs, and U.S. Department of 
State representatives in Iraq. If required, the U.S. military has the 
capacity to provide short-term relief such as temporary shelter, food, 
water, and urgent medical care.
    Question. Given the extensive evidence of Iranian involvement in 
Iraq, are we doing all we can to combat Iranian influence? Are there 
any restrictions on what U.S. troops can do to counter Iranian 
activities? Would listing the IRGC as a terrorist organization be 
useful for U.S. forces?
    Answer. U.S. forces have and will continue to take appropriate 
action inside of Iraq against extremist networks regardless of what 
organization is behind them. The United States and Iraqi leadership now 
have a better understanding of the Iranian influence and we are 
addressing the issue by improving border security in key areas, 
targeting EFP networks, and pursuing Iranian sponsored militia 
extremists intent on undermining the legitimate government of Iraq. But 
with regard to the Iranian influence, we need to be very precise in how 
we articulate what we know to be fact. In some instances, when going 
after the networks, we have policed up some individuals who are in fact 
Iranian. Either the Iranian government has knowledge of this 
involvement, or they don't, and either instance is instructional. We 
are using our conventional forces and our Special Forces against the 
extremist networks, and I believe we have made a lot of progress over 
the last several months. Listing the IRGC as a terrorist organization 
would have significant positive and negative consequences, best 
addressed in a classified setting. For now, U.S. forces have the 
authorities they need to conduct operations inside Iraq and 
Afghanistan.
    Question. Can the United States successfully counter Iranian 
influence in Iraq without striking targets inside Iran?
    Answer. The United States and other countries are currently being 
effective against the Iranian influence inside Iraq. Beyond the kinetic 
work involved in pursuing extremist elements inside of Iraq, diplomacy 
is a key element in countering Iranian influence. Diplomatic efforts 
should not be considered the sole responsibility of the United States, 
but rather should include the active involvement of other countries in 
the region and around the world.
    Question. What steps are being taken to counter Iranian arms 
shipments to Afghanistan? Will Iran be able to influence events in 
Afghanistan to the same degree they have done so in Iraq?
    Answer. The mission to interdict enemy supplies is a normal subset 
of the both the ISAF counter-insurgency mandate and the OEF counter-
terrorism mandate. Commanders at all levels in Regional Command West, 
Regional Command South, and Combined Special Operations Task Force--
Afghanistan collect, analyze, and act on intelligence regarding how the 
insurgents receive weapons, ammunition, equipment and funding.
    Question. Provide an update on the situation between Turkey and the 
Kurdistan region. What are we doing to reduce the threat of Turkish 
military intervention across the Iraq border? Are we getting sufficient 
cooperation from the Kurds against the PKK?
    Answer. The situation in the border region between Turkey and the 
Kurdistan region remains tense. PKK terrorism is an integral security 
problem to the Turkish Government and an extremely emotional issue to 
the Turkish people. Nearly every Turk knows a relative or close friend 
that has either been killed or injured by the PKK terrorists.
    The Department of Defense continues to work with the Department of 
State to encourage the Governments of Iraq and Turkey to meet and find 
ways to address the problem.
                                 ______
                                 
               Questions Submitted to John D. Negroponte
            Questions Submitted by Senator Patrick J. Leahy
    Question. Your Supplemental request includes $931 million for Iraq 
reconstruction to continue Provincial Reconstruction Teams (PRT) 
programs, governance programs, the Community Action Program, increased 
prison capacity, and other items.
    We are told the Maliki Government is reviled by many Iraqis who see 
it as anything but democratic, competent, honest or accountable. Do you 
agree with the reports that the Maliki Government is plagued by 
corruption and infiltrated with anti-American extremists, and 
apparently unwilling to make the compromises necessary for political 
reconciliation? If that's true, why should we support it?
    Answer. Supporting the efforts of the Iraqi Government to create 
stability and effective, transparent governance in Iraq is in the 
interests of the United States because a stable and democratic Iraq, at 
peace with itself and its neighbors, is in the interests of the United 
States.
    Political negotiations take time, but we are seeing progress. On 
August 26, Iraqi leaders, including Prime Minister Maliki, President 
Talabani, Vice Presidents Abdul Mahdi and Hashemi, and Kurdistan 
Regional Government President Barzani signed an agreement pledging 
cooperation on a number of key political issues. They found common 
ground on detainees, power sharing, and other pieces of legislation on 
which they had not been able to agree in the past. We have already seen 
progress since that meeting; the draft of the De-Ba'athification reform 
law (Law of Accountability and Justice) that those leaders agreed to at 
that meeting has been transmitted to the Council of Representatives.
    How these recent political agreements by Iraq's political leaders 
will play out in the Council of Representatives is yet to be seen, but 
these developments are promising and may represent important steps 
towards resolution of these previously divisive issues. While progress 
has been slow, the Maliki government has been working to maintain the 
unity of Iraq in the context of reconciliation.
    That said, it is true that corruption, a legacy of the Saddam era 
and a regrettable but, unfortunately, common occurrence in post-
conflict states, remains endemic throughout the Iraqi government. In 
many cases, Iraqis have failed to put the nation's interests ahead of 
sectarian, tribal, and personal agendas, and one reflection of this has 
been pervasive corruption. While Prime Minister Maliki and other Iraqi 
officials and institutions have taken steps to combat corruption, there 
is much more to be done.
    The USG and Iraqi government have instituted anti-corruption 
training and have put into place several systems to improve the 
monitoring and auditing of funds. Prime Minister Maliki has supported 
anti-corruption initiatives to clean up corruption in his 
administration.
    Because public sector corruption is such an important concern, 
anti-corruption themes are an integral part of our governance programs 
in Iraq and are vital to the success of our mission there. From our 
efforts at the national ministries in Baghdad to our Provincial 
Reconstruction Teams (PRTs) around the country, we work with Iraqis to 
incorporate good governance, fiscal transparency, and accountability 
into public operations. Our PRTs incorporate anti-corruption themes and 
activities into their programs, including budget acquisition and 
accountability processing.
    Three key entities in the Government of Iraq (GOI) fight 
corruption: the CPI, the BSA, and the Inspectors General (IGs). The USG 
works closely with Iraqis to strengthen those institutions. Just this 
year, the Iraqis created the Joint Anti-Corruption Council (JACC), 
which coordinates anti-corruption activities and discusses joint policy 
initiatives within the GOI.
    The Iraqi CPI has conducted over 4,000 investigations and made 
several high-profile arrests, including the former Minister of 
Electricity, the Minister of Labor, and a number of officials of the 
Ministry of Oil. It has referred over 2,000 cases for prosecution to 
the Central Criminal Court of Iraq.
    Prime Minister Maliki provided crucial support to the formation of 
the JACC. He also gave a direct order to an Iraqi General to clean up 
rampant corruption at the Bayji oil refinery that was funding 
insurgents, and allocated funding to an anti-corruption academy.
    The GOI has taken another significant step to fight corruption by 
increasing domestic fuel prices to regional levels, as it pledged to do 
under Iraq's IMF Standby Arrangement. This action addressed a large 
source of corruption in Iraq and also helped to undercut the 
insurgency, for which profit from black market fuel sales was a major 
source of funding. The Iraqi Government has also instituted much more 
transparent procedures for its 2007 budget, which are making the 
ministries more accountable.
    Question. We have poured billions of dollars into costly 
infrastructure projects, like the Basra hospital that will end up 
costing three times what we were initially told. What arrangements have 
you or the Iraqi Government made for maintaining and operating these 
facilities, so our investment does not go to waste?
    Answer. As reconstruction in post-Saddam Iraq began, it became 
clear that long-term improvement in Iraqi public services required not 
only new and significantly rehabilitated infrastructure but also an 
improved capability to operate and maintain Iraq's infrastructure in a 
sustainable manner. The USG response to the latter requirement has been 
two-fold. For a transitional period, USG programs have directly 
supported operations and maintenance (O&M) activities, for example, 
through the purchase of spare parts. That transitional period is now 
complete in some areas and is drawing to a close in others.
    To provide for the longer term, capacity development programs have 
enhanced the ability of Iraqi ministries to operate and maintain 
infrastructure after the period of USG support comes to an end. The 
capacity development programs focus both on ministry-level activities 
such as the execution of budgets and on plant-level O&M.
    In the health sector, USG programs to supply advanced medical 
equipment include training in the use of the equipment, and for the 
Basrah Children's Hospital, Project Hope, a U.S. charity, is providing 
an important supplement to the USG programs by conducting training 
programs that will provide the hospital with the specialized staff it 
needs after it is completed at the end of 2008.
    For the electricity sector, the availability of detailed 
operational data makes it possible to assess the impact of these 
programs in that sector. Electricity supply reached record levels 
during September and October of this year. Improved security and the 
addition of new or rehabilitated generating units contributed to the 
gains, but improved O&M was also an important factor. A higher 
percentage of the installed generation capacity was available to supply 
electricity, and the units that were available operated at a 
consistently higher level.
                         iraqi refugees request
    Question. The U.N. High Commissioner for Refugees estimates that 
there are now 2.2 million Iraqis who are internally displaced inside 
Iraq, and another 2 million Iraqis who have fled to neighboring 
countries, mostly to Syria and Jordan which are unable to care for 
them.
    Of these 4.2 million people who have been displaced from their 
homes, only about 1,500 have been admitted to the United States since 
2003--829 of whom were admitted in fiscal year 2007.
    In your fiscal year 2008 Supplemental request, you have asked for 
another $931 million for reconstruction programs in Iraq but only $35 
million for Iraqi refugees. How do you explain such an obviously 
inadequate amount for a humanitarian catastrophe of this magnitude?
    Answer. At the time that the Administration formulated and 
transmitted the original fiscal year 2008 Global War on Terror request 
of $35 million, refugees were returning to Iraq and the humanitarian 
situation was relatively stable. Since the formulation of the fiscal 
year 2008 budget in 2006, the number of Iraqis displaced by violence 
has increased substantially, severely straining neighboring countries' 
abilities to provide basic social services as well as local services in 
Iraq. A more robust USG humanitarian response is necessary to meet 
basic needs. As a result, the President submitted an additional request 
of $160 million for Migration and Refugee Assistance and $80 million 
for International Disaster and Famine Assistance, which, along with the 
original $35 million, totals $275 million in humanitarian funds 
requested for Iraqis in fiscal year 2008.
    Needs continue to rise as Iraqis that are now leaving are generally 
from the lower socio-economic sectors of Iraqi society and have fewer 
resources to draw upon than those who fled the violence earlier. As a 
result, they are more vulnerable and reliant upon host government and 
donor support. At the same time, those who took refuge in neighboring 
countries earlier are depleting their savings, and are increasingly 
reliant upon external assistance. All these factors contribute to an 
increased number of Iraqi refugees needing assistance at levels higher 
than were anticipated at the time the fiscal year 2008 budget was 
developed. Particularly hard hit have been the education and health 
sectors in Jordan, Syria, and Lebanon. Responding now to these needs is 
critical to avoiding disorder and potential instability in neighboring 
countries. Failure to respond could result in further border closings 
that block the right to asylum, potentially resulting in refoulement of 
refugees. We agree that a robust USG humanitarian response is essential 
and appreciate Congressional consideration of the request for 
supplemental appropriations to respond to additional requirements in 
fiscal year 2008 as soon as possible.
                        iraqi refugee processing
    Question. The Washington Post reported that Ambassador Crocker 
wrote a cable to you this month stating it could take the U.S. 
Government up to two years to process the 10,000 refugees referred to 
the United States by UNHCR because of ``bureaucratic bottlenecks'' at 
the Departments of State and Homeland Security. Unfortunately, 
Ambassador Crocker failed to mention this when he testified here last 
week, when we could have discussed it with him. These people's lives 
are threatened because of bureaucratic bottlenecks. Some of them are 
being killed for no other reason than that they worked as translators 
or in other capacities for the U.S. Government. Others are being 
targeted because they are academic scholars.
    We read in the newspaper that Secretaries Rice and Chertoff just 
named special representatives to clear these logjams. Why has it taken 
so long, and why aren't the funds included in the budget, when 
Congress, the refugee organizations, and even people within your 
Administration, have been calling for this for so long?
    Answer. When the Iraq admissions program was announced in February, 
there was no U.S. refugee processing infrastructure in place in either 
Jordan or Syria. From March to May, office space was identified, staff 
hired and trained, and host government permission was obtained to 
operate our program. During this same period, UNHCR geared up its own 
operations in the region. Our Overseas Processing Entities (OPEs) 
opened their doors in late May (Amman) and June (Damascus) and have 
been fully operational since then. Now that the necessary facilities 
and personnel are in place we expect that the number of Iraqis admitted 
to the United States will rise significantly.
    It will not take the United States up to two years to process the 
refugees already referred to the U.S. Refugee Admissions Program. 
Despite the fact that, in the post 9/11 era, the worldwide average 
refugee processing time from referral to arrival is eight to ten 
months, we have expedited processing for Iraqi refugees and cut that 
time nearly in half for those who arrived in the United States in 
fiscal year 2007. For example, UNHCR began to refer significant numbers 
of Iraqis in Turkey for U.S. resettlement in March. First, our Overseas 
Processing Entity pre-screened the cases for DHS/USCIS interview and 
collected relevant data for requesting Security Advisory Opinions 
(SAOs), which generally require a minimum of 30-45 days to complete. 
USCIS, then interviewed these cases in May, and approved individuals 
began arriving in the United States in late July after medical 
screenings, DHS fingerprint checks, sponsorship assurances, and exit 
permissions were obtained. Larger numbers arrived in August. The total 
time between referral and arrival in the United States for these cases 
was four to five months unless cases were placed on hold pending 
security or medical clearances. For the first tranche of cases 
interviewed in Syria and Jordan, the total time between referral and 
arrival in the United States was five to six months. According to 
UNHCR, the wait time for registration interviews in Syria is 
approximately five months, while in Jordan it has been reduced to three 
weeks from four months.
    Ambassador Foley, Secretary Rice's Senior Coordinator for Iraqi 
Refugee Issues, and Lori Scialabba, Secretary Chertoff's Special 
Advisor for Iraqi Refugee Issues, are working together with our 
partners (both domestic and international) to remove any obstacles that 
remain in the Iraqi refugee processing operation. The unique security 
and political situation in the region, where most Iraqi refugees are 
located, presents significant challenges to U.S. refugee processing, 
and they are working to address these challenges in order to expedite 
the process of consideration for resettlement to the United States of 
vulnerable Iraqis.
    There is no need to request additional funds for establishing 
Ambassador Foley's position as Senior Coordinator for Iraqi Refugee 
Issues.
    Question. There is no money in the Supplemental request for 
peacekeeping costs in Darfur, or, for that matter, to pay any of the 
arrears we owe for other U.N. peacekeeping missions. Since Secretary 
Rice and this Committee have identified the establishment of a U.N.-
African Union peacekeeping mission in Darfur as an urgent priority, why 
is there nothing in this emergency Supplemental for what everyone 
recognizes is one of the world's worst humanitarian emergencies?
    Answer. The Administration shares your concern about the situation 
in Darfur and has requested $723.6 million in the fiscal year 2008 
Emergency Supplemental for the Contributions for International 
Peacekeeping Activities (CIPA) account to support the United Nations-
African Union hybrid mission (UNAMID). The African Union peacekeeping 
mission in Darfur (AMIS) is in the process of transitioning to UNAMID. 
Under Security Council Resolution 1769, UNAMID has until no later than 
January 1, 2008 to assume responsibility for peacekeeping operations in 
Darfur. In addition, the resolution states that no later than October 
2007, UNAMID ``shall establish financial arrangements to cover troop 
costs for all personnel deployed to AMIS.'' Future U.S. contributions 
to pay our assessed dues to the peacekeeping mission in Darfur will be 
paid through the CIPA account.
    The United States also plans to provide funds to train and equip 
African troop-contributing countries who have been selected to 
participate in UNAMID. We plan to use funds appropriated under the 
Peacekeeping Operations (PKO) account in the fiscal year 2007 
Supplemental to support the African Union mission for this purpose.
                                pakistan
    Question. President Musharraf forcibly deported a political rival, 
former Prime Minister Sharif, the same week you visited Pakistan for 
meetings with General Musharraf, whose popularity, like President 
Bush's, is at an all time low. He is seen by many as a dictator and a 
puppet of the United States who will do anything, including sacking the 
chief justice of Pakistan's Supreme Court and ignoring the Court's 
rulings, to ensure his hold on power.
    At what point does our support for an unpopular foreign leader 
become a liability? Haven't we been down this road before, in Iran and 
Iraq, for example? We supported the Shah, we supported Saddam Hussein, 
and look at the huge price we have paid.
    You called Pakistan's political crisis an ``internal'' matter, but 
do you not agree that it is also of immense importance to the United 
States? Over the past five years we have provided billions of dollars 
in military and economic aid to Pakistan. President Bush makes speech 
after speech about democracy and his ``freedom agenda''. Our 
international reputation is in tatters. According to press reports, in 
Turkey, a NATO ally, only 9 percent of the Turkish people have a 
positive opinion of the United States, down from over 50 percent before 
9/11. In Pakistan, where President Musharraf is increasingly reviled, 
the public's opinion of the United States is no better. Nobody believes 
Musharraf acts on his own without U.S. support or acquiescence. If he 
succeeds in orchestrating his reelection by a rubber stamp Parliament 
he controls, people will believe it is our doing. At what point should 
we expect more progress on democracy and the rule of law in order for 
our financial support to continue?
    Answer. Our policy on Pakistan has been clear. We asked Musharraf 
to lift the state of emergency as a prelude to holding free, fair and 
transparent elections, in which Pakistanis could decide who their 
leaders should be. Under President Musharraf, Pakistan has become a 
more moderate and more prosperous society than it has been in the past, 
with a government that shares many of our most basic strategic 
imperatives. The state of emergency imposed by President Musharraf has 
been a setback to progress toward democratic, civilian rule and made an 
independent judiciary more difficult. The President, the Secretary and 
the Deputy Secretary spoke out strongly against emergency rule before 
and after November 3, warning that it would impede Pakistan's progress 
toward civilian democracy and that it was not compatible with free, 
fair, and transparent elections. We urged the Pakistani Government to 
drop restrictions on the media, to cease harassing journalists, and to 
allow non-governmental organizations to operate freely. Our Embassy in 
Islamabad reports that most detainees have been released, including 
Asma Jahangir, founder and Chairperson of The Human Rights Commission 
of Pakistan, opposition leaders Imran Khan and Javed Hashmi, and 3,400 
activists.
    The President has also repeatedly stated his support for an open, 
democratic society in Pakistan. Secretary Rice also said, ``Pakistan is 
going to be better served in fighting extremism by the development of 
democratic institutions.'' President Musharraf has begun to take 
promising steps toward a return to civilian democratic government by 
resigning as Chief of Army Staff on November 28, restoring the 
constitution by lifting the emergency December 15, and setting a 
January 8 date to hold parliamentary elections. The United States 
welcomes the opportunity to work with the government that the people of 
Pakistan choose.
    We intend to focus on continuing assistance crucial to the War on 
Terror--namely our Tribal Areas development and security assistance 
strategy--while supporting basic education, health, micro-enterprise 
development, and democracy programs. We must continue to demonstrate 
our long-term commitment to the Pakistani people. We have conducted a 
thorough review of aid to Pakistan to ensure that this assistance meets 
U.S. foreign policy and national security goals. As a result of this 
review, we will projectize $200 million in budget support from the 
United States to the Government of Pakistan. This will more directly 
target assistance towards healthcare and education to better reach and 
help the Pakistani people.
                         afghan reconstruction
    Question. Your Supplemental request includes $339 million for 
Afghanistan reconstruction to continue U.S. programs to build roads and 
expand electric power generation. Since 2001, the United States has 
provided $1.5 billion for road construction and $509 million for 
electric power. I am sure this has helped improve the lives of the 
Afghan people, but at the same time we hear that President Karzai is 
widely seen as a puppet of the United States, that his government is 
corrupt and ineffective, the opium trade has skyrocketed, the Taliban 
remains a menace, and many Afghans feel let down by the United States. 
On top of that, we apparently are no closer to capturing Osama bin 
Laden, dead or alive, than we were six years ago.
    You were just there a week or so ago. How do you see it?
    There really is no limit to how much we could spend in Afghanistan, 
and it would still be one of the world's poorest countries. How long do 
you think it will be before there is a government there has the trust 
and confidence of the Afghan people?
    Answer. The fiscal year 2008 Supplemental Request totals $839 
million. In addition to the $339 million requested for infrastructure, 
we have requested $500 million to address the systemic issues you 
raise. A strong government that provides security and garners the trust 
and confidence of the Afghan people is our end goal, and to get there, 
we need to press ahead on all elements of our counterinsurgency 
strategy, which consists of separating the people from the enemy, 
transforming the environment and connecting the people to the 
government.
    The first two elements are well underway. The Afghan National 
Security Forces are undergoing modernization and joint operations with 
Coalition and NATO forces, and are making steady progress towards 
separating people from the enemy. The roads and power projects in the 
fiscal year 2008 Supplemental are critical to enabling the Government 
of Afghanistan to transform the environment to reach the people and 
provide them the basic services and economic opportunities that gain 
their trust.
    It's the third element--connecting people to the government--that 
needs our increased attention. Good governance is delivery of security, 
rule of law, and other vital services to citizens in a manner that 
reflects democratic principles--and that leads them to side with their 
government, rather than with the insurgents, or to sit on the fence. 
Due to corruption, lack of institutional capacity, and insecurity, the 
government of Afghanistan has failed to bring good governance to many 
Afghans, especially at the sub-national level. This poses a significant 
risk to our mission, as weak governance is fuel to insurgents.
    With the funding provided in the amended fiscal year 2008 
Supplemental Request, we can seize on an opportune time to redouble our 
efforts at improving governance. There is a rare degree of consensus 
among the government of Afghanistan and donors that governance must be 
addressed. President Karzai himself identified governance as a critical 
concern and recently established the Office for Local Administration to 
make the Afghan government a reality in the lives of the people.
    The Supplemental provides funding to improve: (1) government 
management, (2) government effectiveness, and (3) public trust. 
Government management efforts include technical assistance to the new 
Office of Local Administration, and a Provincial Governance Fund to 
provide resources for effective, participatory provincial development 
planning. The U.S. Agency for International Development's Capacity 
Development Program will build capacity in targeted ministries such as 
Education, Health, and Agriculture to improve common functions such as 
financial management and accountability. In addition, U.S. government 
support to the National Solidarity Program will also bolster small-
scale initiatives identified by village-based Community Development 
Projects. Centering development on village concerns is central to 
winning the trust of the people.
    The Supplemental request will help improve government effectiveness 
with expanded efforts to improve access to health care, education, and 
municipal services. Efforts to increase the capacity of municipalities 
to provide services such as trash collection and road cleaning will 
directly connect the government to the people in a visible, 
attributable manner. These efforts are also key to ensuring that the 
government can maintain the programs and infrastructure we have funded.
    The U.S. government will help increase confidence in the government 
through outreach to traditional leaders, encouraging them to visit 
development projects and communicate their impact to the Afghan people. 
In addition, the Supplemental includes programs intended to improve the 
ability of the government of Afghanistan to provide justice at the sub-
national level. Knowing that a reliable justice system exists to 
protect human rights goes a long way towards instilling public trust. 
The program will include rolling out the new administration system for 
Afghanistan's provincial and district courts, training Ministry of 
Justice staff in dispute-resolution techniques, and conducting 
awareness campaigns on the rights of women in the Afghan legal system.
    As you correctly assert, our objective is to help Afghans achieve a 
level of governance where security, rule of law, and other vital 
services are adequately provided in a transparent and responsive 
manner. The fiscal year 2008 Supplemental request will fund programs 
that take concrete steps towards achieving this goal.
    Finally, we must remind ourselves that Afghanistan's omnipresent 
challenges make it easy to overlook the remarkable progress that has 
been achieved in the past six years. In recent polls collected by 
Charney Research (2432 respondents), sixty-seven percent of Afghan 
respondents rated President Karzai's performance as excellent/good. 
Fifty-one percent reported the country is headed in the right 
direction.
    We should be careful not to let recent headlines obscure the 
lengthy list of political, economic, and reconstruction milestones 
already achieved. Presidential and National Assembly elections have 
been held, and the current parliament--Afghanistan's first seated 
legislature since 1973--is over twenty percent female. Afghanistan's 
leaders have steadily advanced economic policy, and annual growth is 
around fourteen percent of gross domestic product. Nearly six million 
boys and girls have returned to school and over sixty percent of 
Afghans have access to basic health care. The Afghanistan Compact was 
adopted by sixty nations in London in January 2006 and provides a 
roadmap between the Afghan Government and the international community, 
complete with benchmarks and timelines. Afghanistan and the 
international community have made immense progress. Continued U.S. and 
international investment is critical to capitalize on the many 
opportunities this progress provides and to counteract the very real 
and immediate threats.
    Question. Six months ago the Department of Defense revamped the 
regulations regarding the issuance of Common Access Cards (CACs) to 
include only USG prime contractors, excluding previously covered 
American and other employees who are working for American 
nongovernmental organizations (NGOs) which are funded by State 
Department grants.
    After this extended period, why aren't the new regulations yet in 
place and being implemented? When will the regulations be implemented?
    Answer. After a process of interagency consultation and 
coordination with the involved members of the NGO community, 
appropriate new procedures for CAC issuance have been worked out to 
address the problems which had been identified. We are pleased to be 
able to inform you that the new regulations are currently being 
implemented.
    Question. Lack of CACs seriously jeopardizes the safety, welfare 
and support of American grantees. Regular access to secure and basic 
services, such as medical care and the dining hall is absolutely 
critical in Iraq. What is the rationale for this change in policy to 
exclude American grantees and their employees? What can be done to 
correct this oversight so these employees can receive Common Access 
Cards?
    Answer. We shared a concern with the issues noted above, and thus 
worked closely with the involved parties to bring the CAC issue to a 
successful resolution. The categories of employees cited above are now 
eligible to receive Common Access Cards.
    Question. American NGOs must implement their programs with the 
assistance of local staff or third country nationals (TCNs). Is it 
possible to develop a system to grant TCNs limited access to U.S. 
facilities in Iraq, within security guidelines, that would facilitate 
TCNs completing their work for U.S. NGOs more safely?
    Answer. As with the other categories of employees involved with USG 
programs in Iraq, TCNs may now receive limited access cards, issued by 
MNF-I, which provide access to facilities required for them to 
undertake their work.
    Question. There appears to be confusion regarding the temporary 90-
day waiver to temporarily renew CACs for grantee staff that previously 
held CACs. What is the bottleneck, especially if the State Department 
is responsible for approving the staffs of their grantees? We have 
heard of instances where after lengthy negotiations to obtain the 
waiver, the CACs have not yet been issued. Which individual or bureau 
within the State Department has the primary responsibility for this 
process?
    Answer. A system has been recently established to provide CAC cards 
to grantees and CAC cards are being processed for grantees now. Any 
grantee or grantee organization for which the new process is unclear is 
encouraged to contact their grant administrator, which is the first 
office that initiates the process for a grantee to obtain a CAC card 
and which can clarify and assist in this process.
    Question. Some NGOs have been told that in order to receive a CAC, 
American employees must return to Washington to initiate the clearance. 
Considering the urgency in getting CACs into the hands of those who 
urgently need them, why must American staff travel to Washington? The 
time and expense alone would be cost-prohibitive in normal 
circumstances, but considering the extreme situation in Iraq, this 
doesn't make sense. What's being done to expedite clearances?
    Answer. To address this issue, officials of the Department of State 
and USAID traveled to Iraq and collected the fingerprint cards of a 
large number of grantees to avoid the requirement for grantees to 
travel to the United States to initiate the CAC clearance process. In 
the future, fingerprints can be taken in Iraq and grantees can apply 
on-line, so that they will not have to return to the United States to 
initiate this process.
                                uighers
    Question. I know you are aware of the Uighurs who are detained at 
Guantanamo. They were reportedly sold to U.S. forces by Pakistani 
bounty hunters for $5,000 each, nearly five years ago. It has now been 
far longer than a year since the U.S. military determined that these 
men were not enemy combatants and should be released. Yet while some 
have been released and are now in Albania (where they do not speak the 
language and face many obstacles to rebuilding their lives) the rest 
are still imprisoned. U.S. officials, including Secretary Powell before 
you, have said that the United States will not return these men to 
their native China for fear that they would be tortured by the Chinese. 
What are you doing to correct this tragic mistake and find another 
country in which to resettle these men? How do you justify continuing 
to imprison innocent people who apparently pose no threat to Americans, 
rather than allow them to resettle in the United States if no other 
country is willing to accept them?
    Answer. Without getting into the circumstances of their capture, 
the Uighurs remaining at Guantanamo Bay have all been determined to be 
``Enemy Combatants'' by DOD through the Combatant Status Review 
Tribunal process and are being lawfully detained as such. The five 
Uighur individuals who were determined to be ``No Longer Enemy 
Combatants'' were transferred in 2006 to Albania, which has thus far 
been the only country willing to accept Uighurs detainees from 
Guantanamo for resettlement.
    Although it remains lawful for the United States to detain the 
remaining Uighur detainees as enemy combatants, we have made clear that 
we do not wish to be the world's jailer, and that we are making efforts 
to transfer or release detainees who are determined to pose a 
sufficiently low threat to the United States and its allies. In cases 
where we are unable to do so because of security or humane treatment 
concerns, we seek third-country resettlements. In the case of the 
Uighur detainees who are eligible for transfer or release, I believe 
that our efforts to find suitable third country placements have been 
hampered by a general lack of will on the part of other countries to 
become involved with a politically very sensitive issue, and by 
specific concerns that accepting Uighur detainees for resettlement 
could cause bilateral friction with China. We are continuing to pursue 
resettlement options at senior diplomatic levels but it is unclear 
whether these efforts will meet with success.
    There are a number of factors that have precluded the resettlement 
of eligible Uighur detainees in the United States, including legal 
obstacles that would be most appropriately discussed with the 
Department of Homeland Security and the Department of Justice. I also 
note the sense of the Senate, ``that detainees housed at Guantanmo Bay, 
Cuba, including senior members of Al Qaeda, should not be released into 
American society . . .'', as expressed during a 94-3 vote on the 
McConnell Amendment on July 19, 2007.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. How many companies has DOS contracted with to provide 
security in Iraq? In Afghanistan? How many people does each of these 
companies have employed in each country? How much is each contract 
worth and what is the duration of each?
    Answer. The Office of Acquisition Management awarded three 
contracts for personal protective services in response to the WPPS II 
solicitation as shown below:
  --Blackwater, USA--S-AQMPD-05-D-1098
  --DynCorp International--S-AQMPD-05-D-1099
  --Triple Canopy, Inc.--S-AQMPD-05-D-1100
    Each contract has a value of up to $1.2 billion for a total of $3.6 
billion for the entire WPPS work effort. Individual Task Orders are 
issued for personal protective services at various locations. Each Task 
Order has a base performance period of 12 months with four one year 
options.
    The approximate current annual costs under WPPS II contracts for 
work performed in Afghanistan and Iraq are as follows:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Blackwater, USA Iraq....................................    $315,123,902
Blackwater, USA Iraq, Aviation..........................     112,581,657
Blackwater, USA Afghanistan.............................      37,004,855
DynCorp Int. Iraq.......................................      38,513,713
Triple Canopy, Inc. Iraq................................      50,470,849
------------------------------------------------------------------------

    These costs do not include the contractor Local Program Management 
Offices (LPMO) located in the WDC area. The personnel working in the 
LPMO interface daily/weekly with the High Threat Protection (HTP) 
Division of the Office of Overseas Protective Operations and the meet 
the Contracting Officer on a weekly basis. All three contractors 
provide security services in Iraq. However, Blackwater, USA is the only 
contractor providing WPPS security services in Afghanistan.
    Each company has personnel deployed as follows:
    Blackwater, USA has the following Iraq and Afghanistan WPPS Task 
Orders:
Task Order 4--Kabul, Afghanistan (Blackwater, USA)
    In 1st option year: February 8, 2007 to February 7, 2008
    Authorized Staffing: 119 personnel (78 Protective Security Services 
(PSS)/21 support/20 guards)
Task Order 6--Baghdad, Iraq (Blackwater, USA)
    In 1st option year: May 8, 2007 to May 7, 2008
    Authorized Staffing: 645 personnel (494 PSS/100 support/51 guards)
Task Order 8--Al-Hillah, Iraq (Blackwater, USA)
    In 1st option year: August 5, 2007 to August 4, 2008
    Authorized Staffing: 197 personnel (71 PSS/11 support/115 guards)
Task Order 10--Iraq Aviation (Blackwater, USA)
    In base year: September 4, 2007 to September 3, 2008
    20 helicopters, operations to start late November 2007
    Authorized Staffing: approximately 241 personnel
Total Authorized Staffing:
    Blackwater, USA Iraq personnel: 842
    Blackwater, USA Afghanistan personnel: 119
    Blackwater, USA Iraq aviation: approximately 241 (not yet deployed)
Triple Canopy, Inc. has the following Iraq WPPS Task Orders:
    Task Order 7--Basrah & Tallil, Iraq (Triple Canopy, Inc.)
    In 1st option year: August 5, 2007 to August 4, 2008
    Authorized Staffing: 275 personnel (76 PSS/27 support/172 guards)
    (Recently reduced number of personnel at post due to transition 
from Basrah to Basrah Air Station.)
DynCorp Int. has the following Iraq WPPS Task Orders:
    Task Order 9--Kirkuk & Erbil, Iraq (DynCorp Int.)
    In 1st option year: August 5, 2007 to August 4, 2008
    Authorized Staffing: 144 personnel (75 PSS/17 support/52 guards)
    Additionally, the Office of Acquisition Management awarded Embassy 
Security Force Contracts in Iraq and Afghanistan to:
IRAQ
            Baghdad Embassy Guard Contract (Triple Canopy, Inc.)
    In 2nd option year: July 20, 2007 to July 19, 2008
    Performance period cost: $105 million
    Authorized Staffing: 1,740 personnel (1,711 guards/29 support)
AFGHANISTAN
            Afghanistan Embassy Guard Contract (ArmorGroup North 
                    America)
    In base year: July 1, 2007 to June 30, 2008
    Performance period cost: $40 million
    Authorized Staffing: 629 personnel (532 guards/97 support)
    The Office of Acquisition Management awarded three contracts for 
Civilian Police (CivPol) programs in various countries (including Iraq 
and Afghanistan), which are managed by the Department's Bureau for 
International Narcotics and Law Enforcement Affairs. These contracts 
are for advisory and life support services, but include security 
elements (protective services primarily for contractor personnel and 
facilities). These contractors and contract vehicles are:
  --DynCorp Int'l (DI), S-LM-AQM-04-C-0030
  --Civilian Police Int'l (CPI), S-LM-AQM-04-C-0032
  --PAE-Homeland Security Corp (PAE-HSC), S-LM-AQM-04-C-0033
    Each contract has a ceiling value of up to $5 billion. Individual 
Task Orders are issued for civilian police services at various 
locations. Each Task Order has a base performance period of 12 months 
with four one year options.
IRAQ:
            DynCorp International (DI)
    As of October 2007: 256-276 security personnel total (65 Physical 
Security Personnel, 131 Personal Security Detail (PSD) personnel, and 
60-80 subcontracted local nationals providing reconnaissance for PSD 
movements).
    Task Order S-AQMPD-05-F-1436, Iraq 9 Extension, POP 10 (June 1, 
2007-November 30, 2007): $32,098,620
    65 Physical Security Personnel, 131 PSD personnel, and 60-80 
subcontracted local nationals providing reconnaissance for PSD 
movements
    (Note: Numbers of personnel and dollar values are for security 
services only and do not represent the entire value or scope of the 
Task Order)
AFGHANISTAN:
            DynCorp International (DI)
    As of October 2007: 920 security personnel total (908 Physical 
Security Personnel and 12 PSD personnel).
    Task Order 4305, Afghan Police Program (September 1, 2007-August 
31, 2008): $95,045,226.00
    824 Physical Security personnel and 8 PSD personnel
    (Note: Numbers of personnel and dollar values are for security 
services only and do not represent the entire value or scope of the 
Task Order)
    Task Order 1076, Poppy Eradication Force (October 1, 2007-September 
31, 2008): $26,053,764.00
    84 Physical Security personnel and 4 PSD personnel
    (Note: Numbers of personnel and dollar values are for security 
services only and do not represent the entire value or scope of the 
Task Order)
            Civilian Police International (CPI)
    As of October 2007: 115 security personnel total (66 Physical 
Security Personnel and 49 PSD personnel).
    Task Order A266, Poppy Elimination Program (March 28, 2007-March 
27, 2008): $3,600,000
    66 Physical Security Personnel and 49 PSD personnel
    (Note: Numbers of personnel and dollar values are for security 
services only and do not represent the entire value or scope of the 
Task Order)
            Pacific Architects and Engineers (PA&E)
    As of October 2007: 144 security personnel total (87 Physical 
Security Personnel and 57 individuals assigned to PSD personnel).
    Task Order 2737, Justice Sector Support Program (March 31, 2006-
March 30, 2008): $3,000,000
    54 Physical Security Personnel and 24 PSD personnel
    (Note: Numbers of personnel and dollar values are for security 
services only and do not represent the entire value or scope of the 
Task Order)
    Task Order A294, Corrections System Support Program (March 6, 2007-
March 5, 2008): $1,900,000
    33 Physical Security Personnel and 21 PSD personnel
    (Note: Numbers of personnel and dollar values are for security 
services only and do not represent the entire value or scope of the 
Task Order)
    Task Order 0885, U.S. Drug Enforcement Administration Support 
(March 25, 2007-March 24, 2008): $1,000,000
    12 PSD personnel
    (Note: Numbers of personnel and dollar values are for security 
services only and do not represent the entire value or scope of the 
Task Order)
    Question. Is there an office within DOS that is responsible for the 
oversight of private security contractors? What is the procedure when a 
contractor fires a weapon? What is the procedure when a contractor 
shoots someone?
    Answer. Is there an office within DOS that is responsible for the 
oversight of private security contractors?
    Diplomatic Security (DS) utilizes a two-part (parallel and mutually 
supportive) oversight structure. It is composed of a post mechanism and 
a Washington (via contract program office) mechanism.
    The DS Regional Security Officer (RSO), in conjunction with the 
Deputy RSO and the Assistant RSOs in the High Threat Protection (HTP) 
section, at post provides general oversight and manages the operations 
of security contractors. The post's HTP staff is responsible for all 
protective operations under Chief of Mission authority. The RSO 
oversees a number of DS Agents who are assigned to provide oversight of 
the protective operations which are accomplished by both DS special 
agents and PSS contractors. Additionally, the Kennedy Panel 
recommendations to deploy DS Special Agents to all motorcades; install 
exterior video and audio recording equipment in all vehicles; utilize 
audio recording equipment in the Tactical Operations Center (TOC); and 
establish an Embassy Joint Incident Review Board, will ensure the 
highest level of accountability for the Department's WPPS protective 
security contractors in Iraq. Enhancements in Iraq will be evaluated 
and considered for deployment to WPPS contractors operating in other 
countries as appropriate.
    The DS HTP program office, the Baghdad and Kabul guard force 
Contacting Officer's Representative (COR), and the Office of 
Acquisitions Management share responsibility for overseeing the 
respective contracts. The DS HTP program office, the Baghdad/Kabul 
guard force COR, and the Contracting Officers (in Washington) meet 
weekly with contractor management and conduct periodic Program 
Management/Contract Compliance Reviews of task order operations at 
posts. In addition, the DS HTP program office conducts announced and 
unannounced visits to contractor training facilities to monitor 
compliance with contract training requirements.
    Other State Department contracts in Iraq and Afghanistan include 
force protection and Personnel Security Detail elements primarily to 
protect contractor operations and staff. These contracts are overseen 
by individual Bureaus' contract administration staff, Embassy officers, 
and the Department's Bureau of Administration.
    Question. What is the procedure when a contractor fires a weapon? 
What is the procedure when a contractor shoots someone?
    Answer. PSS contractors working under the WPPS contract are 
required to immediately report operational incidents of weapons 
discharges, attacks, serious injury, or death. Contractors are also 
required to report incidents of a negative nature, including incidents 
that would reflect negatively on the United States, the State 
Department, RSO, or the contractor. Each Post has a Chief of Mission 
approved post specific Mission Firearms Policy that includes reporting 
requirements for weapons discharges. The RSO, Contracting Officer, and 
the program office receive such notifications simultaneously.
    Significant incidents involving WPPS security contractor personnel 
will be reviewed by the Embassy Joint Incident Review Board to ensure 
that specific use of force incidents are consistent with Department 
policies. Incidents of security personnel misconduct are addressed 
through procedures in accordance with our contractual arrangements.
    For non-DS contracts in Iraq and Afghanistan that include force 
protection and Personal Security Details, contractual requirements and 
corporate policies govern incident reviews in the event a weapon is 
discharged or in the event of injury or loss of life.
    Question. Are private security contractors working for DOS liable 
under U.S. law for their actions in Iraq and Afghanistan?
    Answer. The Department of State must defer to the Department of 
Justice (DOJ) to provide an opinion as to the extraterritorial 
application of U.S. criminal laws generally or the Military 
Extraterritorial Jurisdiction Act in particular. The Department of 
Justice is the Executive Branch agency charged with deciding whether to 
prosecute someone for violating U.S. law, and it would be up to DOJ in 
the first instance to judge whether jurisdiction exists under a given 
set of circumstances. Additionally, the issue of whether U.S. criminal 
jurisdiction applies to the conduct of Department of State security 
contractors overseas also depends very much on the facts at issue in 
any particular case.
    Question. What is the procedure if a private security contractor is 
suspected of having committed an unjustified or criminal shooting in 
Iraq or Afghanistan? Have any been investigated for this? Have any been 
prosecuted?
    Answer. PSS contractors working under the WPPS contract are 
required to immediately report operational incidents of weapons 
discharges, attacks, serious injury, or death. Contractors are also 
required to report incidents of a negative nature, including incidents 
that would reflect negatively on the United States, the State 
Department, RSO, or the contractor. Each Post has a Chief of Mission 
approved post specific Mission Firearms Policy that includes reporting 
requirements for weapons discharges. The RSO, Contracting Officer, and 
the program office receive such notifications simultaneously.
    The Kennedy Panel recommendations to deploy DS Special Agents to 
all motorcades; install exterior video and audio recording equipment in 
all vehicles; utilize audio recording equipment in the Tactical 
Operations Center (TOC); and establish an Embassy Joint Incident Review 
Board, will ensure the highest level of accountability for the 
Department's WPPS protective security contractors in Iraq. Enhancements 
in Iraq will be evaluated and considered for deployment to WPPS 
contractors operating in other countries as appropriate.
    Significant incidents involving WPPS security contractor personnel 
will be reviewed by the Embassy Joint Incident Review Board to ensure 
that specific use of force incidents are consistent with Department 
policies. Incidents of security personnel misconduct are addressed 
through procedures in accordance with our contractual arrangements.
    In Iraq, nine (9) personnel have been removed from the WPPS program 
for shootings not in accordance with the Rules of Engagement in the 
Mission Firearms Policy. Based on a Program Office review, two 
individuals that had been removed from the WPPS program after a 2005 
incident, were declared eligible to return to WPPS. As of October 3, 
2007, neither individual has returned to the program.
    One incident, which occurred on December 24, 2006 in Iraq, is under 
review by the Justice Department. The September 16, 2007 incident in 
Iraq is currently under investigation.
    One individual, employed in Iraq by Triple Canopy Inc. under the 
Baghdad Embassy Security Force contract, was removed due to the 
discharge of a weapon. The incident occurred on 11/07/05 and involved a 
Third Country National guard who, during an indirect fire attack, 
discharged his weapon at a vehicle from which the guard believed an RPG 
had been fired. There were no injuries as a result of this incident.
    Three (3) WPPS personnel have been investigated and/or removed from 
the program for violation of the Mission's Firearms Policy in 
Afghanistan.
    Question. What Rules of Engagement do private security contractors 
working for DOS operate under?
    Answer. The WPPS base contract and guard contracts require all 
security personnel to follow the Mission Firearms Policy of the post to 
which they are assigned. Any use of force by security personnel in the 
course of operations must comply with this policy. Other Department 
contractors follow Rules on the Use of Force (RUF) policies, as opposed 
to ``rules of engagement.'' RUF policies are stipulated in contracts 
and other corporate policies, and/or any additional rules which may be 
imposed on private contractors by the relevant military command in an 
area of operation.
    Embassy Mission Firearms Policies are defensive in nature, while at 
the same time taking into account specific circumstances surrounding 
our security operations in an active war or high threat zone. The 
Mission Firearms Policy is founded upon the Department of State's 
respect for the paramount value of all human life, and our commitment 
to take all reasonable steps to prevent the need to use deadly force. 
Accordingly, the touchstone of the policy is necessity; deadly force 
can only be used in situations where there is no safe alternative to 
using such force, and without which the security personnel and the 
individuals they are charged with protecting would face imminent and 
grave danger. The Iraq Mission Firearms Policy is based on the 
Department of Justice's Deadly Force Policy and is attached below for 
review. It is requested that this policy not be disseminated without 
permission of the Department as it contains sensitive operational 
guidelines for security personnel responsible for the protection of 
Chief of Mission personnel.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
    Question. Mr. Secretary, I share Ambassador Crocker's frustrations 
about the slow pace of progress by the Iraqi government to achieve 
national reconciliation. That is unacceptable and Iraq must do more. 
What actions is the Department of State taking to move the Iraqi 
government towards national reconciliation?
    Answer. After more than three decades of tyranny and division, 
achieving national reconciliation in Iraq is an enormous undertaking. 
The United States cannot force national reconciliation upon the Iraqis; 
the Iraqis themselves must decide to pursue reconciliation actively. 
However, some recent progress has been made in this direction. At the 
United Nations in September, Prime Minister al-Maliki acknowledged the 
need for reconciliation, and on August 26, Iraqi leaders, including 
Prime Minister al-Maliki, President Talabani, Vice Presidents Abd al-
Mahdi and Hashemi, and Kurdistan Regional Government President Barzani, 
signed an agreement pledging cooperation on a number of key political 
issues. Subsequently, agreement was reached on a new de-Baathification 
reform law that was sent to the Council of Representatives (CoR) for 
consideration. The leaders also found common ground on detainees, power 
sharing, and other pieces of legislation on which they have not been 
able to agree in the past. We support these positive developments; and 
President Bush, Secretary Rice and U.S. officials at all levels 
continue to make it clear to the Iraqis that progress on these 
legislative benchmarks, which the Iraqis set for themselves, is 
essential.
    We continue to help in creating an atmosphere in which Iraqis can 
focus on reconciliation by seeking to neutralize regional interference 
in internal Iraqi politics and enhance regional and international 
support for reconciliation. For example, we strongly support the new 
Special Representative of the Secretary-General in Iraq, Staffan de 
Mistura, and the new expanded mandate for the U.N. Assistance Mission 
in Iraq (UNAMI), which includes facilitating national reconciliation 
efforts and regional dialogue. We will also continue to assist Iraqis 
in consolidating positive developments at local levels and in linking 
up local and national efforts. Finally, we will continue to help Iraqi 
security forces provide the stability and security necessary to allow 
Iraqis to focus on the important work of reconciliation.
    Question. What actions can Congress take to encourage the Iraqi 
government to move forward with national reconciliation?
    Answer. As President Bush stated in his September 13, 2007 address 
to the nation on the Way Forward in Iraq, securing the Iraqi population 
is the foundation for all other progress and Iraqis need to feel safe 
in their homes and neighborhoods in order to bridge sectarian divides. 
Congress can help by continuing to provide crucial funds and resources 
for our military and civilian efforts and by joining the President in 
supporting the troop levels General Petraeus has recommended. These 
steps will allow our military to continue to improve security and train 
Iraqi forces to maintain it, which will, in turn, allow the Government 
of Iraq to continue to focus on national reconciliation.
    As the level of violence has slowly declined in Iraq, we have begun 
to see some political progress. For example, on August 26, Iraqi 
leaders, including Prime Minister al-Maliki, President Talabani, Vice 
Presidents Abd al-Mahdi and Hashemi, and Kurdistan Regional Government 
President Barzani signed an agreement pledging cooperation on a number 
of key political issues. Congress can encourage such progress by 
continuing to make clear that the U.S. supports a unified Iraq that is 
stable and secure and resolves differences through discussion and 
compromise.
                                 ______
                                 
               Question Submitted by Senator Larry Craig
    Question. Secretary Rice has been focusing quite a bit of attention 
on the problems in the Middle East, not just Iraq but on other large 
regional issues. I firmly believe that allowing Iraq to fall deeper 
into turmoil would further upset the balance of power in the Middle 
East, giving Iran a free-hand to impose its will upon smaller Middle 
Eastern States.
    What efforts are being done diplomatically to gain support for our 
Iraq efforts among moderate Middle Eastern countries, and what kind of 
support can we hope for from these moderate countries?
    Answer. Both U.S. and Iraqi officials continue to engage Iraq's 
neighbors bilaterally and in international forums to gain support for 
efforts in Iraq. One example of this is the Expanded Neighbors process. 
On November 2-3, Secretary Rice will attend an Expanded Neighbors 
Ministerial in Istanbul. This Ministerial provides an important venue 
to encourage Iraq's neighbors to play a helpful role in Iraq and is a 
follow-on to a successful Expanded Neighbors Conference held in Sharm 
El-Sheikh, Egypt on May 4. That Ministerial resulted in the creation of 
three working groups (energy, refugees, border security) and in a final 
communique in which participants committed to, among other things, 
support the efforts of the Government of Iraq to strengthen national 
unity, to reaffirm their obligations to combat terrorist activities, 
and to prevent the use of their territory by terrorists for supplying, 
organizing, and launching terrorist operations.
    Secretary Rice, Ambassador Crocker, and U.S. officials at all 
levels also regularly meet with representatives of regional states, 
such as Turkey, Jordan, and Saudi Arabia, to encourage these states to 
support Iraq as it seeks stability and security.
    Iraq's neighbors understand that stabilizing Iraq is crucial to 
regional security and, with the exception of Iran and Syria, they are 
engaged in helping to stabilize Iraq. In August, an Iraqi delegation 
headed by Iraqi National Security Advisor Ruba'ie traveled to Jordan to 
improve security coordination and intelligence sharing; PM al-Maliki 
visited Damascus and Ankara to sign security and economic memoranda of 
understanding with both Syria and Turkey; and the Government of Saudi 
Arabia sent a delegation to Baghdad to explore potential sites for a 
new embassy. Regional states have also contributed to the formation of 
the International Compact with Iraq, an initiative co-chaired by the 
United Nations and Iraq, to provide an ongoing mechanism to support and 
assist Iraq as it works to build a stable and prosperous nation and a 
self-sustaining economy. At the May 3 launching of the Compact in Sharm 
el-Sheikh, Saudi Arabia pledged to reduce Iraq's Saddam-era debt at 
least on the same terms as Paris Club creditors (by 80 percent).
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback
    Question. Earlier this year, Secretary Rice created a task force to 
deal with the Iraqi refugee crisis--what concrete impact has the task 
force had? Can you cite explicit recommendations or policy proposals 
put forth by the task force?
    Answer. The Iraq Refugee and Internally Displaced Persons Task 
Force, chaired by Under Secretary for Democracy and Global Affairs 
Paula Dobriansky, has brought together key players from the State 
Department, the NSC, the Department of Homeland Security, USAID, and 
the Department of Defense to coordinate assistance efforts for 
internally and externally displaced Iraqis.
    Task Force discussions have resulted in expediting initiatives to 
assist and protect Iraqi refugees and IDPs. Specifically, the Task 
Force has assisted UNHCR and NGOs in the region in providing direct 
assistance to refugees in host countries, has finalized security 
vetting procedures for Iraqi refugees (necessary for resettling 
refugees in the United States), and has garnered interagency support 
for draft legislation that will allow Iraqi locally employed staff to 
apply for Special Immigrant Visas after one year of service with the 
United States Government.
    Question. As certain Iraqi provinces are closing their borders to 
Iraqi civilians, there are concerns of the proliferation of refugee 
camps. Who is providing security for such camps? What is the role of 
the U.S. government in establishing and protecting these camps? How has 
the military handled encounters with Iraqi civilians who are fleeing 
sectarian violence?
    Answer. We are aware of reports and statements by officials 
concerning restrictive measures placed on movements of internally 
displaced persons (IDPs). These restrictions may be motivated by 
reasons of security, political considerations, and/or saturation 
capacity. However, the State Department has not received information 
confirming governorate border closings, road blocks, or check points.
    Refugee camps for Iraqis are settlements established outside Iraq, 
such as in Jordan or Syria. With respect to organized IDP camps inside 
Iraq, a July 2007 IDP camp assessment conducted by the International 
Organization for Migration (IOM) states that 13 IDP camps were assessed 
in the 15 central and southern governorates, some established by the 
Government of Iraq and some established by the Iraqi Red Crescent (IRC) 
Organization. These settlements are under the responsibility of the 
Iraqi government and the IRC organization, which provide shelter and 
security for IDPs according to the IOM. Three additional camps in the 
northern governorates were identified but not assessed. USAID and UNHCR 
continue to discourage the establishment of IDP camps and consider such 
an approach to be a last resort option.
    USAID partners are aware of additional ``makeshift camps'' or group 
settlements and believe the existence of these makeshift camps is 
probably related to the same governorates refusing registration to 
certain IDPs due to ethnicity. According to UNHCR, the major needs of 
IDPs living in group settlements are access to clean water and safe 
sanitation, adequate shelter, healthcare, safety, as well as employment 
opportunities. Due to the rapid IDP movement in and out of these 
spontaneous living areas, it is unclear how many IDPs are staying in 
the group settlements. USAID partners' emergency distributions (food, 
non-food items, water) target IDPs who are living in these group 
settlements.
    The U.S. military does not impede the movement of Iraqis who are 
escaping violence in Iraq. Support to refugee/internally displaced 
persons operations is not part of the mission of Multi-National 
Forces--Iraq. At the tactical level, commanders sometimes provide life-
saving, humanitarian relief to displaced persons as circumstances 
require.
    Question. When Iraq is stabilized to the degree where U.S. troops 
can be withdrawn, would you advocate for the voluntary return of the 
estimated 2.5 million Iraqi refugees? If not, what do you believe would 
be the best solution for these people?
    Answer. The Office of the U.N. High Commissioner for Refugees 
(UNHCR) estimates that there are 2.2 million Iraqi refugees. The vast 
majority of Iraqis displaced in the region intend to return to Iraq 
once the security situation improves. The United States Government 
strongly supports the voluntary repatriation of Iraqi refugees and is 
working with the Government of Iraq to improve security conditions to 
make their return possible.
    Question. What impact is the large scale displacement of Iraqi 
civilians having on the success of reconstruction and stabilization 
programs? How is the large scale movement of Iraq's middle class 
affecting your ability to find Iraqi professionals for reconstruction 
projects?
    Answer. The large scale displacement of Iraqi civilians contains a 
disproportionate amount of Iraq's entrepreneurs, managers, 
professionals and educated people. Displacements as well as emigrations 
have reduced the pool of Iraqi professionals available for 
reconstruction projects. While figures quantifying the impact of this 
loss to the Iraqi economy are unavailable, we believe it is 
considerable.
    Question. What is the Administration's regional approach to the 
Iraqi refugee problem?
    Answer. To address the growing humanitarian crisis of Iraqi 
displacement, we have pushed international humanitarian agencies and 
NGOs toward greater engagement inside Iraq and in neighboring 
countries, and we have worked closely with neighboring governments to 
provide assistance and protection to displaced Iraqis. United Nations, 
International Organizations, and NGO appeals for displaced Iraqis 
increased from $62.5 million in 2006 to $385 million in 2007. 
Simultaneously, the USG (State Department and USAID) has increased its 
humanitarian assistance for displaced Iraqis from $43 million in fiscal 
year 2006 to almost $200 million available in fiscal year 2007.
    In addition to significantly increasing our humanitarian 
assistance, we are closely engaged with regional governments. The State 
Department's Bureau of Population, Refugees and Migration Assistant 
Secretary Ellen Sauerbrey visited the region twice in 2007 to encourage 
neighboring countries to admit displaced Iraqis and work with 
international organizations to provide them assistance and protection. 
We regularly engage with regional governments on Iraqi refugee issues 
through our embassies and in international forums. The USG provided 
$10.3 million in direct assistance to the Government of Jordan to 
support Iraqi refugees in Jordan and $650,000 to World Food Program 
operations for Iraqi refugees in Syria. We demarched Gulf and European 
states to increase their humanitarian assistance to Iraqi refugees. 
After this demarche, the United Arab Emirates made a $10 million 
contribution to UNHCR for its programs in Syria. We also continue to 
push the Government of Iraq to fulfill its $25 million pledge to 
support displaced Iraqis.
    Through our contributions to international organizations and NGOs, 
the USG is involved in providing assistance and protection to displaced 
Iraqis. This year we have focused heavily on education. We contributed 
$39 million to the $130 million UNHCR/UNICEF Joint Education Appeal, 
and we have worked with regional governments, especially Jordan, to 
ensure that Iraqi children would be permitted to enroll in school 
regardless of the legal status of their parents. In the coming fiscal 
year we plan to give increased attention to health. Recently a number 
of U.N. humanitarian agencies, including UNHCR, WHO, UNICEF, and UNFPA, 
issued an $85 million health appeal for Iraqi refugees. We plan to 
contribute generously to this appeal.
    The USG has also expanded resettlement processing capacity in order 
to provide this option for particularly vulnerable Iraqi refugees in 
neighboring countries. In February 2007, the USG had virtually no 
refugee processing infrastructure in the two major asylum countries, 
Syria and Jordan. From March to May, U.S. Refugee Admissions Program 
(USRAP) overseas processing entities have located and leased space in 
Jordan and Syria for processing, hired and trained local and 
international staff, and prepared cases for presentation to DHS/USCIS. 
At the same time, UNHCR geared up its own operations in the region. The 
USG completed interviews of some 4,500 Iraqis by the end of fiscal year 
2007 and will continue interviews on an accelerated basis in fiscal 
year 2008, assuming cooperation and support of host governments. In 
fiscal year 2007, 1,608 Iraqi refugees were admitted, and we anticipate 
admitting some 12,000 Iraqi refugees during fiscal year 2008.

                         CONCLUSION OF HEARING

    Chairman Byrd. Thank you, Senator Cochran. Thank you, 
Secretary Gates. Thank you, all of our witnesses.
    The committee is recessed.
    [Whereupon, at 5:05 p.m., Wednesday, September 26, the 
hearing was concluded, and the committee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
